<html>
<title> - HEARING WITH SECRETARY OF COMMERCE WILBUR L. ROSS, JR.</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


         HEARING WITH SECRETARY OF COMMERCE WILBUR L. ROSS, JR.

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 14, 2019

                               __________

                           Serial No. 116-11

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov
                   
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
22-966 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfafb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>                          
                   
                   
                   
                   
                   
                   
                   
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Russell Anello, Chief Investigative Counsel
                         Tori Anderson, Counsel
          Elisa LaNier, Chief Clerk and Director of Operations
               Christopher Hixon, Minority Chief of Staff

                      Contact Number: 202-225-5051
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 14, 2019...................................     1

                                Witness

Wilbur L. Ross, Jr., Secretary, U.S. Department of Commerce
    Oral Statement...............................................     9

Written testimony of Wilbur Ross, Jr., Secretary, Commerce is 
  available at the U.S. House of Representatives Repository: 
  https://docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents entered into the record during this hearing are 
  listed below, and are available at: https://docs.house.gov.

  * Resolution offered by Rep. Jordan regarding Michael Cohen's 
  testimony; submitted by Mr. Jordan.
  * Letters from Mr. Cummings to various officials and Chairman 
  regarding the Census question - dated 3/27/18, 4/4/18, 4/24/18, 
  5/21/18, 6/28/18, 8/2/18 and 9/24/18; submitted by Ms. Hill.
  * Op-ed dated 3-13-19, written by Reps. Jordan and Meadows; 
  submitted by Mr. Jordan.
  * Opinion by Supreme Court Justices Gorsuch and Thomas dated 
  10-22-18; submitted by Mr. Higgins.
  * Excerpts from the transcript of the 3-17-16 hearing on Flint, 
  MI drinking water; submitted by Mr. Connolly.
  * Letter to the Assistant Secretary of the Army for Civil Works 
  dated 7-24-15; submitted by Mr. Connolly.
  * Letter to the Assistant Secretary of the Army for Civil Works 
  dated 10-28-15; submitted by Mr. Connolly.
  * Article by NPR dated 3-14-19, "Commerce Secretary To Face 
  Lawmakers In Hearing On Census Citizenship Question;" submitted 
  by Mr. Meadows.
  * Article in the Orange County Register dated 8-23-18, "A 
  citizenship question on the 2020 census could cost your city 
  some federal money;" submitted by Mr. Rouda.
  * Memo from CRS dated 3-7-18; submitted by Ms. Maloney.
  * Memo from CRS dated 3-8-19; submitted by Mr. Meadows.
  * Article by NPR dated 3-27-18, "Fact Check: Has Citizenship 
  Been a Standard Census Question?;" submitted by Ms. Hill.
  * Long form Census 2000; submitted by Ms. Wasserman Schultz and 
  Mr. Meadows.
  * New York v. U.S. Department of Commerce-Furman Decision; 
  submitted by Ms. Speier.
  * Letter from the Asst. Attorney General, DOJ, dated 1-27-00; 
  submitted by Mr. Meadows.
  * Section 141 of Title 13 of the U.S. Code - Population and 
  Other Census Information; submitted by Ms. Ocasio-Cortez.
  * 1950 Census form with citizenship question; submitted by Ms. 
  Ocasio-Cortez.
  * Questions planned for the 2020 Census and ACS Citizenship 
  form; submitted by Ms. Ocasio-Cortez.
  * GAO High Risk Series Report; submitted by Mr. Meadows.
  * Heritage Foundation Report on voter ID laws; submitted by Mr. 
  Jordan.
  * Questions for the Record submitted by Mr. Cummings and Mr. 
  Lynch.


 
         HEARING WITH SECRETARY OF COMMERCE WILBUR L. ROSS, JR.

                              ----------                              


                        Thursday, March 14, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 10:01 a.m., in 
room 2154, Rayburn House Office Building, Hon. Elijah Cummings 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Maloney, Norton, Clay, 
Lynch, Cooper, Connolly, Krishnamoorthi, Raskin, Rouda, Hill, 
Wasserman Schultz, Sarbanes, Welch, Speier, Kelly, DeSaulnier, 
Lawrence, Plaskett, Khanna, Gomez, Ocasio-Cortez, Pressley, 
Tlaib, Jordan, Amash, Gosar, Foxx, Massie, Meadows, Hice, 
Grothman, Comer, Cloud, Gibbs, Higgins, Norman, Roy, Miller, 
Green, Armstrong, and Steube.
    Chairman Cummings. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
of the committee at any time.
    This hearing will receive the testimony of the Honorable 
Wilbur Ross, Secretary of Commerce, regarding the 2020 
Decennial Census.
    I now recognize the ranking member.
    Mr. Jordan. Thank you, Mr. Chairman.
    I would like to start with a resolution that we have, Mr. 
Chairman, a resolution I'd like to introduce for the 
committee's immediate consideration. The resolution deals with 
the fact that, two weeks ago, we had a witness come here and, 
at our count, lied at least seven times on the witness stand, 
two obvious lies when he said he did not seek a position at the 
White House, did not want a position at the White House when, 
in fact, we all know that he did. And then, of course, his 
statements that he never, and I stress the word never, sought a 
pardon.
    We think that it is important. We sent you a letter 
yesterday, Mr. Chairman. And we'd love for you to join us in 
calling for the Justice Department to examine this issue.
    So we have a resolution. I would be happy to read it, if 
the chairman wants, but a resolution that we'd like for 
immediate consideration for the committee saying that Mr. Cohen 
committed perjury and he should be investigated by the 
Department of Justice.
    Chairman Cummings. As the gentleman, I am sure is well 
aware, the resolution is out of order. However, we would 
welcome you to submit the resolution as a document for the 
record.
    Mr. Jordan. I ask unanimous consent that the resolution 
that we prepared be entered into the record saying that Michael 
Cohen willfully and knowingly provided false information, false 
testimony under oath before the committee on February 27, 2019.
    Chairman Cummings. Without objection, so ordered. It is a 
part of the record, part of the record only.
    Chairman Cummings. All right. I recognize the gentleman for 
his opening statement.
    Mr. Jordan. Thank you, Mr. Chairman.
    Before I begin, I want to thank Secretary Ross for 
appearing today. Also, I want to take note that, under your 
leadership, your team, led by Karen Dunn Kelley, managed to 
turn around the 2020 Census.
    Under the Obama Administration, the 2020 Census was in 
disarray. Nobody knew how much was being spent on the census. 
The IT development was a mess. Simply, there was no leadership.
    I applaud you and your team for your excellent leadership. 
I am more confident now than I was two years ago when you last 
testified before the committee that we will have a successful 
2020 Census.
    Now I want to turn to the reason we are here today. It is 
the most talked about issue on the 2020 Census, the citizenship 
question. I mean, for the life of me, I do not know why the 
Democrats don't want to know how many citizens are in the 
United States of America. But for some reason, they are focused 
on this question. Maybe it is politics. It seems clear to me 
we're having this hearing today for that reason. The majority 
insists on politicizing the 2020 Census.
    Before we get too far into this sideshow, I want it on the 
record what the citizenship question actually asks. It says 
this: Is this person a citizen of the United States? The 
answers you can choose from are the following: Yes, born in the 
United States. Yes, born in Puerto Rico, Guam, the U.S. Virgin 
Islands. Yes, born abroad of a U.S. citizen parent or parents. 
Yes, a U.S. citizen by naturalization, or, no, not a U.S. 
citizen. That is it.
    The question doesn't even ask the next logical question. If 
you're not a citizen, are you in this country legally?
    While I strongly support asking if a person is in this 
country legally, I am satisfied the public policy goal of 
enforcing the Voting Rights Act can be accomplished with just 
the citizenship question.
    I would like to remind my colleagues the citizenship 
question is not new. It has appeared on previous decennial 
census questionnaires and is asked on the American Community 
Survey every single year. The majority apparently does not 
object to the American Community Survey asking a citizenship 
question, so I don't understand the majority's objection to the 
question now. It is the exact same question on both forms.
    My colleagues complain the question hasn't been tested 
because it was added at the last minute. This argument is 
simply false. The question has already gone through rigorous 
testing, over more than a dozen years, as it has appeared on 
the American Community Survey. In fact, the American Community 
Survey required more rigorous testing for this question than 
the question would have received in the 2018 Census test.
    The American Community Survey is sent to 3 million 
households annually, while the 2018 Census test in Providence, 
Rhode Island, was only tested on 600,000 people one time. If 
you're doing the math, in the past 10 years, the citizenship 
question has already been answered by 30 million households.
    But wait, there's more. In an effort to address some of my 
colleagues' objections, the Census Bureau agreed to conduct a 
2019 Census test specifically on the citizenship question. So 
it is just not true that this question is untested.
    We all know one of the biggest threats to the census is 
lack of trust in government. Today people don't trust 
government and don't want to voluntarily provide private 
information. Therefore, people are less likely to fill out the 
2020 Census than they were 10 years ago for the 2010 Census. 
The majority's drumbeat against a legitimate question on a 
person's citizenship status only compounds the problem. If 
self-response for the 2020 Census declines, it will be due to 
the majority's spreading of misinformation.
    Instead of scaring people out of completing their census 
form, let's work together to collect the data the Department of 
Justice says is needed to enforce the Voting Rights Act. The 
purpose of the data collected by the citizenship question is 
after all to ensure everyone's vote is counted fairly and no 
one suffers discrimination at the ballot box. Surely the 
majority does not object to a robust enforcement of the Voting 
Rights Act. Till last year, I would have assumed any data 
collected to assist in this would have been welcomed by my 
colleagues. I guess I was of wrong. I guess I was wrong.
    What concerns me the most, though, about the majority's 
obsession with the citizenship question is it distracts from 
this committee's work, from conducting oversight on other parts 
of the 2020 Census. This committee should be holding hearings 
about the 2020 Census' use of its IT systems and cybersecurity 
preparations. After all, this will be the first time households 
can respond to the census questionnaire online.
    We should bring in the Government Publishing Office to 
explain their epic contradicting disaster with the 2020 Census 
print contract, which will cost taxpayers another 30 million if 
there are no cost overruns.
    As Members of Congress, we have a duty to encourage people 
to complete their census form honestly and accurately. Article 
I Section 2 of the Constitution requires the government to 
enumerate the population of the United States. If it were up to 
me, I would ask only one question: How many people are in your 
household? This is all that's required by the Constitution. 
However, Congress and Presidents for decades have determined it 
is an interest of public policy to ask Americans more questions 
about the composition of their family. If we are already asking 
people their age, their race, their relationship status, 
certainly, certainly, it is in the public interest to ask if 
they are citizens of the greatest country in history.
    Mr. Chairman, I yield back.
    Chairman Cummings. We now recognize Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Secretary Ross, thank you and your entire team for being 
here. As you are well aware, this is not the first hearing on 
the census. In fact, when the Republicans were in the majority, 
we had not one, not two, but multiple hearings and briefings as 
it relates to the census. And I see some of your staff behind 
you shaking their head yes. They will know that I have not 
always been the most positive when it comes to where we are in 
our census progress.
    I do want to state for the record today that your team has 
been extremely responsive to the point where we had critical 
missions. In fact, some critical missions that still exist 
today that we should be using this hearing for when we talk 
about end-to-end testing, when we talk about the security, the 
cybersecurity of what we're going to actually implement in this 
new process of gathering information, Mr. Secretary.
    And so I want to say thank you for listening to the calls, 
in a bipartisan way, of really looking to make sure the census 
is reliable and one that actually counts the citizens of this 
great country and every person that is here.
    Now, with that being said, that is not what this hearing is 
about, sadly. And we can see by the crowds and the cameras that 
this has nothing to do with making sure that the census is 
accurately implemented and cybersecurity is dealt with. In 
fact, it has just the opposite. This comes down, as the 
gentleman from Ohio, the ranking member, indicated to one 
question and why we are asking that one question.
    Now, Mr. Secretary, I am sure we will hear from your 
testimony today that this is not the first time that we have 
asked the citizenship question on the census. In fact, when 
President Bill Clinton was in office, we actually asked one in 
six people if they were a citizen of the United States of 
America on the census. But it wasn't just then. Every 10 years, 
predominantly we have asked this question, whether it's been 
one in six or one in five, or even dating back to the 1950's 
and 1940's when we asked everyone this question. All of a 
sudden, the census has taken on a new height of political 
spectrum that I fail to realize why would we not want to know 
if someone was a citizen of this great country or not.
    Now, when we look at this, to go even further, Mr. 
Secretary, here is my concern. The Supreme Court has weighed in 
on this. In fact, Justice Gorsuch and Justice Thomas both 
raised concerns that when we start to ask questions, that it 
would be used to influence the courts. In fact, they ruled on 
it and said we shouldn't be doing that, but yet here we are 
today asking questions to try to influence the highest court in 
the land.
    Now, I say that. These are not just my words. It is 
actually the words of a member from this particular committee. 
A member from this committee actually said, and I quote, that 
he hopes that the testimony today, quote, that the courts can 
use it, close quote.
    Now, if we're setting up a hearing today to try to bypass 
what the Supreme Court has already ruled on, and yet we are 
thinking that we are going to do this in the name of being 
great supporters of the Constitution, that is not accurate, Mr. 
Secretary. And I am troubled by that, because it is very clear 
what the Supreme Court has asked. It is very clear what our 
role should and should not be. And yet we look at this 
particular question. Are we saying that asking a citizenship 
question is unconstitutional? I hope not, because we ask that 
on a variety of other things.
    We ask it many times for a driver's license. We actually 
ask whether you're a citizen or not in order to get a firearm 
in the state of California. Should we take the citizenship 
question off and make it easier for people to get firearms 
regardless of whether they're a citizen or not? I don't know 
that we would get the same response from my friends and 
colleagues opposite.
    Mr. Secretary, we are here today, and we are hoping for 
very clear and transparent testimony from you. I expect that we 
will get that. But yet, just be clear, many of the questions 
that you will receive today have nothing to do with accurately 
counting the number of people that are here in the United 
States of America. It has everything to do with politics and 
everything to do with trying to make sure that one particular 
message comes across.
    And, Mr. Chairman, I yield back.
    Chairman Cummings. Thank you very much.
    I am about to declare a recess because we have a vote to 
the members. We have alerted the floor that we are running a 
little late. We are going to go and vote, and we will come back 
at 20 of the hour, 20 of the hour.
    Secretary Ross, I'm sorry, but we have got to vote.
    And so I now declare us in recess until 20 of the hour.
    [Recess.]
    Chairman Cummings. I now call the----
    Ms. Hill. Mr. Chairman? Mr. Chairman, I have a number of 
motions I would like to make at this time.
    Chairman Cummings. Well, let me come out of recess first.
    Ms. Hill. Sorry. I'm really excited about my motions.
    Chairman Cummings. No problem.
    Mr. Higgins. Mr. Chairman, point of order.
    Chairman Cummings. Yes.
    Mr. Higgins. I ask to be recognized.
    Mr. Chairman, pursuant to House rule XVI, clause 4, alpha 
one, I have a privileged motion. Taking into consideration the 
statements made before the committee today could potentially be 
used to influence a pending Supreme Court case, I respectfully 
make a motion to adjourn.
    Chairman Cummings. The gentleman is not recognized.
    Mr. Higgins. Mr. Chairman, I believe you did recognize me, 
and this is a privileged motion.
    Chairman Cummings. I was recognizing the gentlelady. She 
already had the floor. I'll come back at you, Okay? But she had 
the floor.
    Mr. Jordan. Mr. Chairman, he cited the rule.
    Mr. Higgins. Mr. Chairman, my understanding is that I was 
recognized, and this is--a privileged motion has been presented 
before the committee.
    Chairman Cummings. The motion is not debatable.
    Those in favor, signify by saying aye.
    Those opposed, no.
    Mr. Jordan. Ask for a roll call.
    Chairman Cummings. Roll call.
    Mr. Higgins. Mr. Chairman, I ask for a recorded vote.
    Chairman Cummings. That's what we're doing.
    Mr. Higgins. Thank you, sir.
    Chairman Cummings. The clerk will call the role.
    The Clerk. Mr. Cummings?
    Chairman Cummings. No.
    The Clerk. Mr. Cummings votes no.
    Ms. Maloney?
    [No response.]
    The Clerk. Ms. Norton?
    Ms. Norton. No.
    The Clerk. Ms. Norton votes no.
    Mr. Clay?
    Mr. Clay. No.
    The Clerk. Mr. Clay votes no.
    Mr. Lynch?
    Mr. Lynch. No.
    The Clerk. Mr. Lynch votes no.
    Mr. Cooper?
    Mr. Cooper. No.
    The Clerk. Mr. Cooper votes no.
    Mr. Connolly?
    Mr. Connolly. Nay.
    The Clerk. Mr. Connolly votes no.
    Mr. Krishnamoorthi?
    Mr. Krishnamoorthi. No.
    The Clerk. Mr. Krishnamoorthi votes no.
    Mr. Raskin?
    Mr. Raskin. No.
    The Clerk. Mr. Raskin votes no.
    Mr. Rouda?
    Mr. Rouda. No.
    The Clerk. Mr. Rouda votes no.
    Ms. Hill?
    Ms. Hill. No.
    The Clerk. Ms. Hill votes no.
    Ms. Wasserman Schultz?
    Ms. Wasserman Schultz. No.
    The Clerk. Ms. Wasserman Schultz votes no.
    Mr. Sarbanes?
    Mr. Sarbanes. No.
    The Clerk. Mr. Sarbanes votes no.
    Mr. Welch?
    [No response.]
    The Clerk. Ms. Speier?
    Ms. Speier. No.
    The Clerk. Ms. Speier votes no.
    Ms. Kelly?
    [No response.]
    The Clerk. Mr. DeSaulnier?
    [No response.]
    The Clerk. Ms. Lawrence?
    Mrs. Lawrence. No.
    The Clerk. Ms. Lawrence votes no.
    Ms. Plaskett?
    Ms. Plaskett. No.
    The Clerk. Ms. Plaskett votes no.
    Mr. Khanna?
    Mr. Khanna. No.
    The Clerk. Mr. Khanna votes no.
    Mr. Gomez?
    Mr. Gomez. NO.
    The Clerk. Mr. Gomez votes no.
    Ms. Ocasio-Cortez?
    Ms. Ocasio-Cortez. No.
    The Clerk. Ms. Ocasio-Cortez votes no.
    Ms. Pressley?
    Ms. Pressley. No.
    The Clerk. Ms. Pressley votes no.
    Ms. Tlaib?
    Ms. Tlaib. Nope.
    The Clerk. Ms. Tlaib votes no.
    Mr. Jordan?
    Mr. Jordan. Yes.
    The Clerk. Mr. Jordan votes yes.
    Mr. Amash?
    [No response.]
    The Clerk. Mr. Gosar?
    Mr. Gosar. Yes.
    The Clerk. Mr. Gosar votes yes.
    Ms. Foxx?
    Ms. Foxx. Aye.
    The Clerk. Ms. Foxx votes yes.
    Mr. Massie?
    Mr. Massie. Yes.
    The Clerk. Mr. Massie votes yes.
    Mr. Meadows?
    Mr. Meadows. Aye.
    The Clerk. Mr. Meadows votes yes.
    Mr. Hice?
    Mr. Hice. Yes.
    The Clerk. Mr. Hice votes yes.
    Mr. Grothman?
    Mr. Grothman. Yes.
    The Clerk. Mr. Grothman votes yes.
    Mr. Comer?
    Mr. Comer. Yes.
    The Clerk. Mr. Comer votes yes.
    Mr. Cloud?
    Mr. Cloud. Yes.
    The Clerk. Mr. Cloud votes yes.
    Mr. Gibbs?
    Mr. Gibbs. Yes.
    The Clerk. Mr. Gibbs votes yes.
    Mr. Higgins?
    Mr. Higgins. Yes.
    The Clerk. Mr. Higgins votes yes.
    Mr. Norman?
    Mr. Norman. Yes.
    The Clerk. Mr. Norman votes yes.
    Mr. Roy?
    Mr. Roy. Yes.
    The Clerk. Mr. Roy votes yes.
    Ms. Miller?
    Mrs. Miller. Aye.
    The Clerk. Ms. Miller votes yes.
    Mr. Green?
    Mr. Green. Yes.
    The Clerk. Mr. Green votes yes.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    The Clerk. Mr. Armstrong votes yes.
    Mr. Steube.
    Mr. Steube. Yes.
    The Clerk. Mr. Steube votes yes.
    The Clerk. On this vote we have--on this vote we have 17 
yeas and 20 noes.
    Chairman Cummings. Thank you very much.
    I now recognize Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman.
    Point of clarification, I know that I'm new, which is why I 
got a little overeager earlier, but prior to us getting here, 
how many times did we as Democrats try to shut down a hearing 
like this while the Republicans were in the majority?
    Chairman Cummings. In my 22, 23 years on this committee, 
never.
    Ms. Hill. Thank you. Mr. Chairman, I have a number of 
motions I would like to make at this time.
    Chairman Cummings. The gentlelady is recognized.
    Ms. Hill. As the gentleman from Louisiana suggested, 
following Mr. Jordan's and Mr. Meadows' publishing an op-ed 
yesterday asserting that today's hearing is, and I quote, 
designed to interfere with the ongoing Supreme Court case, that 
statement is false.
    I ask unanimous consent to enter into the record the 
invitation letter that Chairman Cummings sent to Secretary Ross 
on January 8, 2019.
    Mr. Meadows. I object.
    Chairman Cummings. The gentleman objects.
    Mr. Connolly. Mr. Chairman, would my colleague yield for a 
second?
    Ms. Hill. Yes.
    Mr. Connolly. I would plead with my friend from North 
Carolina, if we're going to go down the road of objecting to 
unanimous consent inclusions of material for the record, it 
will be a sad day for this committee, and two can play that 
game. And so I would strongly urge my friend from North 
Carolina to withdraw his objection to a unanimous consent.
    Mr. Meadows. I appreciate the tone and tenor of where my 
good friend from Virginia would certainly articulate his 
concerns, and I have some of the same concerns. We don't want 
to go down this.
    I would ask the gentlewoman to consider changing one of the 
phrases that she put in there, where she says this is false. I 
mean, you can say I have a resolution that contradicts, we have 
a number of things, but to suggest that it is false when we 
have a quote from a Democrat member of this committee stating 
what I said in my opening statement, that would certainly be 
evidence to support my opening statement. So if she wants to 
put in a resolution that offers a counterpart, I would be glad 
to withdraw my objection.
    Ms. Hill. I will change my phrasing and say that we have 
a--several things that I would like to enter into the record 
that contradict what the statement that was put in place in 
your op-ed and by the gentleman from----
    Mr. Meadows. Then I certainly withdraw my objection.
    Mr. Connolly. And I thank both of my colleagues.
    Chairman Cummings. Without objection, so ordered.
    Next document.
    Ms. Hill. Thank you. I ask unanimous consent to enter into 
the record the invitation letter that Chairman Cummings sent to 
Secretary Ross. That's the one we did. That letter was sent 
over a month before the Supreme Court agreed to hear the case.
    For the record, the chairman sent his invitation letter to 
Secretary Ross before either the district court in New York or 
the district court in California ruled in their cases.
    I would also like to ask unanimous consent to insert----
    Chairman Cummings. Without objection, so ordered on that--
that was a second document, right?
    Ms. Hill. No, it is the same one. I was just elaborating.
    Chairman Cummings. Okay. Go ahead.
    Ms. Hill. I would also like to ask unanimous consent to 
insert into the record the following letters from Chairman 
Cummings dating all the way back to March of last year on this 
exact same topic. It is a March 27, 2018, letter to Chairman 
Gowdy requesting this very hearing with Secretary Ross. He 
declined.
    There is an April 4, 2018, letter requesting documents from 
the Commerce Department. They refused.
    There is an April 24, 2018, letter asking Chairman Gowdy to 
issue a subpoena. He declined.
    There's a May 21, 2018, letter asking Chairman Gowdy to 
allow a vote on subpoenas. He declined.
    There is a June 28, 2018, letter from Chairman Cummings, 
Rep. Maloney, and 50 other Democrat members asking Secretary 
Ross to answer questions. He never did.
    There is an August 2, 2018, letter asking Chairman Gowdy, 
again, to hold a hearing with Secretary Ross. He refused.
    There's a September 24, 2018, letter from Representative 
Cummings and Representative Connolly asking Chairman Gowdy to 
subpoena Secretary Ross to testify about his misleading 
statements to Congress. He declined to do so.
    As all of these letters show, the Republican claim that we 
are trying to interfere with the Supreme Court case is 
completely contradicted.
    Chairman Cummings. Without objection, the documents 
referred to by the gentlelady, Ms. Hill, are ordered into the 
record.
    Ms. Hill. Thank you. We are an independent branch of 
government, and it is time we start acting like it.
    Thank you.
    Chairman Cummings. Thank you very much.
    Mr. Jordan. Mr. Chairman, can I get one quick unanimous 
consent?
    Chairman Cummings. Yes, please.
    Mr. Jordan. That the op-ed that was published yesterday, we 
would like to enter that into the record, from Mr. Meadows and 
myself.
    Chairman Cummings. Just tell me a little bit more. He says 
it's an op-ed.
    Mr. Jordan. The Democrats--the op-ed that was on FOX News 
that----
    Chairman Cummings. Without objection, so ordered.
    Mr. Jordan. Thank you.
    Mr. Higgins. Mr. Chairman?
    Chairman Cummings. Yes.
    Mr. Higgins. I would like to submit a letter penned by 
Supreme Court Justice Gorsuch and Supreme Court Justice Thomas 
warning against further record-seeking endeavors in a legal 
setting because, to quote them, after weighing, among other 
things, the likelihood of review and the injury that could 
occur without a stay, this letter written by two Supreme Court 
Justices, not by a member of a committee in Congress, warning 
against further legal proceedings, to which this certainly is, 
which could injure the integrity of the case pending before the 
Supreme Court. I ask that it be entered into the record.
    Chairman Cummings. Without objection, so ordered.
    Mr. Connolly. Mr. Chairman?
    Chairman Cummings. Yes.
    Mr. Connolly. I also have a unanimous consent request. 
There's been some speculation by some members of this committee 
that we can't possibly have this hearing or even request 
documents when there's pending civil litigation, and we have a 
long history on this committee of actually doing just that.
    I ask unanimous consent to enter into the record excerpts 
from the Flint Water Committee hearing transcript of March 17, 
St. Patrick's Day, 2016. That hearing was the third hearing as 
part of the bipartisan investigation, which was then led by 
Chairman Chaffetz, as well as yourself, Mr. Cummings. The 
committee conducted these hearings despite pending litigation 
filed by environmental and civil rights groups against several 
individuals, including the Michigan Governor at that time, Rick 
Snyder, in January 2016. I would ask unanimous consent to enter 
that into the record.
    Chairman Cummings. Without objection, so ordered.
    Mr. Connolly. And I would also like to ask unanimous 
consent to insert into the record two letters dated July 24, 
2015, and October 28, 2015, from Chairman Chaffetz, Chairman 
Jordan, and Chairwoman Lummis to the Assistant Secretary of the 
Army at that time. These letters were part of the committee's 
investigation into the decisionmaking process for the Waters of 
the United States Rule. That investigation was conducted, 
nonetheless, at the same time as litigation filed in June 2015 
by 22 states challenging the rule. Subsequently, the committee 
demanded and obtained documents in response to their request 
during the pending litigation. I ask that those letters be 
entered into the record.
    Chairman Cummings. Without objection, so ordered.
    Mr. Connolly. I thank the chair.
    Mr. Meadows. Mr. Chairman, I have got one last unanimous 
consent request. I ask unanimous consent that the article 
published in NPR on March the 14, where it has a quote from a 
member of this committee suggesting that this hearing would be 
used as evidence before the Supreme Court be entered into the 
record.
    Chairman Cummings. Without objection, so ordered.
    Mr. Meadows. Thank you.
    Chairman Cummings. I now recognize myself.
    Let me say this. At the beginning of the hearing, I 
provided the other side with an extra opening statement. Rather 
than take additional time for my side, at this time I will 
reserve for our side so we can start the hearing and proceed to 
member questions.
    Good morning, everyone. Today the committee will hear 
testimony from Secretary of Commerce, the Honorable Wilbur 
Ross, about preparations for the 2020 Census.
    The Constitution requires our government to conduct a 
census every 10 years. The Constitution also requires us to 
count every person. The latest census begins next year, and 
significant challenges have been raised by the Government 
Accountability Office and others about whether we will be 
ready.
    Today's hearing will be our first of several this year, and 
we will look to our very able Subcommittee on Civil Rights and 
Civil Liberties, headed up by the Honorable Jamie Raskin, to 
followup with additional hearings. We want to make sure that 
we're tracking progress, highlighting small problems before 
they become large problems, and ensuring that outstanding 
recommendations are being implemented effectively and 
efficiently.
    Today, we will also examine Secretary Ross's decision to 
add a new citizenship question after experts--listen up--at the 
Census Bureau warned, and I quote, that it harms the quality of 
the census challenge. Let that sink in. That's what the experts 
told Secretary Ross.
    We have very serious questions about whether Secretary Ross 
was truthful when he appeared before Congress last year and 
testified on three occasions that he added the citizenship 
question only because the Department of Justice requested it.
    Ladies and gentlemen, on March 20, 2018, Secretary Ross 
testified, and I quote, we are responding solely to the 
Department of Justice's request, end of quote. He repeated the 
same claim on March 22, and then he did it again on May 10.
    After Secretary Ross testified, new documents showed that 
he was engaged in a secret campaign to add the citizenship 
question from the very first days after he arrived at the 
Department of Commerce. These documents showed that he was not 
merely responding to a request from another agency. To the 
contrary, he was choreographing these efforts behind the 
scenes. He became impatient when his demands were not being 
met, and he was working directly with officials at the highest 
levels of the Trump administration to force this issue through, 
including Steve Bannon and Jeff Sessions.
    These are the facts. They are not in dispute. Two judges, 
two judges have already struck down the citizenship question, 
and they issued stinging decisions finding that Secretary Ross 
violated--I didn't say it, Federal judges said it--violated 
Federal law and the United States Constitution. They found that 
his claim of merely responding to a request from the Department 
of Justice was a pretext and a false one. Again, I didn't say 
that; the judges said that.
    Let me address that pretext directly. Secretary Ross and 
others in the Trump administration have claimed that adding the 
citizenship question was necessary to obtain better data to 
enforce the Voting Rights Act. First of all, I do not know 
anyone who truly believes that the Trump administration is 
interested in enhancing the Voting Rights Act. This 
administration has done everything in its power to suppress the 
vote, not to help people exercise their right to vote.
    Second, I have championed voting rights all of my adult 
life, and the Voting Rights Act is an essential tool. It is 
what underpins our democracy. But in the more than 50 years 
since it was signed into law, voting rights, the Voting Rights 
Act enforcement has never used citizenship data from every U.S. 
household. Not once.
    Third, the judges who examined this evidence held that the 
Voting Rights Act claim was a fake justification for the 
citizenship question. I didn't say it; they said it. One judge 
ruled that Secretary Ross, and I quote--listen to this, this is 
what they said about Secretary Ross, a judge. He says, quote, 
concealed its true basis, rather than explaining it, end of 
quote.
    So the key question we will ask Secretary Ross today is 
what was he hiding from the Congress. What's the real reason 
that the Trump administration wanted to add this 
unconstitutional citizenship question? Every piece of evidence 
we discover brings us closer to the truth.
    Just this past week, the committee conducted a transcribed 
interview with a key witness from the Department of Justice, 
John Gore, who was involved with drafting the request for 
citizenship question. Mr. Gore admitted that a former 
transition team official provided him an initial draft of a 
letter from the Department of Justice asking for the 
citizenship question to be added. We have summarized this and 
other information from Mr. Gore's interview in a supplemental 
memo that I am providing to members this morning.
    Unfortunately, throughout this entire process, the Trump 
administration has obstructed and delayed our investigation. 
Both the Department of Commerce and the Department of Justice 
have withheld key documents and refused to answer legitimate 
questions.
    Now, Secretary Ross and I exchanged several letters last 
week. We accommodated some of his concerns, and thankfully, he 
accommodated some of ours. And I appreciate that, Mr. 
Secretary. Based on these agreements, I expect Secretary Ross 
to fully answer all of our questions about the census and not 
avoid our questions based on the meritless claim that there is 
a separate--there's separate litigation going on. So I 
appreciate that and I look forward to his answers.
    Chairman Cummings. And with that, I am very, very pleased 
to have the Secretary stand, please.
    Secretary Ross. Good morning, Chairman Cummings.
    Chairman Cummings. I want to swear you in first.
    Secretary Ross. Oh, sorry.
    Chairman Cummings. I'm sorry. I apologize. Thank you very 
much.
    Mr. Secretary, do you swear or affirm that the testimony 
you're about to give is the truth, the whole truth, and nothing 
but the truth, so help you God?
    Secretary Ross. I do, sir.
    Chairman Cummings. Thank you very much.
    Let the record show that the witness answered in the 
affirmative. And you may be seated and you may proceed.

STATEMENT OF THE HONORABLE WILBUR L. ROSS, JR., SECRETARY, U.S. 
DEPARTMENT OF COMMERCE

    Secretary Ross. Good morning, Chairman Cummings.
    Chairman Cummings. Good morning.
    Secretary Ross. Ranking Member Jordan and members of the 
committee, thank you for inviting me to testify. I also thank 
the chairman for limiting this hearing's scope so that my staff 
can produce documents beyond the approximately 8,700 already 
provided. And I appreciate your agreement that I can submit 
written answers to questions about my personal finances after 
the hearing for the record.
    Many of you have questions about the 2020 Decennial Census, 
and I welcome the opportunity to discuss that topic today. Let 
me be clear at the outset. The Department of Commerce is fully 
committed to administering as complete and accurately a 
decennial census as we can. We intend to try to count every 
person and are taking all necessary actions to do so.
    When I assumed office in 2017, I immediately began a deep 
dive into oversight of the decennial census. There was 
significant work to do preparing for the hiring and training of 
more than 450,000 part-time, temporary census workers. Working 
with outside experts, we concluded that the prior 
administration underestimated the budget by $3.2 billion, about 
25 percent. OMB and Congress accepted our finding.
    We were also making far greater use of administrative 
records than ever before, especially for one of the most 
severely undercounted segments, children. We have a half 
billion dollar advertising campaign specially designed to reach 
hard to count communities, and on the 2020 Decennial Census, 
people will now be able to respond in 12 non-English languages, 
five more than in 2010.
    We started our community partnership program a year earlier 
relative to the census than last time. There already are more 
than 1,500 state, tribal, and local governments helping us, 
double what the census had in 2010. And we will do our best to 
collect more complete data.
    On March 26, 2018, I decided to reinstitute a citizenship 
question on the 2020 Decennial Census, pursuant to the 
statutory authority given to me by Congress. My reasoning is 
explained in my March 26, 2018, decision memo. It is available 
on the Department of Commerce website.
    Questions about citizenship or country of birth or both 
were asked as part on all but one U.S. Decennial Census for 180 
years, from 1820 to the year 2000. Indeed, the citizenship 
question continues to be asked every year by the Census Bureau 
on the American Communities Survey, or ACS for short. It is a 
sample survey distributed annually to about 2.64 percent of the 
American population.
    Prior to my March 26 decision, we understood that the 
Department of Justice might want a citizenship question 
reinstated on the decennial census. There is no formal process 
for adding questions to the decennial census. However, other 
Federal agencies had previously submitted written requests for 
questions to be added to the ACS, and such requests triggered 
an internal Census Bureau review prior to a final decision.
    I instructed staff to followup with DOJ for a written 
statement confirming whether or not DOJ was going to ask for 
reinstatement of the question. I wanted to make sure that we 
had enough time to adequately consider any formal request that 
DOJ might make.
    Ultimately, on December 12, 2017, DOJ made a formal written 
request that the Census Bureau reinstate the citizenship 
question on the decennial census. DOJ sought census block-level 
citizenship data for use in Voting Rights Act enforcement. In 
response, the Census Bureau initiated a legal policy and 
programatic review process to consider ultimate means of 
meeting DOJ's request.
    We had discussions with numerous external stakeholders and 
elected officials, including Speaker Pelosi and including 
Chairman Cummings, both of whom opposed the idea. We evaluated 
thousands of pages of analysis, including written submissions 
by other members of this committee. We submitted our list of 
decennial census questions to Congress by the March 31, 2018, 
statutory deadline.
    Following receipt of DOJ's letter and during our review, 
Census Bureau officials recognized that current ACS data did 
not meet DOJ's request for census block-level data. The Census 
Bureau analysis also showed that when noncitizens respond to 
the ACS question on citizenship, they respond incorrectly 
approximately 30 percent of the time. In my March 26 decision 
memo, I describe more details of the decisionmaking process and 
the alternatives we considered to reinstating the citizenship 
question.
    As you know, certain aspects of this issue are in 
litigation before the Supreme Court and before other courts. 
However, I look forward to answering as many of your questions 
as I can.
    Again, I want to be clear that we intend to count as many 
people as possible. I will be happy to discuss the actions we 
are taking to try to do so. Thank you for your indulgence.
    Chairman Cummings. Thank you very much.
    I now recognize myself for some questions.
    Secretary Ross, you have claimed repeatedly that you added 
the citizenship question only because the Justice Department 
asked you to. You testified under oath on three occasions. Each 
time, you said you were responding solely to the Department of 
Justice's request. But now we have obtained documents showing 
that you were working to add the citizenship question from your 
very first days at the Commerce Department.
    Secretary Ross, our interest is getting to the truth, and 
then once we get to it, we are going to defend it. And my 
approach is to give a witness a chance to come clean, to tell 
the truth, and to clarify their previous testimony, if 
necessary. That is what I did with Michael Cohen, and that is 
what I want to afford you the opportunity to do today.
    So, Mr. Secretary, let me ask you here today, in light of 
all of these documents that have come to light, do you wish to 
withdraw your previous testimony to Congress that your decision 
to add the citizenship question was based, and I underline, 
solely, solely on requests from the Department of Justice?
    Secretary Ross. May I answer, sir?
    Chairman Cummings. Yes, of course.
    Secretary Ross. My reasons for adding the citizenship 
question are described in detail in the March 26, 2018, 
decision memo. After we received the Department of Justice 
letter on December 12, 2017, we, namely Commerce Department, 
myself, and the Census Bureau, initiated a very detailed, very 
thorough process to consider that request. That's what we were 
responding to.
    I had been told--that's what I would say at this stage. If 
you have detailed questions about the testimony, we can get 
into them later on.
    Chairman Cummings. Well, I just want to make sure we're 
clear, because a lot has been said in this committee about the 
truth. And I'm not trying to trip you up; I'm just trying to 
make sure that the committee is clear, because I think it is 
very, very important. So I'm just going to ask you one more 
time, then I'm going to leave that alone.
    So are you saying, again, in light of all of these 
documents that we have come--that have come to light, you do 
not wish to withdraw your previous testimony? Is that what 
you're saying?
    Secretary Ross. I testified truthfully to the best of my 
ability in response to what my understanding of the questions 
were.
    Chairman Cummings. Okay. And you understand that there are 
documents that, on their face, seem to contradict what you're 
saying. Do you understand that?
    Secretary Ross. I welcome the opportunity to get into the 
individual documents whenever you wish, sir.
    Chairman Cummings. All right. Mr. Secretary, on March 10, 
2017, just--just 10 days after you took office, your staffers 
sent you an email about, quote, your question on the census, 
end of quote. His email explained that undocumented immigrants 
are counted for apportionment purposes and not included in the 
census.
    Mr. Secretary, this was nine months before you got any 
letter from the Justice Department. Isn't that right?
    Secretary Ross. That is correct as to the timing. I was 
early on in the administration, and I wanted to understand lots 
of questions' answers. One of the questions was that one, and I 
received an answer to it.
    Chairman Cummings. And it is your testimony today, sir, 
that your interest in the citizenship question had nothing to 
do with counting undocumented immigrants for apportionment 
purposes?
    Secretary Ross. No, sir, it did not. That was simply 
seeking information. If you look at my emails during that 
period, you will find lots and lots of other questions, and if 
you look at the records of my conversations with members of the 
Department, you'll find I have lots of questions to this day 
seeking further information, seeking clarification, seeking 
details of things that I was unsure of.
    Chairman Cummings. All right. Speaking of seeking details, 
in early April 2017, you got a call from Steve Bannon about the 
citizenship question. That was also a month before the 
Department of Justice sent its letter. Is that correct?
    Secretary Ross. Yes, sir.
    Chairman Cummings. Is it your testimony that your call with 
Mr. Bannon had nothing to do with efforts to pursue the 
citizenship question?
    Secretary Ross. Steve Bannon called with the simple 
request, namely asking if I would take a call from Kris Kobach, 
and I agreed to that request as a courtesy since he was a White 
House staffer. And shortly thereafter, possibly the next day, I 
did have a conversation with Kris Kobach.
    Chairman Cummings. And so at Mr. Bannon's direct--you spoke 
to Mr. Kobach on July 14, 2017. Is that correct?
    Secretary Ross. Yes. I don't remember the date, but 
sometime around----
    Chairman Cummings. That was the date.
    Secretary Ross [continuing]. that point in time there was a 
followup from Kris Kobach to me.
    Chairman Cummings. And so Mr. Kobach, you spoke to him on 
July the 14, 2017, and Mr. Kobach emailed you and asked you to 
add the citizenship question. He wrote that it was needed to 
address the--and I want you to listen to me carefully, this is 
what Mr. Kobach wrote to you. He said he wanted it added 
because, and then it says, quote, problem that aliens who do 
not actually reside in the United States are still counted for 
congressional apportionment purposes, end of quote.
    That was also several months before any letter from the 
Justice Department came to you. Is that correct?
    Secretary Ross. It is correct that that was before the 
census letter. It is also correct that I rejected the question 
that Kris Kobach wanted asked.
    Chairman Cummings. Is it your testimony that nothing in 
your emails or phone calls with Mr. Kobach had anything to do 
with your efforts to push the citizenship question?
    Secretary Ross. Well, I have no control over what Kris 
Kobach or anyone else puts in an email sent to me.
    Chairman Cummings. Mr. Secretary, as we evaluate the truth, 
we often look to see whether testimony is corroborated by 
documents. And these documents, on their face, show that the 
reason you have given to us for adding the citizenship question 
is a pretext.
    In fall of 2017, your staff hand-delivered a secret memo 
and handwritten note about the citizenship question to John 
Gore at the Department of Justice. Did the secret memo or note 
describe the real reason you wanted to add the citizenship 
question?
    Secretary Ross. First of all, sir, I think I'd like to 
correct the record.
    Chairman Cummings. Please do.
    Secretary Ross. I don't believe there's anything in 
evidence that my staff delivered a message of that sort to 
Gore.
    Chairman Cummings. Well, that's why we need to see the 
documents, so that we can get to the truth. We have been 
trying--no, you go ahead.
    Secretary Ross. I'm sorry, sir.
    Chairman Cummings. Did you want to say something to me, Mr. 
Secretary? Were you about to say something?
    Secretary Ross. Yes. What I would like to ask, sir, is if 
you feel you have a document of that sort, would you oblige me 
to show it to me?
    Chairman Cummings. I promise you I'll do that.
    Mr. Secretary, we have been trying to get certain documents 
for months, and we specifically requested it in advance of this 
hearing. Why have you not provided documents to the committee?
    Secretary Ross. I'm sorry. I didn't hear the question, sir.
    Chairman Cummings. I said why have you not provided the 
document to the committee?
    Secretary Ross. We have provided 8,700 documents already.
    Chairman Cummings. But not this document, this particular 
document.
    Secretary Ross. I can't talk to a specific individual 
document, sir. I believe by agreement you said that we could 
provide additional documents supplementary, and I will discuss 
that with my staff after the hearing.
    Chairman Cummings. Well, when you discuss it with your 
staff, it's our understanding that Mr. Meyer presented it to 
Mr. Gore. I mean, just for your information. Mr. Meyer. 
Uthmeier, I'm sorry.
    Secretary Ross. I'm sorry, who?
    Chairman Cummings. Uthmeier. When we had a transcribed 
interview with Mr. Gore, he said that Mr. Uthmeier presented it 
to him. So I'm just--just for your information, so maybe you 
can--and it will be helpful in you finding it, okay?
    Secretary Ross. Thank you very much, sir.
    Chairman Cummings. All right. We will now--my time has 
expired.
    Mr. Meadows.
    Mr. Meadows. Mr. Secretary, over here. There seems to be 
some indication that there were nefarious purposes for 
including this particular question on the census. Do you 
believe that President Bill Clinton had nefarious purposes in 
mind when he included a citizenship question on the 2000 
Census?
    Secretary Ross. I have no ability to read President 
Clinton's mind, but I have no reason to believe that he had 
nefarious purposes in including the question.
    Mr. Meadows. Do you have any knowledge of any other 
Democrat President who had nefarious purposes in mind when they 
included the census question on previous--I mean the 
citizenship question on previous censuses?
    Secretary Ross. Well, I'm sure there were, but I have not 
approached this as a partisan matter, so I haven't tried to 
differentiate whether there's a Democratic President or a 
Republican President.
    Mr. Meadows. So you're saying that you're approaching this 
just from a census point of view to get an accurate count for 
the United States of America. Is that your sworn testimony?
    Secretary Ross. Yes, sir. As explained in the decision memo 
of March 26, 2018, it is also to comply with the request by the 
Department of Justice that we add the citizenship question so 
that they could have block-level census data.
    Mr. Meadows. So let me go a little bit further. If your 
team, who--I would assume that this one question is not the 
highest priority of making sure that we have an accurate 
delivery of the system census. Is that correct?
    Secretary Ross. Well, we have worked very hard to make sure 
that this is the best census that we can possibly deliver. I 
explained earlier in my prepared remarks that we have added 
$3.2 billion to the budget, and we got the concurrence of the 
OMB and ultimately the Congress to add that to the life-cycle 
cost.
    If I had a nefarious purpose, I surely wouldn't have added 
$3.2 billion to the budget for the census. And specific things 
that we have done to try to improve it, we are using far more 
administrative records than has ever been the case before.
    I mentioned briefly that we're adding many records from the 
state and local levels about children. We now have access, for 
the first time ever, to the WIC records, the SNAP records, and 
the TANF records from many constituencies. And I made many 
calls to the Governors to try to get them to agree to give us 
those documents. We also have far more census complete count 
committees with state and local governments than ever before.
    Further, we are hiring far more partnership specialists 
than had ever been the case before. Partnerships are important 
because they are trusted local institutions from within the 
community who will be cooperating with us and encouraging 
people to understand why it's important to complete the census 
and that their privacy will be maintained. Our advertising 
program will emphasize both themes, and we will have 
advertising available in multiple languages. We also will have 
census documents available in 12 languages versus the five 
other than English that were available before.
    And we have done a couple more--many more things. A couple 
of which that occur readily to mind, we have provided for those 
who wish to do so the ability to respond to the census by 
internet. They're not required to fill out forms, they're not 
required to do anything of that sort. They still can fill out 
forms if they want. They still can respond by telephone if they 
want, but they're not required to do so.
    Mr. Meadows. So let me----
    Secretary Ross. So we are taking those and many other 
steps. I'm sorry, sir.
    Chairman Cummings. The gentleman's time has expired. The 
gentleman's time has expired.
    Mr. Meadows. Mr. Chairman, you had 10 minutes. I'm the 
opening questioner.
    Chairman Cummings. Whoa, whoa, whoa, whoa, whoa. Hold up. 
Remember, I had an extra five minutes that I had reserved, and 
I used it. So I used 10 minutes.
    Mr. Jordan. You had a nine-minute opening statement and 10-
minute opening questioning round. All he's asking for is one 
more question.
    Chairman Cummings. One question.
    Mr. Meadows. So, Mr. Secretary, to be clear, you have 
taken--is it correct that you have taken extraordinary measures 
to not only count the number of people accurately, but to 
expand the way that we do that that is unparalleled in the 
history of the census?
    Secretary Ross. That is correct, sir. We have increased the 
ways that they can respond. We have increased the advertising 
budget for response. We have increased the community outreach. 
We have increased the census complete count committees in 
states. We have done all kinds of things that we could think of 
to make sure that we have the best census possible.
    Mr. Meadows. I appreciate the chairman's courtesy.
    Chairman Cummings. Thank you very much.
    Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Mr. Secretary, I want to really narrow in on specific 
communication between your department--you and the Department 
of Justice that the chairman was eluding to. So on August 11, 
2017, Earl Comstock, a senior official at the Department of 
Commerce, emailed you about a memo. And he said, according to 
our information, this is quotes from you--or from him: Per your 
request, here is a draft memo on the citizenship question that 
James Uthmeier in the Office of General Counsel prepared and I 
reviewed.
    Mr. Secretary, why did you request a memo on the 
citizenship question in August 2017?
    Secretary Ross. If you have the memo, it would help me 
refresh my recollection, sir.
    Mr. DeSaulnier. All right. Well, if you will provide us, 
because in our efforts to get this information, your counsel's 
made it more difficult.
    So you don't remember the request, you don't remember----
    Secretary Ross. I don't remember the details of any memos, 
sir. If you could show it to me----
    Mr. DeSaulnier. Do you remember it at all?
    Secretary Ross. If you could show it to me, I would be 
happy to try to be refreshed.
    Mr. DeSaulnier. So you don't remember it at all? Okay.
    Secretary Ross. You posed a very broad question to me, sir.
    Mr. DeSaulnier. No, it's very specific, Mr. Secretary, and 
this is very important.
    Secretary Ross. I'm sorry, I couldn't hear you.
    Mr. DeSaulnier. This is very specific and very important as 
to what you claim is your defense. So we would appreciate as 
much information from you directly as possible.
    Let me continue. Last week, committee staff interviewed 
John Gore, the senior DOJ political appointee, who was in 
charge of drafting DOJ's request letter. Mr. Gore said that in 
September 2017, he received a call from your counsel, Mr. 
Uthmeier, to discuss this citizenship question. After the call, 
Mr. Uthmeier hand-delivered a memo and a handwritten note about 
the citizenship question to Mr. Gore's office. He didn't email 
it over; he had someone walk it over.
    Mr. Uthmeier explained to Mr. Gore why he was walking over 
the memo, but the Justice Department blocked Mr. Gore from 
telling us, that's the committee, the reason why he walked it 
over. And Mr. Gore said he did not show the memo to anyone else 
at the Justice Department.
    Mr. Secretary, do you know what Mr. Uthmeier's memo and 
note said about the citizenship question?
    Secretary Ross. I do not know, sir, as I sit here.
    Chairman Cummings. Keep your voice up.
    Secretary Ross. I do not know as I sit here what the 
Uthmeier memo said.
    Mr. DeSaulnier. Did you direct him to do it? He's your 
counsel.
    Secretary Ross. I'm sorry, sir?
    Mr. DeSaulnier. Did you direct Mr. Uthmeier to do the memo 
and to walk it over because you were concerned about email?
    Secretary Ross. I do not have any recollection of that as I 
sit here.
    Mr. DeSaulnier. Mr. Secretary, so far, the committee has 
been unable to get a copy of these documents, despite multiple 
requests and interviews with your staff and with Department of 
Justice staff. We need your commitment, your full commitment 
with these specific communications, that we'll get cooperation 
to get to the facts; otherwise, it's hard for us not to 
conclude that you're, at the very least, obfuscating your role 
and what you said in front of this committee. So will you 
commit to giving it all to us and letting your counsel clear 
the way to get direct answers to our questions?
    Secretary Ross. I will certainly address the question to my 
staff and to my counsel. To the degree that this is involved in 
pending litigation, there may be problems.
    Mr. DeSaulnier. Mr. Secretary, with all due respect, you're 
a Cabinet member. The buck stops with you. Will you 
specifically, individually, in front of this House committee, 
under oath, promise to cooperate with us and get us the 
information? You not your staff, you.
    Secretary Ross. We already have----
    Mr. DeSaulnier. Yes or no, Mr. Secretary, with all due 
respect.
    Secretary Ross. Sorry, I can't answer it yes or no. I need 
to answer it the best I can.
    Mr. DeSaulnier. Are you responsible, you?
    Secretary Ross. I will discuss it with counsel and with my 
staff, and we will give you a prompt response.
    Mr. DeSaulnier. I will yield the balance of my time to the 
chair.
    Chairman Cummings. When can we expect that response?
    Secretary Ross. I'm sorry, sir?
    Chairman Cummings. You just said that you would give us a 
response. You said you would consult with your staff and give 
us a response with regard to the documents.
    Secretary Ross. After the hearing, sir.
    Chairman Cummings. All right. All right. Does that mean 
today?
    Secretary Ross. I'll discuss it with them. I don't know how 
long it will take them to come up with their response.
    Chairman Cummings. Well, we'd like to have an answer as 
soon as possible, if you don't mind.
    Secretary Ross. I understand the request, sir.
    Chairman Cummings. We've been waiting for a while.
    Secretary Ross. I will take it up with my staff.
    Chairman Cummings. Very well.
    Mr. Steube.
    Mr. Steube. Thank you, Mr. Chair.
    I'm over here, Mr. Secretary, to your left. Thank you, Mr. 
Secretary, for being here today. I just want to say kind of at 
the outset, I just find this whole issue fascinating. We've 
already heard in this committee time and time again that 
historically in this country, even under Democratic Presidents, 
the census has asked the question whether you're a citizen or 
not, so why would we as the Government of the United States not 
want that information? It's a very legitimate question to ask, 
and I don't understand how that's necessarily a problem.
    Procedurally, Mr. Secretary, isn't it true that this issue 
and related issues, as you have previously testified, are 
currently before the U.S. Supreme Court in the Department of 
Commerce v. State of New York?
    Secretary Ross. Yes. Yes, sir. The issue is before the 
Supreme Court. It's also pending in a couple of lower courts at 
this time.
    Mr. Steube. And isn't it also true that on October 22, 
2018, the Supreme Court issued a stay granting the 
administration's request to halt your deposition as requested 
by the plaintiffs?
    Secretary Ross. That is correct, sir.
    Mr. Steube. So the U.S. Supreme Court has stayed your 
deposition, yet we are here today deposing you under oath where 
the rules of evidence and the civil procedure do not apply. Is 
that correct?
    Secretary Ross. I am here voluntarily, and I am here under 
oath today, yes, sir.
    Mr. Steube. The very issue before the court is to your 
intent on placing this question on the form, and all of Mr. 
Cummings' questions and the previous members' questions were 
directly trying to elicit answers to those very questions that 
are before the court. Is that correct?
    Secretary Ross. Yes, sir.
    Mr. Steube. I'd like to continue to read in the concurring 
opinion. So in their concurring opinion, Justice Gorsuch and 
Justice Thomas abandoned lower court's ruling that Secretary 
Ross had demonstrated bad faith in deciding to reinstate a 
citizenship question to the census, stating: But there's 
nothing unusual about a new Cabinet Secretary coming to office 
inclined to favor a different policy direction, soliciting 
support from other agencies to bolster his views, disagreeing 
with staff, or cutting through red tape. Of course, some people 
may disagree with the policy and process, but until now at 
least this much has never been thought enough to justify a 
claim of bad faith and launch an inquisition into an Cabinet 
Secretary's motives.
    And it goes on to say on page 3: It stays Secretary Ross' 
deposition after weighing, among other things, the likelihood 
of review and the injury that could occur without a stay.
    Yet here we are questioning you under oath today.
    It goes on to say: Respectfully, I would take the next 
logical step and simply stay all extra record discovery pending 
our review.
    It goes on to state: But because today's order technically 
leaves the plaintiffs able to pursue much of the extra record 
discovery they seek, it's conceivable they might withdraw their 
request to depose Secretary Ross, try to persuade the trial 
court to proceed quickly to trial on the basis of the remaining 
extra record evidence that they can assemble.
    Extra record evidence.
    Mr. Secretary, would it be your opinion that this exercise 
today by Chairman Cummings and the Democrats is assisting the 
plaintiffs in their extra record evidence by putting you under 
oath under penalty of perjury and asking you the very questions 
that I'm sure the plaintiffs in this case would like to ask you 
in a deposition?
    Secretary Ross. Thank you for that question. I can't judge 
what might be Chairman Cummings' motivation. He has been very 
courteous to me, and I'm trying to be very courteous to him in 
return.
    Mr. Steube. Well, did you specifically request to delay 
your testimony today pending the Supreme Court case?
    Secretary Ross. I'm sorry, could you repeat the question, 
sir?
    Mr. Steube. Didn't you specifically request to delay your 
testimony today until the conclusion of the Supreme Court case 
on this very issue?
    Secretary Ross. We had requested a delay. Chairman Cummings 
said that he was not prepared to give a delay, and, therefore, 
I'm here voluntarily.
    Mr. Steube. And I mean, do you have any opine as to why the 
chair doesn't want to wait pending a Supreme Court decision and 
wanted you to come and testify here today?
    Secretary Ross. Well, again, sir, I can't guess what might 
be in Chairman Cummings' mind, but I am here, I am here 
voluntarily, and I'll do the best I can.
    Mr. Steube. And I thank you for being here. I've got two 
minutes, but I want to make a couple of statements.
    By allowing Secretary Ross to testify before a 
congressional committee where rules of evidence and civil 
procedure do not apply, the Democrats are allowing a prolonged, 
probative inquiry into a question that is at the very crux of 
the Supreme Court case. In holding this hearing, the Democrats 
have run afoul of the Supreme Court stay of Secretary Ross' 
deposition and polluting the evidentiary record of a case that 
the Justices have yet to even hearing oral arguments on.
    And I would ask in my remaining question, I would direct a 
question to the chair as to has there been any communication by 
the plaintiffs' lawyers in this case to both the chairman or 
your staff or any other members of this committee directing or 
asking specific questions to be asked on the record?
    Chairman Cummings. Would you repeat that, I'm sorry?
    Mr. Steube. Has there been----
    Chairman Cummings. I'll give you time to repeat it. Go 
ahead. I was just--my staff was just reminding that we had 
postponed this several times, and so I was just getting the 
dates straight, and they were letting me know that Secretary 
Ross picked this date. But go ahead.
    Mr. Steube. Oh, that makes sense, because the October stay 
was October--the stay was October 22.
    But my question was, since we're here, and the Secretary is 
under oath, has there been any communication--has there been 
any communication between the plaintiffs' lawyers, or any of 
the plaintiffs, as it relates to the chair or staff in asking 
specific questions of the witness?
    Chairman Cummings. No.
    Ms. Norton. Mr. Chairman, point of information. The record 
of this hearing cannot be used by the court in its decision 
because this hearing and what happens in this hearing is not a 
part of the record of the cases that are now before the Federal 
courts.
    Chairman Cummings. All right.
    Mr. Meadows. Point of clarification. I'm not sure that the 
gentlewoman's statement is correct.
    Mr. Meadows. Point of clarification. I'm not sure that the 
gentlewoman's statement is correct.
    Chairman Cummings. First of all, let me recognize you.
    Mr. Meadows. Okay. My apology, Mr. Chairman.
    Chairman Cummings. I recognize the gentleman.
    Mr. Meadows. I thank the chairman.
    I'm not sure that the context of the gentlewoman's 
statement is accurate, because we are putting things in the 
congressional Record, and certainly previous Supreme Courts 
have been able to use documents----
    Ms. Norton. Could I respond?
    Chairman Cummings. I am going to let you respond, and then 
we want to move on to questions.
    Go ahead.
    Ms. Norton. These cases are being appealed to the Supreme 
Court. They are not in the record of the courts below. The 
Supreme Court can only look at what is in the record that has 
been brought in the courts below. That is why I have objected 
to the member's objection.
    Chairman Cummings. And now I recognize the gentlelady from 
the District of Columbia for her questions.
    Ms. Norton. Mr. Chairman, I appreciate this hearing. I have 
introduced a bill to bar a citizenship question on the census.
    But I am interested, Secretary Ross, in the apparent 
increased costs. We have a budget before us with many 
reductions because of the increase in the deficit, for example. 
I am not going to speak about the deterrent effect on 
residents. I am interested in the costs.
    And I do want to be clear that the Constitution says ``all 
persons,'' with Indians not counted. So for the strict 
constitutionalists in the room and the committee, I note that 
part of the Constitution.
    Secretary Ross, I am going to quote from a memo announcing 
your decision: ``A significantly lower response rate by non-
citizens would reduce the accuracy of the decennial census and 
increase costs for non-response followup operations.'' That is 
a quote from you, is that not correct, from your memo?
    Secretary Ross. Is there a question, ma'am?
    Ms. Norton. It is, sir.
    Secretary Ross. What is the question?
    Ms. Norton. I just quoted an announcement of your decision, 
and the date is March 26, 2018. ``A significantly lower 
response rate by non-citizens would reduce the accuracy of the 
decennial census and increase costs for non-response followup 
operations.'' That is a quote, sir. I just want to make sure we 
are talking about the same thing.
    Secretary Ross. Could you tell what page of the memo----
    Ms. Norton. I can only tell you it is March 26, 2018.
    Sir, I am not going to spend my time. I am assuming that 
this quote is correct because it is a quote.
    Now, on January 19 of last year, your own Census Bureau 
chief scientist sent you a memo. It contained a technical 
analysis regarding adding citizenship. And here I am giving you 
what your own chief scientist, that is Mr. Abowd.
    They calculated what they called a conservative estimate of 
the increase, because you'd have to do nonresponse followup, 
since many people would not answer the question door-to-door or 
phone followup, for example. And he found--that is your own 
chief scientist--found the cost is approximately $27.5 million.
    By this time, I assume that you, Mr. Ross, or the Census 
Bureau have calculated the addition the citizenship question 
would add to taxpayers if it were included in this census. What 
is that number, please, sir? What is your number for how much 
it would be, how much in dollars and cents would be added?
    Secretary Ross. The chief scientist, Dr. Abowd of the 
Census department, testified under oath as follows.
    May I please put up a chart so that people can see it, 
Chairman?
    Chairman Cummings. No problem.
    Secretary Ross. It is demo two.
    This is the chart that I'm referring to. I'd like to read 
from it, if I may.
    Ms. Wasserman Schultz. Mr. Chairman?
    Secretary Ross. ``Therefore, there is no credible 
quantitative evidence that the addition of a citizenship 
question will affect the accuracy of the count.''
    That is a statement that was made under oath by Dr. Abowd, 
the chief scientist of the Census Bureau.
    Ms. Norton. The information we have is that that quote is 
taken entirely out of context. The memo also says that adding 
the citizenship question is very costly, harms the quality of 
the census count, and would use substantially less accurate 
citizenship status data than are available from administrative 
records.
    Chairman Cummings. The gentlelady's time has expired.
    You may respond, though.
    Secretary Ross. I have nothing to say, sir.
    Chairman Cummings. Very well.
    Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman.
    Secretary Ross, thank you very much for being here today. 
We appreciate it.
    I think we have heard it here enough, but I will say it 
again. The question is not new. It has been asked before. And 
it is completely appropriate for the Secretary to add this 
question to the decennial census.
    Mr. Secretary, I have been interested in this issue since 
the last decennial census in 2010. In fact, in 2009 I 
introduced a bill to require citizenship be asked on the 2010 
Census and every census thereafter. If Congress had enacted my 
bill, you wouldn't have been put in the position to reinstate 
the citizenship question. It would already be part of the 
census.
    We are in the midst of a national debate on immigration. 
There are millions of people living in this country illegally 
who are counted the same, the same as U.S. citizens and people 
who followed our laws and entered our country legally.
    The Department of Homeland Security has great data on legal 
immigration and the number of naturalized U.S. citizens. We 
have this accurate data because these folks followed the rules 
and entered our country the right legal way.
    The fact is we don't have reliable data on illegal 
immigration in this country. Estimates by DHS seem out of date 
the moment they are released. The most recent estimates by DHS 
are from 2015. Even DHS relies heavily on census data.
    Mr. Secretary, my point is we must ask this citizenship 
question so we can get the data we need to have a full and 
honest debate about immigration in this country. If we don't 
ask the citizenship question, we are all debating without 
knowing the facts.
    Mr. Secretary, in your opinion, how can the citizenship 
question better inform the debate over immigration?
    Secretary Ross. The census question will not ask about 
legal status of the respondent. It simply asks about the 
factual status, citizen or not, and some questions about where 
they came from. There is nothing in the census data that can be 
used by enforcement authorities for immigration or for any 
other purpose.
    Under Title 13, everyone at the census who has access to 
the data has taken a lifetime oath not to reveal that 
information to anyone outside, the detailed private 
information. Consequently--and anyone who violates that is 
subject to years in prison and large fines.
    So it is a very serious, very important factor of the 
census that no one's individual data will be used for any other 
purpose other than the aggregations that we provide externally.
    So this is not a tool as such for immigration. Our job is 
simply to count the people, whether citizen or not. And it is 
not our job to become involved with any other function of 
government.
    I am sorry that it takes so long to answer, but it's a very 
important question, and it's very important that people in the 
country be aware that this is a sacred oath, their privacy will 
not be violated by the Census Bureau, and there would be 
extreme punishments if people did not do so.
    So I hope that answers the question, ma'am.
    Ms. Foxx. No apology necessary, Mr. Secretary. We need to 
get the facts on the table.
    Mr. Chairman, I yield the remainder of my time to my 
colleague from North Carolina, Mr. Meadows.
    Mr. Meadows. I thank the gentlewoman for yielding.
    Mr. Secretary, I want to followup on something that my 
colleague from North Carolina was talking about, because you 
made an important distinction. Asking the citizenship question 
on the census will not provide any data to whether they are 
here illegally or not. Is that correct?
    Secretary Ross. That is correct, sir. We are not asking 
legal status of people, whether citizens or not.
    Mr. Meadows. In fact, a large percentage of those people 
who may check that they are not citizens will be here legally, 
because they have either got a green card or some other legal 
means of being here in the United States. Is that correct?
    Secretary Ross. That's correct. They could be here on a 
visa. They could be here on any variety of things.
    The purpose of the census is not as a tool for enforcement 
of the immigration laws. The purpose of the census is simply to 
provide aggregated data.
    Mr. Meadows. I yield back.
    I thank the gentlewoman for yielding.
    Chairman Cummings. Thank you.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Secretary, on March the 20th, 2018, you testified in 
front of a subcommittee of the House Appropriations Committee, 
and here's what you said.
    [Audio recording played.]
    Mr. Clay. Two days later you testified before the House 
Ways and Means Committee, and here's what you said.
    [Audio recording played.]
    Mr. Clay. On May 10, you testified in front of the Senate 
Appropriations Committee, and here's what you said then.
    [Audio recording played.]
    Mr. Clay. Now, I would like to talk about what you did not 
tell Congress. You wrote the following email to your staff on 
May the 2, 2017. You wrote, and I quote: ``I am mystified why 
nothing has been done in response to my month's old request 
that we include the citizenship question. Why not?'' end of 
quote.
    So you requested the addition of the citizenship question 
prior to May 2017, correct?
    Secretary Ross. No, sir. What I was referring to was that I 
was frustrated that I had not gotten an answer to the question, 
would the Department of Justice formally request the question 
to be reinstituted or would they not? That's what I had in my 
mind, sir.
    Mr. Clay. Well, now, wait a minute now. This was more than 
seven months before DOJ sent its letter in December 2017, 
though, correct?
    Secretary Ross. That was part of my frustration. I had been 
seeking to get clarification of what was the interest, if any, 
of the Department of Justice in the question, because the 
census has to be done on a specific day, starting on a specific 
day in a specific year, and there are also congressional 
reporting----
    Mr. Clay. I am well aware of that, because I----
    Secretary Ross. Let me finish my question.
    Mr. Clay. Wait a minute. No. I have the time.
    I am well aware of that, because in 2010 I oversaw that 
census. But when you testified last year you failed to mention 
any of this. Is that correct?
    Secretary Ross. What was contained in the decision memo of 
March 26, 2018, was the basis for the decision.
    Mr. Clay. Well, Mr. Secretary, you wrote to the committee a 
few months ago that the reason you did not mention all your 
efforts to add a citizenship question before DOJ's letter was 
because these efforts were merely, and I quote, ``informal and 
hypothetical discussions.''
    With all due respect, that explanation does not pass the 
laugh test.
    Secretary Ross. Well, that is the fact, sir. I am sorry 
that you are dissatisfied with it.
    Mr. Clay. Well, you testified three times, and each time 
you withheld critical information that Congress needed to 
oversee preparations for the 2020 Census.
    Mr. Secretary, will you take responsibility today for 
misleading Congress, whether intentionally or not, about the 
process you follow to add the citizenship question to the 2020 
Census?
    Secretary Ross. I have never intentionally misled Congress 
or intentionally said anything incorrect under oath. I have 
never intentionally done that.
    Mr. Clay. Mr. Secretary, you've lied to Congress, you've 
misled the American people, and you are complicit in the Trump 
administration's intent to suppress the growing political power 
of the non-White population. You have already done great harm 
to the Census 2020, and you have zero credibility, and you 
should, in my opinion, resign.
    I yield back.
    Secretary Ross. Is there a question in that, sir?
    Mr. Jordan. I'm next.
    Chairman Cummings. Mr. Armstrong.
    Mr. Jordan. No, I'm going to go next.
    Secretary Ross. Mr. Chairman, we have been at this now for 
somewhat more than an hour.
    Would the committee indulge me in taking a break?
    Chairman Cummings. Yes. Of course. We will recess for 10 
minutes.
    Secretary Ross. Thank you, Mr. Chairman.
    Chairman Cummings. Thank you very much.
    [Recess.]
    Chairman Cummings. We will now resume the hearing.
    Mr. Armstrong.
    Mr. Armstrong. Thank you, Mr. Chairman.
    I would just like to start by saying I think that 
accusations of Secretary Ross being a liar seem to be a little 
bit hypocritical considering two weeks ago Michael Cohen was 
sitting in that chair.
    Then, with that I would like to get back to just something 
that was said earlier about the record and the Supreme Court 
and trial court cases. As far as I know, there is at least one 
pending lower court case going on, and, obviously, which I will 
get into in little more detail, an oral argument in front of 
the Supreme Court.
    To say that this deposition, which is what it is, or this 
under-oath testimony isn't part of the record, is absolutely 
true for the Supreme Court case. However, everything here can 
continue to be used in any pending lower court case.
    Not to mention and probably more importantly, I've spent a 
little bit of time in trial court. I've spent a little time in 
front of appellate court judges. And to think that this isn't 
going to come up in oral arguments is absolutely folly.
    I am assuming all the lawyers on both sides of this case 
have actually taken appellate advocacy. And anything that is 
being done here today under oath is going to be more than free 
game in front of oral arguments.
    We have Justice Department drafting essentially that says--
going back as far as 2000, is what I found, that we always have 
to satisfy legitimate legislative interests while protecting 
certain confidentiality interests and disclosures which may 
compromise open civil litigation. And that is one of the 
reasons they do that.
    I emphasize the word ``may,'' because I will be the first 
one to admit that if we can never call an agency in front of 
here that had any pending litigation going on in any way, 
shape, or form, we probably wouldn't have many executive branch 
agencies here at all.
    But we don't have to go to any kind of hypothetical. We 
have it specifically written. And just to back up a little bit, 
the first case I believe was filed on March 26 of 2018. And 
since that date, whenever a pending case exists, there is a 
competing interest between what is going to be discoverable in 
a Federal courtroom and what is being requested in front of a 
congressional hearing.
    The reason I bring that up is because those two things are 
absolutely not mutually exclusive. Anything provided to a 
congressional inquiry at that point in time is going to end up 
into the Federal case. That is just the way it is going to 
happen. So whenever lawsuits are filed, there is a competing 
interest between legislative's oversight role and what is 
pending in the criminal case.
    In the Supreme Court stay, they specifically stated that 
they stayed Secretary Ross' deposition. And I tend to agree 
with the concurrence where they also said they should stay all 
extra record discovery considering that there is not a lot of 
distinction between Secretary Ross and the agency as a whole.
    And much of what went on many that case in the lower court 
decisions talk about what is in the hearts and mind regarding 
adding the citizenship question. And I don't know what is in 
the hearts and minds of my friends in this room on both sides 
of the aisle, but what I can tell you is the effective result 
of this is an absolute end run around the stay on a deposition. 
This information is here, it is under oath, and to think it is 
not going to be used in the pending litigation is just not 
true.
    Again, we don't have to go to hypotheticals regarding this. 
It was specifically stated in the concurring opinion. And the 
concurring opinion from Justice Thomas and Justice Gorsuch was 
very specific. And one of things they said is protecting the 
very review which the Supreme Court is inviting at this time.
    So I have one question, and then I just want to end with a 
little bit.
    Secretary Ross, do you believe that anything that is going 
on here today will be used in either the lower court opinion or 
oral arguments at the Supreme Court?
    Secretary Ross. That would require a legal opinion, sir. I 
am not qualified to give a legal opinion. I am a civilian.
    Mr. Armstrong. And I would also just like to point out, a 
lot of the protections that are available in a deposition are 
not available in a hearing under oath in front of Congress.
    I will end with this. If the Supreme Court rules in favor 
of the plaintiffs in this case, oversight from this committee 
is absolutely appropriate. If the Supreme Court rules in favor 
of Commerce or DOJ, oversight from this committee is absolutely 
appropriate.
    What is not appropriate is weaponizing this congressional 
hearing to effectively create an end run around a Supreme Court 
order staying the deposition of Secretary Ross.
    With that, I yield back.
    Chairman Cummings. Mr. Raskin.
    Mr. Raskin. Thank you, Mr. Chairman.
    Do I have the opportunity to respond at this point to the 
legal argument that was just made by the gentleman from North 
Dakota?
    Chairman Cummings. This is your time.
    Mr. Raskin. Oh, am I being recognized for my time?
    Okay. Well, let me start with this then.
    Secretary Ross, you asked for a memo on the citizenship 
question from your Office of General Counsel, and you got it 
back from James Uthmeier on August 11, 2017.
    What did that memo say?
    Secretary Ross. We've produced some 8,700 documents here, 
and I gather there are some more that the committee may wish 
to----
    Mr. Raskin. Okay, so you are willing to produce that memo 
then, too?
    Secretary Ross. I am sorry. I didn't hear the question, 
sir.
    Mr. Raskin. Are you willing to produce that memo that was 
written to you by James Uthmeier about precisely what we are 
investigating here today, the citizenship question?
    Secretary Ross. I will take it up with staff and with 
counsel following this hearing, and we will----
    Mr. Raskin. Well, you know, I have seen from the record 
that you are quite effective at getting your staff to do 
things, for example, moving on the citizenship question. Will 
you tell them to turn this memo, which deals precisely with 
what we are investigating, over to the Congress of the United 
States?
    Secretary Ross. I will be delighted to take it up with my 
staff after the hearing, and we will consult with counsel, and 
they will give you a response.
    Mr. Raskin. Okay. Well, I understood your testimony before 
to be that you would refuse to turn it over on the grounds that 
there is ongoing litigation. And we just heard that argument 
echoed by the gentleman from North Dakota.
    And I must say, Mr. Chairman, I am quite astounded by this 
line of argumentation today by our colleagues. To begin with, 
the Supreme Court has been perfectly clear in a series of 
cases, including Hutcheson v. United States in 1962 and 
Sinclair v. United States in 1929, that the fact of ongoing 
litigation is not a valid grounds for withholding documents 
from Congress.
    Are you aware of that, Secretary Ross?
    Secretary Ross. That requires a legal opinion, sir. I will 
have to refer that to counsel.
    Mr. Raskin. Okay. Well, that principle goes back at least 
90 years. And we can give you countless examples of 
investigations by both Republican and Democratic chairmen of 
this committee, as well as dozens of other committees in 
Congress, that have conducted investigations and received 
documents while there was ongoing litigation.
    For example, Chairman Chaffetz had a hearing on the Waters 
of the United States EPA rule when it was still being litigated 
and got documents there. He did the same thing in the Keystone 
XL pipeline hearings when there was ongoing litigation. And 
Chairman Chaffetz did the exact same thing with the Equifax 
data breach.
    So you are not a lawyer, you may not be aware of Congress' 
power to obtain documents, including the so-called secret memo 
which is being withheld now. But our colleagues certainly 
should be perfectly aware of that fact.
    And the representative from the District of Columbia is 
perfectly right, of course, the Supreme Court is limited to 
review of those facts that are on the record of the case. All 
the more so in an appeal from an Administrative Procedure Act 
decision, right, where everything is in the administrative law 
record.
    That record also was very clear about what you had done. 
That record said that your decision to add the citizenship 
question was arbitrary and capricious, that you violated the 
law, that you violated the public trust, that your stated 
rationale to promote Voting Rights Act enforcement was 
pretextual, a veritable smorgasbord of classic, clear-cut APA 
violations.
    But you are aware that when the Supreme Court treats this 
matter, it is going to treat it as a matter of fact on the four 
corners of the administrative law record, are you not?
    Secretary Ross. That is a very lengthy question, sir. I 
think it calls more for a legal opinion than my opinion. I'll 
be happy to----
    Mr. Raskin. Okay. Well, your decision was also struck down 
on the basis of the Enumerations Clause, so it was 
constitutional as well. Is there anything that you would tell 
us that would somehow alter the Supreme Court's interpretation 
of whether or not your judgment to add the citizenship question 
is constitutional?
    Secretary Ross. I don't quite understand the question, sir. 
Could you repeat it?
    Mr. Raskin. Okay. Let me ask you this. The California 
district court said what ensued was a cynical search to find 
some reason, any reason, or an agency request to justify a 
preordained result.
    So let's just put it in very simple terms. I'm not going to 
ask you about the law. Obviously, you don't want to talk about 
the law, and that is fair enough.
    But did you not have a search--they describe it as cynical, 
but whether or not it was cynical--did you not have a search to 
get to a preordained result? Wasn't the whole purpose to get 
the citizenship question added regardless of what was found in 
the administrative law process?
    Chairman Cummings. The gentleman's time has expired.
    You may answer that question.
    Secretary Ross. The rationale for my decision is 
encompassed in the March 26, 2018, decision memo. That is the 
basis on which the decision was made, sir.
    Chairman Cummings. Thank you very much.
    Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Secretary.
    Mr. Secretary, we know that decennial census data is used 
to apportion congressional seats. Each state gets one seat. The 
remaining 385 seats are divided amongst the 50 states based on 
total population.
    For over 150 years, the standard has been to count every 
person residing in the United States, every person regardless 
of legal statute in the United States.
    This whole time we have been counting legal and illegal 
immigrants to apportion congressional districts. Yet only 
citizens can vote.
    So we count illegal immigrants, but we don't want to ask 
questions about citizenship? We don't even ask legal status.
    Mr. Secretary, this seems like a huge problem. And I, for 
one, am very supportive of your decision to add a citizenship 
question to the 2020 Census, and so is my delegation.
    This is the reason the citizenship question is such a 
threat. The Democratic majority believes if we only count 
citizens, they are going to lose their majority in Congress. 
This whole hearing is so transparently political it is beyond 
legitimate overstate.
    So my questions to you, Secretary Ross. Would you agree 
that the main purpose of a census is to get accurate data about 
the U.S. demographics?
    Secretary Ross. The constitutional mandate, sir, for the 
census is to try to count every person residing in the U.S. at 
their place of residence on the dates when the census is 
conducted. It is not to be used for immigration enforcement. It 
is not to be used for any other kind of enforcement or, for 
that matter, for any other purpose.
    Everybody with access to the data takes a lifetime oath not 
to disclose individuals' private data. And the punishment for 
doing so under Title 13, as I understand it, is it could be a 
combination of a prison sentence and a substantial fine.
    Mr. Gosar. So the basis of this is to better govern. Would 
that not be the case?
    Secretary Ross. I'm sorry, I couldn't hear the question.
    Mr. Gosar. So the basis of the census we could actually 
look at is to better apply governing to the people.
    Secretary Ross. We are obliged, sir, to count every person 
who is here regardless of citizenship status and regardless of 
anything else. We are required.
    Mr. Gosar. Right. And that is my point, is that the 
resources are better distributed to govern the people.
    Secretary Ross. I believe that was the congressional 
intent. But I wasn't there at the time, so I really can't 
judge, sir.
    Mr. Gosar. Yes. Do other nations query their populations 
for census demographics about citizenship?
    Secretary Ross. Would you repeat the question?
    Mr. Gosar. Do other countries query their populations for 
citizenship?
    Secretary Ross. Oh, yes. The U.N. encourages all countries 
to ask the citizenship question, and quite a few do. A few of 
those that I can recall offhand include Australia, Canada, 
France, Germany, Ireland, Mexico, and the United Kingdom. I'm 
sure there are others, but those are the ones that occur to me 
offhand.
    Mr. Gosar. So I want to make sure I heard that right. The 
United Nations pushes that initiative, right?
    Secretary Ross. The United Nations recommends that 
countries ask the citizenship question, yes, sir.
    Mr. Gosar. Wow.
    Now, did Thomas Jefferson have the Federal Government ask 
about citizenship as far back as 1800?
    Secretary Ross. Yes. The question has been asked, I 
believe, at least since 1820 in one form or another, in one 
venue or another.
    Mr. Gosar. So this administration should be given credit 
for following Thomas Jefferson's footsteps, should it not?
    Secretary Ross. Well, I am a great admirer of Thomas 
Jefferson. But is there a question in that, sir?
    Mr. Gosar. Well, I mean, this administration is following 
in the footsteps of Thomas Jefferson by asking this question.
    Secretary Ross. I believe that we are doing it for the 
reasons that were outlined in my March 26, 2018, decision memo. 
Those are the reasons why I did it, sir.
    Mr. Gosar. And my last question. Is it true that states 
often have to bear the cost of noncitizens, including providing 
healthcare, schools, law enforcement, food stamps, and housing?
    Secretary Ross. I believe that all people are counted for 
those purposes, sir.
    Mr. Gosar. Thank you very much, Mr. Secretary.
    Chairman Cummings. Thank you very much.
    Before we go to Ms. Plaskett, I want to thank all the 
members. Many of you have changed your schedules just to be 
here, and I really do appreciate that. And I think it is very 
important. I am talking to both sides. Thank you very much.
    Ms. Plaskett.
    Ms. Plaskett. Thank you very much.
    Before I go on to my questioning, Mr. Ross, you are aware 
also that Thomas Jefferson believed that slaves should be 
counted as three-fifths of a person for population basis. So I 
am not sure if Thomas Jefferson should be the litmus test for 
what we should be doing for counting census.
    I wanted to ask you about the citizenship piece that you 
have here in the questions. I note that you have different 
delineations of categories for individuals.
    Where would individuals that were born in the District of 
Columbia fall under?
    Secretary Ross. I'm sorry, I didn't understand the 
question.
    Ms. Plaskett. Where would individuals who were born in the 
District of Columbia fall under your census question, your 
citizenship question?
    They are not born in a state, nor are they listed as Puerto 
Rico, Guam, the U.S. Virgin Islands, Northern Marianas, or were 
they born abroad. Where would they check off?
    Secretary Ross. I think that would require a legal 
decision. I'm not sure I'm qualified.
    Ms. Plaskett. But that is the question as how you have it 
outlined here, the different buckets that individuals could put 
down.
    Secretary Ross. Oh, yes. The reason that we had for using 
those particular buckets is those are the ones that were asked 
repeatedly on the American Community Survey.
    Ms. Plaskett. So where would someone from the District of 
Columbia check?
    Secretary Ross. I'm sorry, ma'am. I wasn't able to finish 
my answer.
    Ms. Plaskett. But I just need an answer to that. Where 
would they check?
    Secretary Ross. I'm trying to answer your first question, 
if I could be permitted to----
    Ms. Plaskett. Where would they check on your list?
    Secretary Ross. The reason that we use the exact same 
question----
    Ms. Plaskett. I don't--I'm not interested in why you use 
the question. I just want to know if someone born in the 
District of Columbia, where would they check off on the listing 
that you have here?
    Secretary Ross. I think the list speaks for itself, ma'am.
    Ms. Plaskett. It doesn't speak for itself, because you have 
born in the United States. Are you saying that people who are 
from Puerto Rico, Guam, the U.S. Virgin Islands, or Northern 
Marianas not born in the United States--that is a separate one. 
But so where would an individual from the District of Columbia?
    I think you are just showing that, even from this alone, 
you don't think of individuals born in the territories as being 
part of the United States. And I'm just wondering where someone 
from the District of Columbia, if you were to make the argument 
that it is States----
    Mr. Jordan. Would the gentlelady yield?
    Ms. Plaskett [continuing]. that is not a state.
    Mr. Jordan. Would the gentlelady yield?
    Ms. Plaskett. So my question--no, I will into the yield. I 
don't have a lot of time.
    So I wanted to ask you about the Census Bureau chief 
scientist report that you discussed. You said Mr. Abowd wrote 
to you about the effect of the cost and accuracy of the census. 
He estimated that the addition of a citizenship question would 
lower response rates by approximately 5.1 percent and would, 
quote, also reduce the quality of the resulting data, lower 
self-response rates, degrade data quality, because data 
obtained from NRFU, non-response followup, have greater 
erroneous enumeration and whole-person imputation rates.
    Mr. Secretary, is that what the memorandum stated?
    Secretary Ross. Chief Scientist Abowd also testified under 
oath. With your permission, Mr. Chairman, I will put up----
    Ms. Plaskett. No. I saw that. I just wanted to know, is 
that correct that he stated what I just quoted to you?
    Secretary Ross. Can you refer me to the section of the memo 
that says that, ma'am?
    Ms. Plaskett. I think the memo is already listed in the 
record. And in that memo, he states the lower response rate to 
be approximately 5.1 percent.
    Secretary Ross, I understand that you are a businessman, 
and as such, you understand the cost and accuracy and the need 
for cost-effectiveness. Why would you be in favor of something 
that was more costly and diminishing the accuracy of your 
census by putting in the citizenship question?
    Secretary Ross. The reasons for including the citizenship 
question are the ones that are outlined in my March 26, 2018, 
decision memo. Those are the bases on which I concluded that it 
was appropriate to ask the citizenship question----
    Ms. Plaskett. Your chief scientist----
    Secretary Ross. I'm sorry, ma'am. May I finish my answer?
    Ms. Plaskett. No, you may not, because I have--you're 
taking quite a while to answer the question, and most of my 
questions do not require that much of a response. So I need to 
get to other questions in here.
    But the reason I'm asking that is because you testified 
before this committee in October that most of the census budget 
is spent on encouraging the last few million households to 
respond, whereas it says in the scientific report of Dr. Abowd 
that it will cost you 27 million additional funding to take up 
the inaccuracy of that.
    And in the court's opinion, which is the court's opinion of 
the State of New York v. the Department of Commerce and New 
York Immigration v. the United States, the Department of 
Commerce, that it is unlikely to remedy the reduction of self-
response rates, which means that hundreds of thousands, if not 
millions of people will go uncounted in the census if the 
citizenship question is included.
    Why would you want to increase the cost for that question?
    Chairman Cummings. The gentlelady's time has expired, but 
you may answer the question.
    Secretary Ross. I have nothing to say, sir.
    Chairman Cummings. Very well.
    Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    I will just say, the last time I checked, the District of 
Columbia is in the United States, so I think the questions do 
speak for themselves.
    I'd like to build a little bit----
    Ms. Plaskett. And so is the U.S. Virgin Islands.
    Mr. Hice. This is my time.
    I would like to build a little bit on Mr. Steube's line of 
questioning a little bit earlier, Mr. Secretary. And thank you 
again for being here.
    We all know in this room that there is ongoing civil 
litigation about the citizenship question on the 2020 Census 
right now before the Supreme Court. Do you have any idea when 
the Supreme Court is scheduled to hear oral arguments?
    Secretary Ross. I believe it is somewhere around the 21st 
of April.
    Mr. Hice. That's right. Somewhere in the 23rd--six weeks 
from now, more or less.
    Secretary Ross. More or less six weeks.
    Mr. Hice. So six weeks from now.
    Mr. Secretary, when the lower courts were considering the 
citizenship question, were you required to testify or were you 
deposed?
    Secretary Ross. I was not testified. I was not deposed. The 
Supreme Court had issued what I believe is called a temporary 
stay that stayed any deposition or testimony by me.
    Mr. Hice. That is the whole point of this. In fact, the 
fact that you were not required to testify in the lower court, 
that in itself became a matter of contention and drew its own 
separate civil litigation.
    And as you just referenced, the Supreme Court stepped in 
because that issue was so important, literally they plucked it 
out of the lower courts. And they themselves said that they 
wanted to weigh in on that. And as you just mentioned, the 
Supreme Court placed a stay on you.
    This is what is so amazing to me about this whole hearing 
today. The Supreme Court, the highest court in the land, has 
said Mr. Ross should not be deposed or give testimony on this 
matter until after they are able to decide on this matter. And 
it is alarming to me the willingness of this committee to 
disregard the wishes of the Supreme Court.
    And for all practical purposes, you are sworn in today. For 
all practical purposes, this is a deposition.
    Do you think it is reasonable to suspect that some 
plaintiffs involved in this case are possibly watching this 
today?
    Secretary Ross. I have no idea who is watching it today, 
sir.
    Mr. Hice. We don't know who is watching. But I think it's 
kind of reasonable to assume that those who are involved in 
this case are probably watching, which would make this, in 
essence, part of the discovery process. And so here we are 
virtually in a deposition going against the wishes of the U.S. 
Supreme Court.
    And, you know, I just look at the direction of this 
committee. Two weeks ago we have Michael Cohen here, an 
individual convicted of lying to Congress, coming back to give 
more testimony to Congress, and appears in every way that he 
lied again while he was here. And now we are having a hearing, 
in essence a deposition, going against the wishes of the 
Supreme Court. It just seems like this committee is--this whole 
hearing is inappropriate and out of order.
    And I would like to yield the remainder of my time to the 
gentleman from North Carolina, Mr. Meadows.
    Mr. Meadows. I thank the gentleman for yielding.
    Mr. Secretary, I want to come to you.
    Over the past 100 years, prior to 2010, when President 
Obama decided not to include a citizenship question on the 
census, the prior 100 years, was there not a citizenship 
question on each of those censuses that were taken between 1910 
and 2000?
    Secretary Ross. Yes, sir, I believe that is the case, that 
it was routinely asked in one form or another.
    Mr. Meadows. Are you aware that there were five Democrat 
Presidents that controlled what was going on the census and 
five Republican Presidents that controlled what was going on 
the census during that same time period so it was not partisan?
    Secretary Ross. I haven't tried to make this a partisan 
event, sir, so I haven't kept track of which Presidents did 
what.
    Mr. Meadows. Well, that speaks well to the way that you are 
looking at this.
    One last question that I have for you. On the American 
Community Survey, there is a citizenship question that we 
currently ask each and every year to about one percent of the 
population. Is it correct that the most unanswered question on 
there is not about citizenship, but about their income?
    Secretary Ross. If memory serves, on some of those surveys, 
the largest nonresponse rate, certainly a larger one than the 
question of citizenship, did relate to weekly wages.
    Mr. Meadows. All right. I yield back. I thank the chairman.
    Chairman Cummings. Mr. Krishnamoorthi.
    Mr. Krishnamoorthi. Good afternoon, Secretary Ross. Over 
here. Over here.
    Secretary Ross. Oh, I'm sorry. I'm sorry. I'm not familiar 
with the seating, so thank you for pointing it out.
    Mr. Krishnamoorthi. That's Okay.
    In your written testimony today, Secretary Ross, you said, 
quote, ``on December 12, 2017, DOJ made a formal written 
request for reinstatement of a citizenship question on the 
decennial census so that the Census Bureau could provide census 
block-level citizenship data to assist DOJ in the enforcement 
of the Voting Rights Act,'' correct?
    Secretary Ross. That is my understanding of the request. 
That was made by the Department of Justice----
    Mr. Krishnamoorthi. Correct.
    Secretary Ross [continuing]. in a formal letter to us on 
December 12, 2017, sir.
    Mr. Krishnamoorthi. Got it. And so you included the 
citizenship question to enforce the Voting Rights Act, correct?
    Secretary Ross. That is what my recollection says, that the 
letter from the Department of Justice----
    Mr. Krishnamoorthi. Correct.
    Secretary Ross [continuing]. said was the reason, yes, sir.
    Mr. Krishnamoorthi. Now, as you have pointed out, block-
level data, citizenship block-level data are not currently 
available because the citizenship question is not included in 
the decennial census, right?
    Secretary Ross. Is that a question, sir?
    Mr. Krishnamoorthi. Correct.
    Secretary Ross. The Census Bureau reported that the block-
level data--as I described in the decisionmaking memo--block-
level data is not available from the ACS, which is sent out 
annually. And I believe that is an uncontested fact, sir.
    Mr. Krishnamoorthi. Correct. And as you know, the 
citizenship question has not been part of the decennial census 
given to every household since 1950, right?
    Secretary Ross. There were times when it was distributed to 
households in the form of a different form from the other 
census. And then----
    Mr. Krishnamoorthi. But not the short form, not the short 
form survey given to every household, right?
    Secretary Ross. Sir, I would like to finish my answer to 
your first question, if you would indulge me.
    Mr. Krishnamoorthi. Go ahead
    Secretary Ross. There were different forms that were used 
at different times. And the form that asked that question I 
believe was only sent to a fraction, a portion, of the 
population. And the same is true of the citizenship question 
that was asked routinely on the ACS survey.
    Mr. Krishnamoorthi. Correct.
    Secretary Ross. That, too, is only sent to a small fraction 
of the total population----
    Mr. Krishnamoorthi. Right.
    Secretary Ross [continuing]. as opposed to the census 
itself, which goes to the----
    Mr. Krishnamoorthi. I understand. My time is limited, sir. 
I understand your answer. And you have basically said that it 
has only been elicited from a fraction of households, not every 
household in the United States, and that has been true since 
1950.
    As you know, for the entirety of the existence of the 
Voting Rights Act of 1965, the DOJ has litigated voting rights 
acts numerous times, voting rights cases numerous times, 
without citizenship data from every household in the United 
States, right?
    Secretary Ross. The Department of Justice used the 
information that was then available to them, as I understand 
the situation that had prevailed prior to the present time.
    Mr. Krishnamoorthi. Correct.
    John Gore, the acting assistant attorney general for civil 
rights at the DOJ, authored the letter, the December 2017 
request to you.
    And he was recently deposed. And in his deposition, he was 
asked: Mr. Gore, the data collected through the census 
questionnaire is not necessary for Department of Justice's 
Voting Rights Act efforts, enforcement efforts.
    Mr. Gore responded: I do agree with that, yes.
    Sir, in light of this new information elicited from Mr. 
Gore at the deposition, I would assume that you would go back 
and reconsider including the citizenship question in the 
survey?
    Secretary Ross. I am not familiar with the deposition to 
which you are referring. Do you have a copy of it, sir, that I 
could refer to?
    Mr. Krishnamoorthi. Yes, sir, we can provide that right 
after the questioning.
    Sir, when was the last time that you discussed the 
citizenship question with President Trump?
    Secretary Ross. I published a list in one of the 
litigations of the parties with whom I had had discussions 
about the citizenship question prior to the receipt of the 
December 12, 2017, memo. President Trump was not listed as one 
of the parties with whom I had discussions prior to the 
December 12 letter.
    Mr. Krishnamoorthi. And when you were interviewed for the 
position of Commerce Secretary, at that time, before you joined 
the Trump administration, did you talk with anybody at the 
White House about the citizenship question?
    Secretary Ross. Not that I can recall, sir.
    Chairman Cummings. The gentleman's time has expired.
    Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you so much for being here today.
    As we have discussed the decennial census in this 
committee, I want to make this point perfectly clear: It is not 
controversial to count who is in the United States. In fact, it 
is important for us to know how many people are living within 
our Nation's borders and within our individual states so that 
we can properly and fairly distribute Federal funds. Without 
these raw numbers, there is no way for us to ensure our 
citizens have sufficient funds to access critical programs like 
Medicaid, SNAP, Pell grants, and other important programs.
    We need to know how many people within the United States 
are school age and accessing public schools. This number is 
critical for correctly appropriating Federal funds to our 
states for their school systems.
    Even further, census data is used to calculate funding for 
the National School Lunch Program. Without proper data, it is 
impossible to ensure each state has adequate funding to provide 
lunches for impoverished students.
    Mr. Secretary, are you aware that there are 132 programs 
that used Census Bureau data to distribute more than $650 
billion in Federal funds just in Fiscal Year 2015?
    Secretary Ross. I am well aware that the census data are 
used as part of the appropriation process. I am not conversant 
with the exact numbers you cited, but it is certainly big 
numbers.
    Mrs. Miller. Mr. Secretary, did you know the top five 
programs which use Census Bureau data to distribute funds are 
Medicaid, SNAP, Medicare part B, highway construction funds 
through the Department of Transportation, and Pell grants 
through the Department of Education?
    Secretary Ross. That wouldn't surprise me at all.
    Mrs. Miller. Mr. Secretary, did you know decennial census 
data is used to determine a rural community, a suburban 
community, and an urban community?
    Secretary Ross. I believe that is the case, yes, ma'am.
    Mrs. Miller. Census data is necessary to determine what is 
rural and what is not. This data is used to determine who is in 
my district that is eligible for rural grants and aid.
    There are 22 programs at the Department of Agriculture and 
33 programs at the Department of Health and Human Services that 
use this data to distribute Federal funds. Even further, there 
are 16 programs at the Department of Education, 13 at the 
Department of Housing and Urban Development, and even 7 in the 
Department of Justice.
    Without this critical data, so many of our constituents 
would not receive sufficient access to these programs. That is 
why I am even more surprised that my colleagues don't want to 
fully count the number of people within our borders.
    For the first time, using census data, Congress could get 
an accurate picture of how many citizens use these important 
Federal programs and, also, how many noncitizens are using 
Federal programs.
    I think my constituents would want to know about where 
their tax dollars are going to support Federal benefits for 
noncitizens.
    Mr. Secretary, would you agree that this is an important 
public policy goal?
    Secretary Ross. I am well aware that the census data is 
importantly relied on for a whole wide variety of public policy 
objectives, and I am very proud of the fact that that is the 
case.
    Mrs. Miller. Thank you very much.
    I yield the rest of my time to Mr. Meadows from North 
Carolina.
    Mr. Meadows. I thank the gentlewoman for yielding.
    Mr. Secretary, let me come back, because a lot's been made 
of documents that have been requested, that haven't been 
requested. I know that you have sworn that you've given over 
8,700 documents to this committee.
    And is it my understanding that you are going to get with 
counsel and do the very best you can to give documents to this 
committee that are responsive as long as they don't interfere 
with the pending litigation that is before the Supreme Court. 
Is that correct?
    Secretary Ross. I am perfectly willing to put forward 
anything that counsel do not object to. I have to be guided by 
counsel in that regard.
    Mr. Meadows. So, Mr. Secretary, let me go a little bit 
further, then. And I appreciate your response.
    One of the areas that has come up is that the previous 
administration under President Barack Obama really was the 
first time that we didn't ask a citizenship-type question. I'm 
sure in your archives, and we want to make a priority on being 
responsive to this request first, but are you willing to work 
with this committee to provide other responsive documents in 
terms of the decisionmaking on why, for the first time in a 
century, a citizenship question was not included in 2010? Would 
you be willing to do that?
    Secretary Ross. I really have no idea who was involved in 
the process or why. I will confer with staff and see whether 
there is something we could reasonably do that would be 
responsive.
    Mr. Meadows. I yield back.
    Thank you, Mr. Chairman.
    Chairman Cummings. Mr. Secretary, do me a favor. I'm going 
to be frank with you. I can barely hear what you're saying. So 
can you keep--when you talk, can you get a little closer to the 
mic? A number of members have been complaining that they can't 
hear you.
    Secretary Ross. Oh, I'm sorry, sir. I will try my best. I 
have a bit of a cold. I think I might have caught the cold you 
had last week.
    Chairman Cummings. Alrighty. I'm blamed for a lot of 
things, but okay. I'll take that one.
    All right now. You got me that time, Mr. Secretary.
    We will now hear from Mr. Rouda.
    Mr. Rouda. Thank you, Mr. Chairman.
    Good afternoon, Mr. Secretary.
    While I am extremely concerned about yours and other Trump 
administration officials' purported longstanding conflicts of 
interest with Russian oligarchs and ties to Vladimir Putin, we 
are focusing on the 2020 Census in today's hearing. 
Nevertheless, I will be submitting my questions on those 
matters for the record, and I look forward to seeing your 
responses to those questions.
    Mr. Secretary, many Federal agencies use census data to 
distribute Federal funds. In fact, the Census Bureau found 132 
programs used census data to distribute $675 billion in funds 
in 2015. Census data is used to distribute programs like 
Medicaid, SNAP, Medicare, Pell grants, temporary lunch 
programs, Temporary Assistance to Needy Families, and Section 8 
Housing Choice Vouchers. Federal agencies rely on this data 
when determining how to properly distribute their funds.
    Mr. Secretary, do you agree that it is important for Census 
Bureau data to be accurate?
    Secretary Ross. I'm well aware of the multitude of public 
policy uses and appropriation uses to which the census data are 
used, and that is why I was so insistent to make sure that the 
census was properly funded. It was at my initiation that the 
Office of Management Budget----
    Mr. Rouda. Excuse me, Secretary. This is kind of a softball 
question. I just wanted to ask you, do you agree that it is 
important for Census Bureau data to be accurate?
    Secretary Ross. We are pledged to provide the best----
    Mr. Rouda. Yes or no, Census Bureau data should be 
accurate?
    Secretary Ross. I'm trying to answer, sir, as best I can.
    We are dedicated to the concept of providing the most 
accurate and best data that we possibly can. And that is why we 
have committed so many resources and so much effort, as I have 
described before.
    Mr. Rouda. So that would be a long-winded yes?
    Secretary Ross. I think the answer speaks for itself.
    Mr. Rouda. Inaccurate census data could affect the proper 
allocation of Federal funding as well, correct? So if it's 
inaccurate, to the degree it's inaccurate, it will impact how 
Federal funds are distributed, correct?
    Secretary Ross. I believe that the census data should be as 
accurate as it can be for that whole variety of reasons, sir.
    Mr. Rouda. If the census data is inaccurate, to whatever 
degree it may be, that would hurt people's access to critical 
programs, since those programs I cited are funded in part based 
on the census data.
    Secretary Ross. That is a kind of hypothetical question. I 
have very great difficulty answering it, sir.
    Mr. Rouda. I'm sorry, could you repeat your answer.
    Secretary Ross. I said that's a hypothetical question that 
I have great difficulty answering, sir.
    Mr. Rouda. So you are saying that if we had inaccurate data 
you don't know whether that would impact Federal funding in 
these programs and how it is disseminated by a state?
    Secretary Ross. I don't think that was the question. I 
think the question was, would inaccuracies in the census data 
reduce the amount of funding that went to a given state?
    The reason that that is hypothetical is that involves the 
assumption that the only errors would be undercounting.
    Mr. Rouda. Businesses and industries also rely on this data 
to develop strategies and support their businesses. Would you 
agree that inaccurate census data could hurt businesses that 
rely on the data?
    Secretary Ross. We are pledged to trying to provide the 
most accurate and most complete data that we can under the 
circumstances for those reasons and for the host of other 
reasons that already have been cited here earlier in some of 
the remarks and in my testimony itself.
    We will continue to be pledged to do so. And that is why I 
have worked so hard to get the complete count committees, to 
get the partnerships developed, to do massive advertising, and 
to hire more partnership specialists by far than ever were 
hired before, sir.
    Mr. Rouda. Thank you, Mr. Secretary.
    I am concerned----
    Secretary Ross. We are doing more----
    Mr. Rouda. If I could reclaim my time.
    I am concerned that your decision to add a citizenship 
question to the 2020 Census, which has drawn strong criticism 
from Democratic and Republican former Directors of the Census 
Bureau, could adversely impact communities across the country, 
since this census will determine the allocation of Federal 
funding to vital programs throughout the year 2030. I have 
heard from numerous communities across southern California that 
they are worried about the undercount of the census taking 
place.
    Those concerns were highlighted in this article published 
in the Orange County Register on August 23, 2018. And I'd like 
to ask unanimous consent to have this article placed in the 
record.
    Chairman Cummings. Without objection, so ordered.
    Mr. Rouda. Thank you. I yield back.
    Chairman Cummings. Mr. Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today on a 
voluntary basis. There's been a lot of discussion on the census 
and this, and it's quite clear in the Constitution it says, 
``We the people of the United States,'' referring to the 
sovereignty of the citizens body who constitute the Nation, and 
uses the word ``citizen'' 27 times. The Declaration of 
Independence also recognizes that ``governments are instituted 
among men to secure their rights.''
    Citizenship and sovereignty of our Nation are fundamentally 
linked, and I think it's important to get an accurate count of 
the American body for the politics and especially in light of 
what's going on in the immigration debate.
    As was an earlier question, but I just want to reemphasize 
it, the United Nations emphasizes that countries should ask the 
citizenship question, and you named the countries Canada, 
Indonesia, Germany, Australia, and others. My first question 
is, when a census form comes back and one of the questions is 
left blank, is there any action taken, or how does the Census 
Bureau handle that if there's one question that's not answered?
    Secretary Ross. Thank you for that question, sir. The 
Census Bureau career professionals have a process for 
estimating the answer to the question. We this time will be 
using more extensive administrative records than have ever been 
used before, and we hope that that will be a very useful guide, 
both to getting to all the people, as many as we can, and to 
providing correct answers.
    Mr. Gibbs. Okay. Also, does the Census Bureau or your 
department have--for example, on the American Communities 
Survey, which we ask the citizenship question, is there data 
that says that non-Hispanics or Hispanics have a different 
ratio of answering the question? Is that on there?
    Secretary Ross. Yes. That is one of the statistical results 
of that American Communities Survey. I believe we referred to 
that in my decision memo of March 26, 2018, and that provides 
quite a bit of detail on the differences in response rates.
    Mr. Gibbs. I understand that, but did you see an ethnic 
group like the Hispanics more likely not to answer the question 
than non-Hispanics, for example, because that question is on 
there?
    Secretary Ross. If memory serves, non--White--White non-
Hispanics had the highest response rate, the lowest nonresponse 
rate. I believe that Black non-Hispanics had the highest 
nonresponse rate, and I believe that Hispanics had the second 
highest, but that's just by memory. I would really refer you to 
my March 26, 2018, decision memo because that will have the 
specific numbers in it.
    Mr. Gibbs. Also, there was a bill sponsored in the last 
Congress by one of my colleagues, 4906, and it specifically 
would not ask a naturalization question, an immigration 
question, or a citizenship question, but it did allow for--to 
ask those questions on the American Communities service--
Survey.
    Secretary Ross. The American Communities Survey has asked 
the exact same question routinely for quite a lot of years, and 
that's the exact set of questions that we've proposed to use 
would--has been exposed to over 30 million Americans over a 
period of time. That's a much more extensive set of tests than 
ever would have been done in a little sample test directly to 
prepare for an individual census.
    Mr. Gibbs. Yes, but I guess my point, it's for my 
colleagues on the other side of the aisle there, you know, so 
advocating for not having the citizenship question on the 
regular census, but they don't have a problem having it on the 
community survey, American Communities Survey. So I don't quite 
understand the thought process on that one.
    But I do believe that it's important that we do this. We 
ask a lot of questions on the census as, you know, race, 
nationality, income, and a lot of personal detailed questions. 
Obviously, can't--only used for statistical purposes in the 
aggregate, and it makes perfect sense we ought to know how many 
citizens are in this country as opposed--because you could 
still be in this country and not be a citizen, you can be a 
legal resident. We're not asking if you're illegal, and so we--
I guess what I'm trying to say, legal and illegal, so, you 
know, it doesn't make any sense, but citizens.
    So I see I'm out of time, but I appreciate you being here 
and moving forward in this. Thank you.
    Chairman Cummings. Thank you.
    Mrs. Lawrence.
    Secretary Ross. The census does not ask about legal status. 
The census only asks the exact same question.
    Chairman Cummings. Mr. Secretary, Mr. Secretary, I want you 
to be a little louder. I swear to God, I can't hear you.
    Secretary Ross. Oh, I'm sorry, sir. I'm doing the best I 
can.
    Chairman Cummings. You have better ears than I do.
    He wasn't finished.
    Secretary Ross. I'll repeat the answer.
    Chairman Cummings. Thank you.
    Secretary Ross. We do not ask about legal status in the 
ACS, nor do we ask about it, or do we propose to ask about it 
in the census question itself. We are asking the exact same 
question that the ACS asked to over 30 million Americans over a 
long period of years. So it is a very well tested question, and 
we are not deviating one word from it.
    Mr. Gibbs. Thank you, Mr. Secretary.
    Secretary Ross. Thank you, Mr. Chairman.
    Chairman Cummings. Mrs. Lawrence.
    Mrs. Lawrence. Secretary Ross, you are an accomplished man, 
Yale and Harvard educated, and my question is about the funding 
of the census, because I'm--based on your personal wealth, you 
know how to do a budget.
    So the census funding per household has increased every 
decade. In the late 2017, the Census Bureau estimated that the 
cost of the 2020 Census would be more than $100 per household. 
In its 2019 high risk report, the GAO found that the Census 
Bureau's ability to conduct a cost-effective census, quote, is 
at risk. Last year, the GAO found before the agency's cost 
estimates were, quote, not reliable.
    I am concerned, Mr. Ross, and I would hope that you will be 
able to answer this question based on your personal knowledge, 
education, and ability to do budgets, that the President has 
and the Commerce Department has underestimated how much the 
2020 Census will cost. You know, there's a saying, if you want 
to know what someone believes in and what they really care 
about, follow the money. The budget that has been presented 
does not reflect a budget that will give an accurate reading, 
as you have said you're committed to counting other people.
    Is it or isn't it true that one reason costs are increasing 
is because the Nation's population is increasingly hard to 
count?
    Secretary Ross. A whole lot of questions in that, 
Representative. I will try to answer them as best I can. The 
way we came to the estimate of the funding that would be 
required was by using professional cost estimators brought in 
from outside and from within government. We had one group do a 
top down estimate, the other group do a bottoms up. We compared 
them. We spent huge amount of hours trying to get to the right 
answer.
    We also introduced, at my insistence----
    Mrs. Lawrence. Well, do you believe that the proposed 
budget for 2020----
    Secretary Ross. I'm sorry, I'm trying to answer your 
question.
    Mrs. Lawrence [continuing]. will provide the $7.2 billion 
for the Census Bureau, do you believe that the proposed budget 
is significant? Do you feel that as the Secretary, sir, that 
$7.2 billion for the Bureau and based now that we're behind 
schedule, that that number is sufficient to achieve what you 
said your goal and your commitment to this country in counting 
every person in America?
    Secretary Ross. Well, first of all, you had referred in the 
earlier question that I was trying to answer to the findings of 
the GAO. I'm happy to report that just last week, the GAO put 
out a new report that gave us credit for having improved the 
situation on all five of the categories with which they took 
exception in their earlier report, the one to which you 
referred, back in 2017.
    As you know, back in the early part of 2017, it was 
essentially the process that had been used by the former group, 
not by me. As of now, GAO has said we've made improvements in 
all five categories.
    Mrs. Lawrence. So, Mr. Ross, I'm not being rude, but for 
questions I only get five minutes.
    The $7.2 billion is less than what the prior administration 
requested and what Congress approved in 2010, the last time the 
Census Bureau needed to ramp up for a decennial census, and 
this is where the numbers don't add up. In fact, in late 2017, 
the Commerce Department estimated that the census cost for 
Fiscal Year 2020 will be about 7.4. Why is the President's 
budget, sir, below this request and this estimate?
    Secretary Ross. Well, I have no idea why the President's 
budget is below the request.
    Mrs. Lawrence. Did you have any input in it?
    Secretary Ross. I did not.
    Mrs. Lawrence. So you as the Secretary of Commerce had no 
input on what the numbers were presented for the census for the 
record?
    Secretary Ross. The President's budget is the President's 
budget. I'm not at liberty----
    Mrs. Lawrence. So what is your budget, sir?
    Secretary Ross. I'm sorry. I believe that the total budget 
that we requested and that had been approved by the Congress is 
adequate to deal with the needs of the census. The President's 
budget request, I haven't really had a chance to review because 
I've been trying to get ready for this very hearing, but I will 
be testifying before both Appropriations Committees in about a 
week.
    I would also point out to you that what we did was we 
forward-funded, with the permission of the Appropriations 
Committees, we pulled money into the recent past that would not 
have been spent until the future. I requested that because the 
more--the farther along we get, the quicker, the less risk 
there is of a big overrun. So I think in aggregate from start 
to finish, the life-cycle costs will be adequate to deal with 
the needs of the census this time.
    Mrs. Lawrence. Mr. Ross, if we don't fund, we will not be 
able to count. I'm on Appropriations and I will be listening 
and watching.
    Chairman Cummings. Mr. Massie.
    Mr. Massie. Mr. Secretary, I thank you for coming here 
today voluntarily and answering our questions on the census. I 
am convinced that just about everything's been asked, but not 
everybody has asked it yet. And I'm also convinced that you're 
going to do a great job on this census. We'll have probably the 
best understanding of the population in this United States I 
think we've ever had.
    But the census is not the only constitutional function that 
we as Congress has entrusted to your department. You're 
entrusted also with administering patents. And I've been here 
six years, we've never had a Commerce Secretary come here, and 
we've never had any oversight in the patent aspect of your job. 
So if you'll indulge me, I would like to ask a few questions 
about patents.
    Secretary Ross. Surely, sir.
    Mr. Massie. So Article I Section 8 Clause 8 authorizes 
Congress, and this is what we've given to you to administer, to 
promote the progress of science and useful arts by securing for 
limited times to authors and inventors the exclusive right to 
their respective writings and discoveries. And I think this is 
an undervalued function of the Department of Commerce.
    Occasionally, you see people running for President and they 
say we should get rid of the Department of Commerce. And I 
think they forget that, No. 1, you're charged with doing the 
census, which is constitutional; and, No. 2, you're charged 
with administering patents.
    Can you give us an update on sort of the status and your 
approach and strategy and where we are in terms of implementing 
the patent clause of the Constitution within your department?
    Secretary Ross. Yes, sir. I'm a great proponent of strong 
patents and strong enforcement of the patents, both in terms of 
within the U.S. and externally. I recently had the great 
pleasure to sign with the director of the patent office and 
with the President the 10 millionth patent issued by the United 
States of America. No other country has ever issued anything 
like 10 million patents. And interestingly, about half of those 
were within the last 20 years, because the rate of innovation 
in this country is growing at a very rapid pace, and it is a 
very good thing because that's a lot of what our future will 
depend upon.
    So one of the important topics in the current discussions 
with the Chinese is enforcement of intellectual property 
rights. And when I came into office, I came to the conclusion 
that we needed a director of the patent office who was as 
committed as I am to strong enforcement of patent rights, and I 
believe that with Andrei Iancu we have achieved that and we 
will do very, very well in patent enforcement going forward.
    I'm very proud of the work that the patent office has done, 
and I'm also very pleased that I had the opportunity to speak 
at the recent event where we renamed the patent auditorium for 
Clara Barton. She was the first woman to be working in an 
important capacity in the census department way back in 1841, 
and she later became much better known for being a wonderful 
nurse during the Civil War. But we were commemorating her 
overall, and especially we were commemorating her work in the 
patent office.
    And so I am a very keen supporter of the patent office, and 
I'm happy informally or however to discuss with you whatever 
you would like regarding patents.
    Mr. Massie. I'm glad to hear that the director that you've 
chosen supports strong patents, because patents have been the 
economic engine for this country since its formation, and the 
Founders recognized that, and that's why they put that in the 
Constitution. And I believe actually that that's a more 
important function of your department, and I hope we don't lose 
focus on that aspect of what the Department of Commerce does.
    I do, in the remaining 30 seconds, want to ask if you could 
remind us how the patent office is funded, what the primary 
source of funding for the patent office is.
    Secretary Ross. The patent office is actually the Patent 
and Trademark Office, and it is funded by the fees paid by 
users. The funding requires appropriation by the Congress, but 
as I understand it, there's no Federal funding of the 
operations of either the trademark part or the patent part of 
the office. It is totally funded by civilians paying user fees.
    Mr. Massie. What is not to like about the patent office?
    Chairman Cummings. The gentleman's time has expired.
    Secretary Ross. Mr. Chairman, we've been at this for over 
an hour. Would you indulge me in a brief break?
    Chairman Cummings. Okay. What do you consider brief? I just 
want to--the last one was--I just want to know how much time do 
you need, that's all.
    Secretary Ross. I'm sorry, I couldn't hear you, sir.
    Chairman Cummings. I said I just need to know how much time 
do you need?
    Secretary Ross. Oh, 10 minutes will be plenty.
    Chairman Cummings. We'll give you 15. All right.
    Secretary Ross. Oh, thank you, sir, for being generous.
    Chairman Cummings. Okay. Thank you very much, sir.
    Secretary Ross. Thank you, Mr. Chairman.
    [Recess.]
    Chairman Cummings. I call the hearing back to order.
    Mr. Connolly.
    Mr. Connolly?
    Mr. Connolly. Yes, sir.
    Chairman Cummings. I'm sorry, I'm calling on you.
    Mr. Connolly. Thank you, Mr. Chairman.
    Welcome, Secretary Ross. Secretary Ross, on March 15 of 
2018, you and I had a conference call with one of your aides to 
talk about the citizenship question. Might you recall that 
conversation at all?
    I'm sorry, sir, I cannot hear you.
    Secretary Ross. I don't specifically recall.
    Mr. Connolly. Okay. Well, you and I had--actually had 
scheduled a call, and we had it, in which I conveyed my deep 
concern about the citizenship question and the consequences 
that could flow from it in terms of compliance with the census, 
extra enumerated costs, accuracy.
    Had you already made up your mind by that date, by March 
15, 2018, that you were going to have the citizenship question 
anyhow?
    Secretary Ross. On what date, sir?
    Mr. Connolly. This was March 15. You announced 11 days 
later that you were going to have the question. And I'm trying 
to understand whether you made a legitimate effort at getting 
feedback and tried to evaluate it or were you going through the 
motions of checking the box to be able to say, well, I talked 
to Members of Congress, I heard them out.
    Secretary Ross. No, sir. The process was as outlined in my 
March 26, 2018, memo. It was as complete and thorough a process 
as I know how to make it.
    Mr. Connolly. So when you and I talked on March 15, you had 
not yet finalized a decision. You were still factoring in 
outside opinions like mine?
    Secretary Ross. I did not finalize the decision until right 
around the 26th of March, yes, sir.
    Mr. Connolly. Well, that's good to know.
    Mr. Secretary, section 141(f)(1) of the Census Act requires 
you to submit a report to Congress at least three years before 
the census that contains, and I quote, subjects proposed to be 
included and the types of information to be compiled in the 
census.
    Did you resubmit a report under that section in March 2017?
    Secretary Ross. In March 2017, sir, if I recall correctly, 
the report was due at the very end of the month, and as of the 
end of the month, we had not, by a long shot, decided anything 
about the census.
    Mr. Connolly. But did you submit a report?
    Secretary Ross. Yes, we did. I did submit a report of the 
topics. That report was not required to state the individual 
questions. That report, as I understand it, was to report on 
the topics that were then under consideration for the 2020 
Decennial Census.
    Mr. Connolly. So you're anticipating my question, and I'll 
accept that answer, that from your point of view, that 
reporting requirement did not require you, from your point of 
view, to give a heads-up about the fact that you were thinking 
about adding the citizenship question. That's your answer.
    Secretary Ross. My answer, sir, is I believe that that 
requirement was to discuss the topics that were to appear on 
the 2020 Census. As of that date, there was no decision to put 
anything like citizenship on.
    Mr. Connolly. All right. That's a report required by law, 
but there's another report required by law. Section 141(f)(3) 
of the Census Act allows the Secretary to modify the subjects 
of questions after the initial deadline for notifying Congress 
if the Secretary identifies, quote, new circumstances that 
require the modification.
    Did you ever submit that statutory report to Congress under 
141(f)(3)?
    Secretary Ross. Well, I can't cite the individual chapters, 
sir, because I'm not lawyer, but I have been advised by counsel 
that my reports fully complied with the statutory requirements.
    Mr. Connolly. Well, you might want to check with those 
lawyers because we have no record of your department or you 
submitting a report as required by law. That report says if 
there are new circumstances, and that's the only condition on 
which you make modifications, you've got to tell us about those 
new circumstances.
    When you added the citizenship question, that should have 
triggered Section 141(f)(3), and yet I think to this day, we 
still don't have a report from you or the Commerce Department 
justifying a rather extreme modification in terms of its 
implications.
    Secretary Ross. I don't think, sir, that it's an extreme 
modification. This was restoring a question that had been asked 
many times----
    Mr. Connolly. Restoring a question, sir, that had not been 
in the census since 1950.
    Secretary Ross. The question, sir, had been asked in one 
form or another quite regularly, and we used the same language 
in the--proposed same language in 2020.
    Mr. Connolly. And I'll end with this. Apparently, nobody 
advised you, because you're downplaying this, this simple 
modification, been asked before. So nobody told you well, gee, 
Mr. Secretary, this could have real implications in terms of 
the cost and the accuracy of the census, and you might want to 
think about that?
    Chairman Cummings. The gentleman's time has expired.
    Did you want to answer that?
    Secretary Ross. I didn't really hear the question, but 
let's move on.
    Mr. Connolly. I'm not surprised he doesn't want to answer, 
Mr. Chairman.
    Chairman Cummings.
    Mr. Grothman.
    Mr. Comer.
    Mr. Comer. Thank you, Mr. Chairman.
    Mr. Secretary, over here. Mr. Secretary, I want to 
emphasize once again the citizenship question is not new. In 
fact, a citizenship question appeared on the census from 1820 
to 1950. The citizenship question has been on the long form 
census or American Communities Survey, ACS, since 1970. It is 
ironic my Democrat colleagues don't object to the citizenship 
question being asked on the ACS.
    A couple of other members on the other side have mentioned 
the ACS, and I just want to focus on this for a moment. In 
fact, last Congress, my colleague, Ms. Holmes Norton, 
introduced a bill to prohibit the citizenship question, but in 
the same bill, she actually exempted the American Communities 
Survey so the citizenship question could still be asked on the 
ACS. You all can look it up. It's H.R. 4906, the Ensuring Full 
Participation in the Census Act, from last Congress.
    So if I'm understanding the position of my colleagues, it's 
okay to ask about the citizenship question on the ACS, but it's 
not okay to ask about citizenship on the decennial census. I 
think that's really interesting that my colleague, Mr. Clay, 
would mention and suggest that the citizenship question 
deterred participation in the census but not in the ACS. Are 
there no concerns from my colleagues about suppressing 
participation in the ACS?
    So, Mr. Secretary, I have a question. Do Hispanics respond 
to the citizenship question on the ACS at the same rate as non-
Hispanics?
    Secretary Ross. I believe, sir, that I had already answered 
that question. I refer to my March 26, 2018, decisionmaking 
memo, and that lists the relative participation rates. I 
believe that non-Hispanic blacks have the highest nonresponse 
rate. Hispanics have the next highest, and white non-Hispanics 
have the least deterioration in response rate.
    Mr. Comer. So, Mr. Secretary, do you believe participation 
in the ACS has been reduced because the ACS asked about 
citizenship?
    Secretary Ross. I think the statistics speak for 
themselves, but the ACS is really not too comparable in many 
ways to the decennial census in that it is a survey of 
something like 2.64 percent of the population, whereas the 
decennial is to 100 percent.
    Second, the ACS is strictly by mail. There's no internet 
response. There's no marketing movement toward encouraging 
people to participate, nor is there any NDFU, namely, 
nonresponse followup. So it's really, in many ways, not quite 
comparable to the environment within which the 2020 Decennial 
Census will be administered.
    Mr. Comer. All right. The most troubling part about all 
this, the very startup by my colleagues on the other side of 
the aisle on the citizenship question actually has the 
consequences of suppressing participation. All people hear 
about is the citizenship question and they immediately think 
they should not throw their--well, they immediately think they 
should throw their census in the trash. This is the exact 
opposite message my colleagues should be sending to Americans.
    In fact, my colleagues are creating a self-fulfilling 
prophecy with their rhetoric. Let's focus on the real oversight 
needs of the census: information technology----
    Mrs. Maloney. Will the gentleman yield? Point of 
information.
    Mr. Comer [continuing]. cybersecurity--no, I will not. I 
would like to reserve my time. I'm asking the Secretary a 
question.
    Let's focus on the real oversight needs of the census, 
information technology and cybersecurity, and stop this 
partisan attack on the census. The census is very important to 
determine the makeup of Congress, to determine Federal funding, 
and we need to have the participation of all Americans, and we 
need to have data that's been asked since the beginning of the 
formation of this country and get a head count of every 
American.
    Thank you.
    Chairman Cummings. Thank you very much.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman, for holding this 
hearing.
    Let's take the gentleman up. Let's take him up on that. I 
was going to ask him questions about the census, but, Mr. 
Secretary, I do want to talk to you about the importance of 
compliance with congressional documents.
    So this committee and several outside groups are doing an 
investigation regarding the transfer of sensitive technology to 
Saudi Arabia, sensitive nuclear technology to Saudi Arabia. 
Your office oversees the export of sensitive technology to 
foreign countries.
    Now, we have information from several--from multiple 
whistleblowers that this program called Middle East Marshall 
Plan, which was originally initiated by Michael Flynn, the 
former National Security Advisor who pleaded guilty, and Jared 
Kushner, who is the special adviser to the President, also his 
son-in-law, and Thomas Barrack, who ran the inauguration 
committee for the President. As the--now, they have an 
obligation under the Atomic Energy Act to discuss this with you 
and with us.
    May I ask you, have you had any conversations with Mr. 
Kushner or Mr. Barrack or former National Security Advisor 
Michael Flynn about the transfer of sensitive nuclear 
technology to Saudi Arabia?
    Secretary Ross. I believe, sir, that the conversations 
between myself and other administration officials, particularly 
White House officials, is confidential, and I'm not authorized 
to disclose it. Beyond which, I believe by agreement with 
Chairman Cummings, we were not going to talk about technology 
transfers to Saudi Arabia in today's hearing.
    Mr. Lynch. I was just encouraged by my colleagues on the 
other side of the aisle to get into this information. I was 
invited by my colleague to talk about some other issues 
regarding national security and other matters. So I'm just 
following up on an invitation and trying to see if you'll be 
any more responsive to those issues.
    Secretary Ross. I don't know that----
    Mr. Lynch. So I'm not interested in--I understand the 
confidentiality aspect of that, but I'm just asking you if 
those conversations happened, if you have had meetings with 
those individuals regarding the transfer of sensitive 
technology to Saudi Arabia, that's all.
    Secretary Ross. Could you repeat the question, sir?
    Mr. Lynch. Sure. Have you had any conversations or your 
staff had any conversations with either Michael Flynn, Jared 
Kushner, or Tom Barrack, who are involved in trying to transfer 
nuclear technology to Saudi Arabia? Have you had those 
conversations with any of them?
    Mr. Jordan. Mr. Chairman?
    Chairman Cummings. The gentleman has the floor.
    Mr. Jordan. But, Mr. Chairman, this goes explicitly against 
what you sent in the letter to Mr. Ross. The scope of the 
committee's March 14 hearing will not include questions 
relating to the transfer of nuclear technology to Saudi Arabia. 
Again, you said this several times earlier, not my words, your 
words.
    Mr. Lynch. We were just invited by your side to ask him 
this question.
    Mr. Jordan. I'm just telling you--that's not what our side 
was talking about, obviously, and that's not what the chairman 
told the Secretary that the scope of the hearing was going to 
be focused on.
    Chairman Cummings. Mr. Lynch, the Secretary is right. We 
had an agreement. And you do not have to answer the question, 
but if you wanted to, it's fine, okay?
    Now, Mr. Lynch, we will go back to you.
    Mr. Lynch. Would the Secretary like to answer that 
question?
    Secretary Ross. Thank you, Mr. Chairman.
    My conversations with White House officials are 
confidential. I'm not authorized to disclose their content, nor 
to disclose the fact of any such conversation.
    Mr. Lynch. Okay. So let's talk about the requests for 
documents, then, just to the Commerce Department. I'm not 
asking any particulars; I'm just asking about the process here. 
So ourselves, this committee, as well as several public 
interest groups, have been asking for documents related to that 
subject, and we have received zero documents from the Commerce 
Department, your office. And do you understand the obligation 
to submit that information?
    Secretary Ross. As I understand it, sir, we have submitted 
some 8,700 documents, and with permission of the chairman, we 
will be--we are entitled to make some subsequent submissions. 
As to the details of what gets submitted, I will rely on advice 
of counsel.
    Mr. Lynch. So you're saying here under oath that you sent 
8,000 pages, excuse me, in response to our request?
    Secretary Ross. I'm told by my staff----
    Mr. Lynch. Because on our end, we haven't received a single 
page, so maybe they were misdelivered. I'm just trying to 
figure that out.
    Secretary Ross. I'm told by my staff that we have submitted 
some 8,700 pages. I am also told by my staff that they are 
continuing to study the further document requests, and that we 
are permitted to submit additional documents post this hearing. 
And I am sure that they will responsibly deal with those 
requests.
    Mr. Lynch. Very good. Thank you.
    Mr. Chairman, my time has expired.
    Mr. Meadows. Mr. Chairman? Mr. Chairman, a point of 
clarification.
    Chairman Cummings. Yes.
    Mr. Meadows. I think, and I don't want to speak for the 
gentleman where he was going with his questions and where the 
answer, I think there was a different answer to a different 
question, and I think he was talking about----
    Mr. Lynch. If we can straighten that out right now, that 
would be helpful.
    Mr. Meadows. Well, because we're going to have to come back 
and straighten that out. I think he was talking about they've 
responded with 8,700 documents to the initial request. Your 
request I think was with regards to the nuclear Saudi Arabia, 
and I don't think his question was--I think you all were 
talking over each other.
    Mr. Lynch. For the record, I just want establish that we 
haven't received any documents with respect to the transfer of 
nuclear technology to Saudi Arabia. Just put that on the 
record, and I can understand if the gentleman was confused.
    Thank you.
    Chairman Cummings. All right. Thank you.
    Mr. Grothman.
    Mr. Grothman. Thank you.
    First of all, I'd like to apologize for you having to be 
here today. It kind of amazes me that anybody would think--over 
here--amazes me to think that anybody would think it's 
controversial to put this question on the annual survey.
    I'll just make one other opinion. I notice on your plan 
survey you break down citizens between people born in the 
United States, people born abroad of U.S. citizens. You break 
things up, and you break up no, not a citizen into only one 
group, just not a citizen. And of course, there are many 
reasons why you might be in this country and not a citizen. You 
could be here on a work visa, could be here on a student visa, 
could be here illegally. And I guess I wish you would consider 
breaking the list down, because as a Congressman, I'd like to 
know the different reasons why you would be here and not be a 
citizen. But now I'll go on to the questions I had planned for 
you.
    I've looked at a few examples of state driver's license 
applications, including some driver's license applications from 
states that would normally be considered Democrat states. I 
think I've given you some handouts of some of those, correct? 
And I want to show you an example. I think they have it here to 
put up, an example from my home State of Wisconsin. It's right 
behind me. Good, good, good, good, good. I hope you can see 
that.
    We have an example here from the District of Columbia. 
Okay. We have another form, an I9 form, which employees must 
complete as a condition of employment. Here we have there. 
United States condition of employment.
    You can see, would you agree that in today's society asking 
someone if they're a citizen on a form is commonplace?
    Secretary Ross. I'm sorry, I didn't hear the question, sir.
    Mr. Grothman. Would you agree looking at these forms that 
it is commonplace in our society to ask people whether they are 
a citizen of our government?
    Secretary Ross. It seems so, sir. They're so far away, and 
my eyes are not so good enough, so I can't read all the 
questions, but it sounds like that's the case.
    Mr. Grothman. We're not making it up. All those forms have 
questions on there.
    Secretary Ross. Yes, sir. I would like to clarify for the 
record, in my response to Congressman Lynch, I was referring to 
the documents produced regarding census. I'm sorry if I might 
have misunderstood your question, sir.
    Mr. Grothman. Okay. I'll ask you--I'm not a big fan of the 
United Nations, but the United Nations itself has recommended, 
you know, finding out about citizenship of its occupants. Is 
that true? Are you aware of that?
    Secretary Ross. Yes. The United Nations has recommended 
that countries ask the citizenship question or some form of it, 
and many countries do. I believe I mentioned a few. Australia, 
Canada, France, Germany, Ireland, Mexico, and the United 
Kingdom are a few that occurred to me offhand.
    Mr. Grothman. So I would assume that even citizens who come 
up here from Mexico, they maybe would be expecting to see a 
question like that on the form, right, or from Canada?
    Secretary Ross. Well, my understanding is that Mexico asks 
the citizenship question in some format or another.
    Mr. Grothman. Correct. I think we have some more slides of 
these, and I maybe won't even put them up. But I'm looking 
around, we even have a slide up here from Mongolia. Even 
Mongolia would ask a question like that. It would really have 
to be, I think, some really--a country which has a very tenuous 
relationship with its citizens that you wouldn't ask a question 
like this. Correct?
    Secretary Ross. All I know, sir, is that it had been 
routinely asked in the United States in one form or another for 
most of the last 120 years, and it is asked in other countries, 
some of which I described in my testimony before. And it is 
also recommended by the United Nations to be asked.
    Mr. Grothman. Okay. Thank you very much, and I'll just hope 
that when you leave here----
    Mrs. Maloney. Will the gentleman yield, my good friend from 
Wisconsin?
    Mr. Grothman. Since I'm such a good friend, yes, only for 
you.
    Mr. Meadows. You shouldn't have been that good of a friend.
    Mrs. Maloney. Listen, there's been so much discussion about 
the history of the census. I ask unanimous consent to put this 
memo from the congressional Research Service on the history of 
the citizenship question, which clearly details that a question 
on citizenship has not been asked to the entire American 
population since 1950. And they do an outline and a detail of 
every--of every time that this question has been asked, in what 
form, on the long form and other areas.
    Chairman Cummings. Without objection, so ordered.
    Mrs. Maloney. Thank you.
    Mr. Meadows. Mr. Chairman, I've got a unanimous consent 
request then with a CRS report as well that's germane.
    Mrs. Maloney. This is a CRS report.
    Mr. Meadows. Well, I've got one that's dated actually--
well, the chairman hasn't recognized me.
    Chairman Cummings. Thank you.
    Mr. Meadows. I'm learning. It's hard, but I'm learning, Mr. 
Chairman.
    Chairman Cummings. You know, my mother used to say you 
teach people how to treat you.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    I ask unanimous consent that we enter into the record the 
congressional Research report of March 8 that actually does 
outline everything. It says that all but the earliest census 
have included questions reflecting some national interest in 
citizenship, immigration, foreign birth, and foreign 
percentage. And I ask unanimous consent that it be entered into 
the record.
    Chairman Cummings. Without objection, so ordered.
    Chairman Cummings. Ms. Hill.
    Ms. Hill. I'm going to ask unanimous consent as well. We 
earlier--I believe it was Mr. Meadows asked to enter an NPR 
article into the record, so I think we have a joint belief that 
NPR is a credible news source and not fake news. So this 
article is--it contradicts what my colleagues in the minority 
and what Mr. Ross have been saying all afternoon that 
citizenship has been a standard census question. NPR clarifies 
that this claim is inaccurate, incomplete, and misleading, and 
that a quick history of the decennial survey makes that clear. 
So I would like to enter that into the record.
    Chairman Cummings. Without objection, so ordered.
    Ms. Hill. Okay. And two more points of quick clarification. 
The ACS only represents--or only surveys three percent of the 
population, so it's a very different comparison to when we're 
asking the entire population to fill out a survey, and that 
it's only in combination with the deportation policies and 
anti-immigrant rhetoric of this administration that we are so 
concerned about it suppressing participation.
    Moving on. Secretary Ross, on March 20, 2018, you testified 
in front of the House Appropriations Subcommittee on Commerce, 
Justice, and Science. Can we please roll the clip?
    [Video played.]
    Ms. Hill. Mr. Ross, since your testimony, however, new 
evidence has come to light showing that a senior White House 
official did contact you about the citizenship question. In 
fact, you since admitted this in a letter to our committee on 
December 21, 2018, writing, quote, Steven Bannon called in 
spring of 2017 to request that I speak with Kris Kobach about 
the latter's ideas about including a citizenship question on 
the 2020 Decennial Census.
    In spring of 2017, Mr. Bannon worked at the White House as 
chief strategist and senior counselor to President Trump. Is 
that correct?
    Secretary Ross. I'd like to refer back to the slide that 
you put up because I don't think----
    Ms. Hill. Well, just please answer if he worked as the 
White House--at the White House as the chief strategist and 
senior counselor to President Trump.
    Secretary Ross. I'm sorry, would you repeat the question?
    Ms. Hill. Did Mr. Bannon work at the White House as the 
chief strategist and senior counselor, was that the time you 
spoke with him?
    Secretary Ross. I believe that is correct.
    Ms. Hill. What did you discuss with Mr. Bannon about the 
citizenship question?
    Secretary Ross. The extent of the discussion was he 
requested that I consider taking a phone call from an 
individual called Kris Kobach.
    Ms. Hill. What did he say that--what did Mr. Bannon say he 
wanted you to speak about with Mr. Kobach?
    Secretary Ross. He said that Kobach had a question that he 
thought should be asked on the census.
    Ms. Hill. Did Mr. Bannon support the addition of a 
citizenship question?
    Secretary Ross. That's the extent of the conversation as I 
remember it, is what I already testified to.
    Ms. Hill. So he just hung up after that?
    Secretary Ross. The phone call was very brief, and its 
purpose, as far as I could tell, was simply to ask me if I 
would take a call from Kris Kobach, and I agreed to do so.
    Ms. Hill. Did you have any other conversations with Mr. 
Bannon or anyone else at the White House about the citizenship 
question at any time?
    Secretary Ross. My conversations with others at the White 
House are confidential. I'm not authorized to disclose them, 
but I did provide in a supplemental memorandum a list of 
parties with whom I had conversations prior to the December 12, 
2017, formal request from Department of Justice that we add the 
question, and the names that are on that are complete.
    Ms. Hill. Did Mr. Bannon or Mr. Kobach or anyone else tell 
you the President's view on the citizenship question?
    Secretary Ross. I'm sorry, could you repeat the question? 
Someone was coughing.
    Ms. Hill. Did Mr. Bannon or anyone else tell you the 
President's view on the citizenship question, including in your 
subsequent conversation with Mr. Kobach?
    Secretary Ross. Other than what I've already testified to 
in connection with the phone call from Mr. Bannon, any other 
communications I have had with people in the White House are 
confidential. I'm not authorized to disclose them, and that's 
been the longstanding policy of both Democratic and Republican 
administrations.
    Ms. Hill. Well, okay. Then when you testified to Congress 
before Congress last year, you swore to tell the whole truth. 
So I'm just a little bit confused when you said you're not 
aware of any such conversations--any such conversations, but 
then you say that you were--it was confidential. How did these 
two work together?
    Secretary Ross. Mr. Chairman, may we please put up demo 
one?
    These are excerpts from the videotape of that testimony 
that I gave. You can see in the upper left is the point in time 
when the Representative Meng put out the question--the document 
that had apparently been issued the day before without my 
knowledge or consent or anything else by the Republican 
National Committee.
    You notice the two red stripes on it. The one on the lower 
left is approximately a few seconds later. I can't see that far 
away, but it looks like it's only a couple of seconds after she 
put it up. I'm reading it as I'm answering the question.
    And as you look at the third slide, which was another 
couple of seconds later, that is when I was completing my 
testimony, and you can see from the red stripes, I was 
referring to the very same document. That is the document to 
which I was responding.
    Chairman Cummings. Were you finished?
    Secretary Ross. I'm finished, Chairman. Thank you for your 
indulgence in letting me put up the demo.
    Chairman Cummings. Thank you very much.
    Mr. Cloud.
    Mr. Cloud. Thank you.
    Mr. Secretary, I am to your left. Way left. Over here. 
Hello, sir. Thank you for being here.
    Secretary Ross. I'm sorry, I'm unfamiliar with the way 
seating works at these hearings.
    Mr. Cloud. Not a problem. Welcome to your fourth hour of 
testimony. The chairman has said that this was a new census 
question. It's been repeated a number of times that this isn't 
a new question. This question's been used before. As a matter 
of fact, the proposed question in the census is virtually 
identical to the one the Clinton Administration used in the 
2000 long form census.
    Now, that census is personally of note because that was the 
first census that my family had to fill out, and for me and my 
new bride, the citizen question was a notable one in that I was 
born here and am a citizen, and at the time she was not. Yet we 
didn't find that question offensive nor invasive. As a matter 
of fact, a number of the other questions on that census, the 
phone number, does this person speak a language other than 
English at home, how does this person know English--or how well 
does this person know English, what's the mental and emotional 
health, does this person have difficulty bathing or dressing, 
where did you work last week, how did you get to work, what 
time did you leave your house, how long was your commute? One 
filling out this census could feel like they're the subject of 
a song by Sting.
    So the point is that this citizenship question is not 
really that invasive and was expected by my new immigrant wife 
coming into this country.
    Back to the basics for a moment. We have a census because 
it's constitutionally mandated, right?
    Secretary Ross. I'm sorry, I couldn't hear the question.
    Mr. Cloud. We have a census because it's constitutionally 
mandated. That's correct?
    Secretary Ross. Yes. The Constitution mandates that once 
every 10 years we do a count of the population.
    Mr. Cloud. Does the Constitution require us to ask about 
age?
    Secretary Ross. No, sir.
    Mr. Cloud. Sex?
    Secretary Ross. About----
    Mr. Cloud. Sex?
    Secretary Ross. No, sir.
    Mr. Cloud. Relationship status?
    Secretary Ross. No, sir.
    Mr. Cloud. Race?
    Secretary Ross. No, sir.
    Mr. Cloud. Phone number?
    Secretary Ross. I don't believe they had phone numbers back 
in the Constitution time.
    Mr. Cloud. I think you're correct. Alexander Graham Bell 
was soon to be working on it.
    But what is required to be asked?
    Secretary Ross. I believe the constitutional requirement is 
simply to count all people who are residents here as of the 
date of the census in the place where they reside.
    Mr. Cloud. Correct, for the purposes of apportionment.
    If my colleagues are concerned that asking personal 
questions lead to an undercount and add cost, should the Bureau 
consider a census with only the one question required?
    Secretary Ross. It has been the longstanding practice to 
ask more than the one question. That is nothing new. The fact 
is the census asks fewer questions than the ACS. If I remember 
correctly, the ACS asks something like 45 questions, and the 
census, prior to this, had asked about 10 questions. So it's 
far more condensed than is the ACS.
    Mr. Cloud. And the information that's gathered is very 
helpful to policymaking. Is that why we ask those questions?
    Secretary Ross. I believe so. I don't know the exact 
history of how each of the questions came to be asked, but I do 
know that there are widespread use of all sorts of data that 
come from the census, both by the public sector and by private 
sector, individuals and businesses.
    Mr. Cloud. Okay. And there's been an argument that this 
question is unconstitutional, yet we've used it several times. 
Is that correct?
    Secretary Ross. What has been used several times?
    Mr. Cloud. There's been an argument that this question is 
unconstitutional, yet we've used it several times over the last 
100 years and it's not been brought into question before. Is 
that correct?
    Secretary Ross. Oh, it's been used multiple times over the 
last 120 years, and the exact wording of this is what's been 
used each year on the ACS. That's one of the many reasons why 
in my March 26, 2018, memo I cited the fact that the Census 
Bureau professionals regarded this question as adequately 
tested because it had already been exposed with exactly those 
same words to more than 30 million Americans over a long period 
of years.
    Mr. Cloud. Well, thank you. Thank you, Mr. Secretary.
    I yield my 10 seconds back.
    Chairman Cummings. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Before my time begins, I'd like to ask unanimous consent. I 
have three documents that I'd like to enter into the record, 
and I'd like to note that Secretary Ross, during this hearing, 
acknowledged that the American Communities Survey is not too 
comparable to the decennial census.
    I have here the 2000 Census, Decennial Census form, which 
does not include a citizenship question.
    Chairman Cummings. Without objection, so ordered.
    Ms. Wasserman Schultz. Thank you. I have here the American 
Communities Survey from 2000, which went to approximately 3-1/2 
million people and was used in only four test counties in the 
entire country.
    Chairman Cummings. Without objection, so ordered.
    Ms. Wasserman Schultz. That did have a citizenship question 
on it, but was not the decennial census. And I have here the 
long form question from 2000, which went to one in six people, 
which is also not the full decennial census, and that does 
include a citizenship question.
    Chairman Cummings. Without objection, so ordered.
    Ms. Wasserman Schultz. Thank you. The point being that 
there was not a citizenship question on the 2000 Census as has 
been referred to here multiple times. I appreciate that, Mr. 
Chairman.
    Secretary Ross, I want to ask you about your conversations 
with Attorney General Jeff Sessions before DOJ requested a 
citizenship question in December 2017. On August 8, 2017, you 
wrote to Earl Comstock, a senior official at the Department of 
Commerce, and I'm quoting you here, you emailed: Were you on 
the call this morning about census? They seem dug in about--not 
sling, I assume you mean asking, the citizenship question, and 
that raises the question of where is the DOJ in their analysis. 
If they still have not come to a conclusion, please let me know 
your contact person, and I will call the AG.
    Mr. Secretary, your note mentioned, the one that I just 
read aloud, mentioned a call that took place the morning of 
August 8. Do you recall who you were on a call with who seemed 
dug in from the census or outside the census about not asking 
the citizenship question?
    Secretary Ross. I don't have the document in front of me. 
Could you provide me with a copy of the document, please?
    Ms. Wasserman Schultz. It'd be my pleasure. This is an 
email from you where you said: Were you on the call this 
morning about census? They seemed dug in about not asking the 
citizenship question, and that raises the question of where is 
the DOJ in their analysis? If they still have not come to a 
conclusion, please let me know your contact person, and I will 
call the AG.
    Is that a conversation you recall, and who is it that was 
dug in with whom you were on the phone with, and were they 
inside the census or outside the Census Bureau?
    Secretary Ross. I still haven't seen the document. Could 
you please have your staff provide me with a copy?
    Ms. Wasserman Schultz. Okay. Is it possible for staff to 
provide the emails that we're talking about? Okay.
    Well, my time is clicking here, and I--you don't have a 
recollection of this conversation, Mr. Secretary?
    Secretary Ross. I'm trying to recall it, but it would help 
me a great deal if you could give me a copy.
    Ms. Wasserman Schultz. Okay. Well, I'd like my time not to 
expire while this transaction is occurring.
    Secretary Ross. If you would lend me your copy, I promise 
to give it right back.
    Ms. Wasserman Schultz. Oh, sure, I'm happy to do that. Can 
someone provide the Secretary? And if I can ask the chairman's 
indulgence of a few additional seconds so that I can account 
for the need to remind the Secretary of his own email and 
meeting.
    Secretary Ross. Thank you. As you can see from this 
document, it's filled with typographical errors----
    Ms. Wasserman Schultz. Well, it's an email from you, Mr. 
Secretary.
    Secretary Ross. I beg your pardon?
    Ms. Wasserman Schultz. It's an email from you.
    Secretary Ross. Yes. My email is filled with typographical 
errors. It says they seem dig in, clearly a typographical 
error.
    Ms. Wasserman Schultz. Right. I assume it's dug.
    Secretary Ross. About not sling the census----
    Ms. Wasserman Schultz. Asking? I'm assuming that you were 
saying, and you can confirm this for me, they seem dug in about 
not asking the citizenship question.
    Secretary Ross. Well, my point is it is quite obvious from 
the typos that this was a very hastily written email.
    Ms. Wasserman Schultz. Okay. I don't want to----
    Secretary Ross. I'm sorry, ma'am.
    Ms. Wasserman Schultz. Mr. Secretary, it was your email and 
your phone call. Who were you referring to that was dug in that 
morning on that call from the--and were they inside or outside 
the census, about not asking the citizenship question? That is 
clearly what you were asking, typos or not.
    Secretary Ross. I do not know the answer to your question 
as I sit here, ma'am.
    Ms. Wasserman Schultz. You are just continuing to 
stonewall. You don't know the answer? Is that because you don't 
remember the conversation on the phone? You don't remember 
sending your own email that is before your very eyes?
    Secretary Ross. This does not say that I had a phone 
conversation----
    Ms. Wasserman Schultz. Okay. It said: Were you on the call 
this morning about the census?
    Secretary Ross. No. I was asking----
    Ms. Wasserman Schultz. Anyway, I'm going to move on, but I 
would like you to answer that question for the record, please.
    Secretary Ross. Well, I was asking the question----
    Ms. Wasserman Schultz. Yes.
    Secretary Ross [continuing]. whether that other person was 
on the call.
    Ms. Wasserman Schultz. And did you get an answer?
    Secretary Ross. Would you please let me answer the 
question?
    Ms. Wasserman Schultz. If you would actually answer it, 
yes.
    Secretary Ross. I was asking the question whether the 
recipient of this email had been on the call.
    If I was on the call I would have known who was on it. So 
pretty clearly, whatever call this is referring to, it does not 
appear I was even on it.
    Ms. Wasserman Schultz. Okay. Mr. Secretary, I'm going to 
move on, but I'd like the answer to that question about what 
you were referring--who you were referring to and what you were 
referring to for the record, please.
    The note that I mentioned that I just read aloud took place 
the morning of August 8. Do you recall who you were on a call 
with who seemed dug in about not asking the citizenship 
question?
    Secretary Ross. I'm sorry, but I have to correct----
    Ms. Wasserman Schultz. You were on the phone. You were on 
the phone with an individual. Do you recall who you were on a 
call with or who your staff was on a call with that you were 
referring to who seemed dug in about not asking the citizenship 
question?
    Secretary Ross. This questions asks Earl Comstock, who was 
the recipient, whether he was on the call. It doesn't say that 
I was on it.
    Ms. Wasserman Schultz. Do you recall his--okay. Do you 
recall his answer?
    Secretary Ross. I don't recall being on any call.
    Ms. Wasserman Schultz. Did you call the Attorney General 
following that email in or around August 2017? And if so, would 
did you ask him to do?
    Chairman Cummings. The gentlelady's time has expired, but 
you may answer.
    Secretary Ross. I will answer. My conversations with the 
Attorney General are confidential and----
    Ms. Wasserman Schultz. I'm sorry. Are you claiming 
executive privilege, Mr. Secretary? Because your conversations 
with the Attorney General are not confidential. You are fully 
able to answer this question.
    Chairman Cummings. You may answer.
    Secretary Ross. That is not a question, so I have nothing 
more----
    Ms. Wasserman Schultz. It is a question. I am asking if you 
are claiming----
    Chairman Cummings. Mr. Jordan.
    Ms. Wasserman Schultz. Mr. Chairman, can you direct the 
Secretary to answer whether he is claiming executive privilege 
and refusing to answer my question as a result? Because he is 
fully able, as far as I understand the law, to answer that 
question.
    Chairman Cummings. Are you claiming executive privilege?
    Secretary Ross. I am not claiming executive privilege, sir, 
on this topic. But I am claiming, and I believe is a fact, I 
don't say that I was on the call with anyone.
    Ms. Wasserman Schultz. But, Mr. Chairman----
    Secretary Ross. That's what the original question was. I 
was asking someone else----
    Ms. Wasserman Schultz. Mr. Chairman, my question that I am 
referring to is, did you call the Attorney General following 
that email in or around August 2017? And if, so what did you 
ask him to do?
    And the Secretary said his conversations with the Attorney 
General are confidential. But now he says he is not claiming 
executive privilege.
    So if he is not claiming executive privilege, then he needs 
to answer that question, because that's what the purpose of 
this hearing is for.
    Secretary Ross. I have been told by counsel that I am not--
appropriate for me to answer that question, and that answer is 
consistent----
    Ms. Wasserman Schultz. Mr. Chairman, can I ask you a 
question? Is not appropriate part of the rules here in terms of 
what the witness is required to answer when we are asking him a 
question? Unless he is claiming executive privilege, then I 
believe he has to answer the question.
    Secretary Ross. I believe the questioner's time is up, sir.
    Chairman Cummings. Were you finished? Were you finished?
    Secretary Ross. I believe the questioner's time is up. I 
have answered the question as best I can.
    Chairman Cummings. Very well.
    Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chair.
    Here is the fundamental question. Why don't they want to 
know? Why don't the Democrats want to know how many citizens 
are in the United States of America? That is a fundamental 
question.
    You go anywhere in this country, anywhere in this country, 
you go to Columbus, Ohio, Boston, Massachusetts, you go 
anywhere in this country, you walk up to someone on the street, 
and you say, ``You know what, the Constitution requires us to 
do a census. Do you think we should find out how many citizens 
are in the country?'' You know what that person is going to 
say? ``Well, heck, yes. Aren't you doing that already?''
    And you know what the answer to that question is? Yes. We 
have been doing it for 100 and some years, until now. The 
Democrats don't want to ask that fundamental question.
    So the real question for the hearing today is, why don't 
they want to know? Everyone else in the country assumes it's 
already being done. It is already being done. You are going to 
do it the exact same way it's always been done. And they're 
asking about conversations.
    Mr. Secretary, it's probably appropriate for a Cabinet 
secretary to talk to other important people in the government 
when you are making important decisions, right?
    Secretary Ross. Yes, sir.
    Mr. Jordan. Yes. It happens all the time.
    Secretary Ross. Yes, sir.
    Mr. Jordan. It's called governing.
    Secretary Ross. Yes, sir.
    Mr. Jordan. That's how this great system we live in works.
    Now, the chairman said to ask this question is 
unconstitutional. It's been said 100 times. But just once again 
for the record, how many years have we asked the citizenship 
question on some form of the census?
    Secretary Ross. I believe it's been asked quite routinely 
for over 100----
    Mr. Jordan. Over 100 years. And again, every single--it's 
common sense. You talk to any American across this country. 
They say, ``Of course. Of course you need to ask that question. 
Aren't you doing it already?'' Yes. Over 100 years we've been 
doing it.
    But you did the added thing. You said, you know what? I'm 
going to check with folks. I'm going to make sure we are doing 
it right, right?
    Secretary Ross. Yes, sir.
    Mr. Jordan. And you were explicitly told by not just any 
old agency, you were explicitly told by who? The Justice 
Department, right?
    Secretary Ross. Yes, sir.
    Mr. Jordan. They sent you a letter. What is the date on 
this?
    Secretary Ross. December 12, 2017.
    Mr. Jordan. December 12, 2017, they send a letter to Dr. 
Ron Jarmin--who works for you, right, Mr. Secretary?
    Secretary Ross. Yes, sir.
    Mr. Jordan. Mr. Jarmin works for you. And this letter is 
from the Justice Department, Arthur Gary, General Counsel, 
Justice Management Division of the Justice Department. Is that 
right?
    Secretary Ross. That is correct, sir.
    Mr. Jordan. Let me just read from this letter sent by the 
Justice Department to the guy who runs the U.S. Census Bureau, 
who works for you, certified return receipt 
70142120000080644964, the official letter. And here's what they 
said: The Department formally requests that the Census Bureau 
reinstate into the 2020 Census a question regarding 
citizenship. Is that right, Mr. Secretary?
    Secretary Ross. Yes, it is, sir, yes, sir.
    Mr. Jordan. And so that's why you put it on the census.
    Secretary Ross. That's what triggered our investigation 
into it. Yes, sir.
    Mr. Jordan. And, of course, you had conversations. You're 
getting ready for the--Mr. Meadows has had hearings after 
hearings, along with Mr. Connolly, how the Commerce Department 
is getting ready for the census, in the previous 
administration, in your administration. There are all kinds of 
conversations that take place. But you still wanted a formal 
request from the Justice Department before you proceeded, and 
that is exactly what they gave you.
    Secretary Ross. Yes, sir.
    Mr. Jordan. And there is nothing un constitutional about 
that whatsoever.
    Secretary Ross. Not to the best of my knowledge, sir.
    Mr. Jordan. No. This is common sense. It's common sense to 
ask the question. It's common sense to follow the procedures 
and process that you followed. And here we are having a 
question. And guess what? The Democrats don't want to ask it.
    So I am back to where I started. Why? Why? Why don't we 
want to know. That's the question we need answered, and not 
from you. Frankly, from them. Because you can go talk to anyone 
across this country and everyone would say, ``Ask that 
question.'' The only people opposing it are Democrats in 
Washington, DC.
    Democrats, Republicans, independents, libertarians, Green 
Party people, anyone across the country, You know what? They 
are saying, ``Well, you ought to ask the question. I thought we 
did it all along.'' And the answer to that is we have been 
doing it all along. But now they want to change.
    And that's the part that troubles me. And, frankly, when 
the American people see this, that's the part, I think, 
troubles them. That's the part that troubles them.
    And you're just doing as best you can. And you have a 
formal directive from the Department of Justice saying, Put the 
question on the census. Imagine that. You went above and beyond 
what, frankly, I think you have to do. But that's how you did 
it.
    Secretary Ross. Yes, sir.
    Mr. Jordan. I got 25 seconds. I was fired up.
    But I will yield the last 25 to my good friend from North 
Carolina.
    Mr. Meadows. I thank the gentleman for yielding.
    I would ask unanimous consent that this census form, which 
says Census of the United States from 2000, which actually is 
the long form from 2000 and declares and has a citizenship 
question on it, is it not part of the census, the long form, 
Mr. Secretary?
    Secretary Ross. Yes, sir.
    Mr. Meadows. I ask unanimous consent that it be entered 
into the record.
    Chairman Cummings. Without objection.
    Secretary Ross. Mr. Chairman, we have been at this for 
about an hour. Would you indulge me in a brief break?
    Chairman Cummings. Yes, of course, sir.
    Secretary Ross. Thank you.
    Chairman Cummings. We'll recess.
    Secretary Ross. How much time, sir?
    Chairman Cummings. You tell me.
    Secretary Ross. Five or 10 minutes, sir.
    Chairman Cummings. I'll give you 15.
    Secretary Ross. Thank you, sir.
    Chairman Cummings. All right.
    [Recess.]
    Chairman Cummings. We will resume.
    Ms. Speier.
    Secretary Ross. Mr. Chairman, would you indulge me to make 
a very brief statement?
    Chairman Cummings. Sure.
    Secretary Ross. As you know, sir, we had told your staff 
that I had a hard stop at 3 o'clock. But I know you're anxious 
to conclude this hearing, and I have postponed that meeting so 
that we can complete the record today as best we can, sir.
    Chairman Cummings. Thank you very much. Thank you.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman. And thank you, Mr. 
Ross, for accommodating us.
    Let me start off by asking the question--is your general 
counsel--I am right here, sir. Over here. Over here.
    Secretary Ross. Oh, I'm sorry.
    Ms. Speier. That's all right.
    Is your general counsel here in the audience?
    Secretary Ross. Is my general counsel----
    Ms. Speier. Is your general counsel here in the audience?
    Secretary Ross. My general counsel? I don't know if he's 
here. But Peter Davidson is the general counsel of the 
Department of Commerce. He is not here.
    Ms. Speier. He is not here.
    Do you have counsel represented here?
    Secretary Ross. There is counsel here, but my general 
counsel is not here, nor--excuse me, I'm not quite finished.
    Ms. Speier. All right. So I was just hoping that what we 
could do, in order to comply with the request made by Mr. 
Raskin about the cases that he cited, we could ask the counsel 
who's representing you here to review those cases so we could 
determine today whether or not you are going to comply with the 
request for information. But I will move on.
    I would, Mr. Chairman, like to provide for the record the 
document by Judge Furman, his decision in the Southern District 
of New York.
    Chairman Cummings. Without objection, so ordered.
    Ms. Speier. Thank you.
    Let me ask you this question. This particular decision 
points to a deposition by your then deputy chief of staff Earl 
Comstock. And Earl Comstock, in a deposition under oath, said 
that he first heard about the notion of adding a question about 
citizenship to this decennial census from the Secretary himself 
shortly after the confirmation.
    Do you recall that?
    Secretary Ross. I don't recall his deposition. Do you have 
a copy of it, ma'am?
    Ms. Speier. Well, I have the decision by the court, by the 
judge. Have you not read the decision by the judge when he 
found that you violated the APA?
    Secretary Ross. I believe you're referring to a document 
that was submitted as, I think you said, a deposition by Mr. 
Comstock.
    Ms. Speier. But this is the decision by the judge in which 
he referenced what Mr. Comstock said.
    Do you recall that you said to Mr. Comstock, shortly after 
your confirmation, that you wanted to add the question of 
citizenship to the census?
    Secretary Ross. I'd like to see----
    Ms. Speier. All right. Let's move on.
    Secretary Ross [continuing]. the deposition because I do 
not recall----
    Ms. Speier. You do not recall.
    Secretary Ross. If you would let me finish my answer, 
please.
    I do not recall saying to Earl Comstock early in the 
administration----
    Ms. Speier. All right. Thank you for that answer. I now 
would like to move on to your statement.
    Secretary Ross. I'm sorry----
    Ms. Speier. On March 22, 2018, before the Committee on Ways 
and Means, you said the Department of Justice initiated the 
request for inclusion of the citizenship question. That's what 
you said then. And we now have Mr. Comstock's under-oath 
statement that you came to him shortly after your confirmation.
    And while we've had a lot of discussion today about the 
census and whether or not to include the issue of immigration 
status, my issue here is that you can't lie to Congress. 
Michael Cohen lied to Congress, and he's going to prison.
    You actually testified before the Ways and Means Committee, 
you've testified before this committee. And you've said in all 
of these circumstances it was the Department of Justice that 
initiated the request. Your own deputy chief of staff says you 
initiated it.
    But let me go on. In your written statement before the 
committee, you say the Department of Commerce asked the 
Department of Justice whether it would have interest in 
obtaining more granular citizenship data.
    So which is it? How did this process initiate? Did the DOJ 
initiate it, as you testified in Ways and Means, or was it the 
written--or as in your written testimony, did Commerce initiate 
it?
    Secretary Ross. First of all, I believe, ma'am, that you 
are mischaracterizing Earl Comstock's testimony. I am not aware 
that he testified that I told him that I had decided to add 
citizenship to the decennial census any time before the 
December 12 memo letter requesting it by the Department of 
Justice----
    Ms. Speier. Except that in the same----
    Secretary Ross [continuing]. as a formal request.
    Ms. Speier [continuing]. in the same decision by the court, 
he references an April 20 email from you in which you say, we 
must get our issues resolved before this. And on May 2, you say 
you're mystified why nothing has been done in response to your 
month-old request that we include the citizenship question. 
This is in the court's decision.
    And with that, I yield back. My time is up.
    Chairman Cummings. Thank you very much.
    Mr. Higgins.
    Did you answer----
    Secretary Ross. I don't think there was a question there, 
sir.
    Chairman Cummings. All right.
    Mr. Higgins.
    Mr. Higgins. Mr. Chairman, I'd like to yield to Mr. Norman.
    Chairman Cummings. Mr. Norman.
    Mr. Norman. Thank you, Mr. Higgins.
    Secretary Ross, thank you for coming today. You've been 
great. You've been here going on, I guess, five hours. And I 
want to publicly thank Chairman Cummings for allowing the 
breaks that are well deserved for you to have.
    And the other thing, Mr. Chairman, when you narrowed the 
scope, as you agreed to do on the questioning, we appreciate 
you doing that.
    Secretary Ross, how many documents have you provided?
    Secretary Ross. How many documents have we filed with the 
committee?
    Mr. Norman. Yes, sir.
    Secretary Ross. My understanding is it's around 8,700 
individual documents.
    Mr. Norman. So you tried, to the best of your knowledge, to 
give everything that this committee wanted. Were there 
anything--any other documents requested that are outstanding?
    Secretary Ross. There may well be. I would have to check 
with counsel on that.
    Mr. Norman. But you've gone overboard to try to get this 
committee what they want so you can answer the questions to the 
best of your recollection.
    Secretary Ross. 8,700 documents. Quite a lot, sir.
    Mr. Norman. Kind of a lot of trees that went down, isn't 
it?
    Secretary Ross. Yes, sir.
    Mr. Norman. I guess as my good friend from Ohio, 
Congressman Jordan, said, this is really basic; is people 
looking in on this hearing, what's left, looking in, you know, 
do we have a right to know how many citizens there are in this 
country, is pretty basic. And as my legal colleagues were 
asking, why are they doing this with the Supreme Court hearing 
coming up, a Supreme Court case being considered. Why would 
they be bringing this up? Everything we're saying today is 
public knowledge.
    Secretary Ross. Well, the Supreme Court is going to rule on 
the fundamental question. As I believe I testified earlier, 
somewhere around the 21st of April is when I believe the oral 
arguments will be heard by the Supreme Court.
    Mr. Norman. Do you agree the integrity of the census is 
fundamental to the integrity of the structure of this body?
    Secretary Ross. I'm sorry. I didn't hear it, sir.
    Mr. Norman. Okay. Do you agree the integrity of an accurate 
census is----
    Secretary Ross. Yes, sir. I have worked very hard to try to 
achieve that. I outlined earlier I got over a $3 billion 
increase in the budget toward that end. We've got a half a 
billion dollar marketing budget toward that end. I called a lot 
of Governors and other officials to get more complete count 
committees than they ever had. We have more partnership 
specialists than we ever had. We will have many more 
partnerships of trusted local institutions to encourage people 
to comply with the census requirement. We're doing everything 
we can to do the best job that we possibly can do.
    Mr. Norman. And had you not taken the integrity of the 
census seriously, you would--definitely would not have asked 
for increased funding, would you?
    Secretary Ross. Well, no. If I wanted to not count 
everybody, the easiest thing would have been simply to accept 
the budget that had been prepared under the Obama 
Administration, and that would, in my view, have left the 
census severely underfunded and probably would have guaranteed 
a massive undercount.
    Mr. Norman. And particularly, and where we sit in our seats 
in the House and Senate, this data is used to apportion the 
number of seats in this country, correct?
    Secretary Ross. As I understand it, it's used for 
apportionment of the House of Representative seats, yes, sir.
    Mr. Norman. For over 150 years, this standard has been to 
count every person residing in the United States. And it is 
every person regardless of legal status, correct?
    Secretary Ross. That's correct, sir.
    Mr. Norman. Well, I just want to thank you. I had other 
questions, but I don't want to beat a dead horse. I admire you 
for staying here and extending your time to answer each and 
every question.
    And I yield the balance of my time to the Congressman from 
North Carolina, Mr. Meadows.
    Mr. Meadows. I thank the gentleman from South Carolina.
    Mr. Chairman, I would like to submit for the record a 
letter, actually, from the assistant attorney general under 
Bill Clinton, from January 27 of 2000, where he makes the same 
point that many of us have been making in his letter, actually, 
to the Honorable John Linder, the chairman of the Subcommittee 
on Rules and Organization of the House. But he said inquiries 
of this type create the risk that public and the courts will 
perceive undue political and congressional influence over the 
law enforcement and litigation decisions.
    I ask unanimous consent that that be entered into the 
record.
    Chairman Cummings. Without objection.
    Mr. Meadows. Thank you, Mr. Chairman.
    I yield back.
    Chairman Cummings. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Secretary Ross, thank you for being here. I think that you 
and the Department are in a somewhat precarious position 
increasingly so, partly because of the substance of the 
decision with respect to the citizenship question, but even 
more so because of the process by which it was reached, and 
there's serious questions about that.
    I want to get back to this idea that adding a citizenship 
question to the census was important for enforcing the Voting 
Rights Act, because I think that that was a rationale that was 
concocted by your department and then foisted upon the DOJ and 
others based on some other agenda that was underway.
    And you've now been referred a couple of times to an 
exchange that you had on May 2 with Earl Comstock, who you 
certainly know, a senior official at Commerce, who emailed you 
in response to your request on the citizenship question, 
basically where you were saying, you know, what's going on with 
this? Why is time lagging?
    And he wrote back to you, quote, we need to work with 
Justice to get them--I want to repeat that, we need to work 
with Justice to get them to request that citizenship be added 
back as a census question, and we have the court cases to 
illustrate that DOJ has a legitimate need for the question to 
be included, end quote.
    Was Mr. Comstock saying that the Department of Commerce had 
done its own legal research to find court cases to justify 
DOJ's need for a citizenship question?
    Secretary Ross. I don't know the answer to that. That's Mr. 
Comstock's email. It's not my email.
    Mr. Sarbanes. It's not your email, you're right. It's a 
response to an email that you sent to him. But it certainly 
sounds, from the way he's phrasing it, we've got to get them to 
request that citizenship be added back.
    So you're saying you can't get into his head. It's fairly 
clear from this what he was intending.
    If DOJ really needed this data that he's talking about, 
wouldn't they have already done their own legal analysis and 
determined their own need independently?
    Secretary Ross. I'm not aware that they didn't make the 
determination nor that they didn't do it independently. What I 
do know is that on December 12, 2017, DOJ sent an official 
request that we include the citizenship question on the 2020 
Decennial Census.
    Mr. Sarbanes. They did indeed do that, you're right. You've 
testified to that all day long. We're trying to get to how that 
came about.
    Mr. Comstock testified at a deposition, again, this has 
been referred to, that in the spring of 2017, he came up with 
the decision on his own that the government needed detailed 
citizenship data from the decennial census.
    Is it true that Mr. Comstock came up with the rationale 
that was being offered?
    Secretary Ross. I have no idea what you're talking about. I 
only know that in December 12, 2017, Department of Justice 
submitted a formal request saying that we should include the 
citizenship question in order to assist them with the more 
granular citizenship----
    Mr. Sarbanes. And we can all stipulate to the fact that 
they did do that. What we're trying to understand is what 
happened before that that led up to their submitting the 
request. And it appears from all of the documentary evidence 
that what led to that was a leaning on the Department of 
Justice or a making suggestions to the Department of Justice or 
directly inviting the Department of Justice to submit that 
request based on an agenda and a set of rationales that had 
been developed inside the Department of Commerce.
    In the deposition, Mr. Comstock was asked: Who told you 
that the government needed, in the spring of 2017, more 
detailed information about citizenship than was contained in 
the American Communities Survey?
    And he said: Nobody.
    And the next question was: You came to that decision on 
your own. Is that right?
    And he said: Correct.
    So Mr. Comstock then also testified that he raised the idea 
with the Department of Justice in May 2017. He said that he 
spoke with James McHenry at the Department of Justice, and 
asked whether DOJ would, quote, be inclined to send a letter 
asking us to add the citizenship question.
    I could go on, but the documents indicate that this idea of 
using the VRA as a rationale for putting the citizenship 
question originated inside, at the very least, the Department 
of Commerce, if not from other parts of the administration. And 
that's the process that we have serious, serious questions 
about.
    And I yield back my time.
    Chairman Cummings. Very well.
    Mr. Higgins.
    Secretary Ross. Is there a question in that, sir?
    Chairman Cummings. Did you want to say something, 
Secretary?
    Secretary Ross. Yes. I was simply going to say, anybody 
who's followed recent events knows that Attorney General 
Sessions was not someone I or anyone else could bully into any 
decision. Jeff Sessions is very much his own person. And the 
official document from the Department of Justice reflects their 
view.
    Chairman Cummings. And you're saying that--let me 
understand. You're saying that Sessions was concerned about 
voting rights?
    Secretary Ross. I'm sorry, sir?
    Chairman Cummings. Are you saying he was concerned about 
voting rights?
    Secretary Ross. Yes. The Department of Justice sent the 
document saying that they wanted the citizenship question added 
in order to help them enforce the Voting Rights Act.
    Chairman Cummings. Thank you very much.
    Mr. Higgins.
    Secretary Ross. Any conversations I had with Attorney 
General Sessions are confidential, as I've described before.
    Chairman Cummings. Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Secretary Ross, thank you for being here today. You have 
been strong and courageous, good sir. A testament to your 
department and to your generation.
    The word ``compliance'' has been used by my colleagues 
across the aisle several times today. I will suggest that 
perhaps my colleagues across the aisle should consider 
compliance with the advice of the Supreme Court of the United 
States, because despite clear instructions from the Supreme 
Court that deposition and sworn testimony of you, Secretary 
Ross, should be stayed because of the pending case before the 
Supreme Court could be injured, here we sit in an open and 
public hearing where you're presenting sworn testimony.
    During his opening remarks, the chairman referred 
extensively to specifics from the very case that is pending 
before the Supreme Court. And I say again that by allowing 
Secretary Ross to testify under oath before a congressional 
committee where the rules of evidence and civil procedure do 
not apply, the majority is allowing a prolonged and probative 
inquiry into a question that is at the center of the Supreme 
Court case, that being the citizenship question.
    The citizenship question has remained on every U.S. Census 
in one form or another since the very first census in these 
United States. In 1950 was the last census conducted person-to-
person, household-to-household. This is why historically there 
was a change since then.
    I believe the real question should regard why was the 
question removed. And we've used the word ``add.'' Add the 
citizenship question to the census. The real word should be 
``restore.'' We're restoring deeper accuracy to the census of 
these United States.
    I ask you, Mr. Secretary, was your understanding as you 
communicated with various members, as has been pointed out by 
Congressman Jordan, is quite normal for ranking members of the 
executive to communicate freely and openly with each other to 
share ideas. Was it your understanding as you sought 
clarification from the Department of Justice regarding adding 
this question, was your intent to have a clear, legal 
clarification from the DOJ, despite the fact that the question 
of citizenship may have been spoken of in various forms, 
including in this body, prior to that ruling from the DOJ?
    Secretary Ross. I was interested to know whether DOJ would 
make a formal request or not. And that was the subject which I 
was trying to get an answer to. My actual conversations with 
members of the DOJ are confidential and are subject to the 
constraints that I described before.
    The reasons for adding the question are those that were 
contained in the March 26, 2018 decision----
    Mr. Higgins. Yes, sir, which I have reviewed and you have 
supported with your testimony today.
    This question has been referred to as unconstitutional. May 
I say it was not unconstitutional under President Clinton, and 
there's been no constitutional amendment since President 
Clinton was in office. And I suggest to my colleagues that if 
you intend to make this question unconstitutional, then by all 
means, introduce an amendment to our Constitution and let us 
follow that process, see what happens.
    And let me refer finally that voting rights have been 
referred to here. We all know, America watching knows, that 
this is at the center. It is a right of an American citizen to 
vote, not otherwise. But there's been talk of extending this 
privilege, this right, earned by the blood of patriots past to 
extend this privilege to others that live within our country. I 
refer to the opening words of the 15th and 19th Amendment: The 
right of citizens of the United States to vote shall not be 
denied nor abridged.
    Are you familiar with those words, Mr. Secretary: The right 
of citizens of the United States to vote shall not be denied or 
abridged?
    I shall take that as a yes.
    Mr. Chairman, I yield back.
    Chairman Cummings. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    Secretary Ross, I'd like to ask you about your decision to 
include the citizenship question.
    On January 26, 2018, six former census directors, four 
Democrats and two Republicans, wrote you saying, and I quote, 
We believe that adding a citizenship question to the 2020 
Census will considerably increase the risk to the 2020 
enumeration, end quote.
    Secretary Ross, did you read the letter from the six former 
census directors before you decided to add the citizenship 
question? Yes or no. And I request permission to place it in 
the record.
    Secretary Ross. I did read the letter. And my testimony----
    Mrs. Maloney. So you did. Yes.
    Okay. On January 19----
    Secretary Ross. I'm sorry, Congresswoman, I'm not finished 
with my answer.
    Mrs. Maloney. I wanted a yes-or-no question.
    On January 19, 2018, the Census Bureau's chief scientist, 
Dr. Abowd, sent you a memo describing the Bureau's technical 
review on the impact of a citizenship question, and he 
recommended against adding the question saying it would be, 
quote, very costly. Harms the quality of the census count, end 
quote.
    Did you read the analysis from Dr. Abowd, which I would 
place in the record? Yes or no.
    Secretary Ross. Dr. Abowd also----
    Mrs. Maloney. Did you read it? Yes or no.
    Did you read it? Yes or no.
    Did you read it?
    Secretary Ross. I'm sorry, Congresswoman, not all questions 
can be answered yes or no.
    Dr. Abowd also gave sworn testimony----
    Mrs. Maloney. Okay. Listen, I wanted an answer to that. I 
take it as a no.
    Mr. Secretary, on March 1, Dr. Abowd sent you another memo 
where he again recommended that you not add a citizenship 
question saying, quote, it would result in poor quality 
citizenship data than administrative records, end quote.
    Did you read his second analysis from Dr. Abowd? Yes or no.
    Secretary Ross. All the----
    Mrs. Maloney. Well, you're not prepared. You have to say 
yes or no.
    Secretary Ross, is it fair to say that the Census Bureau's 
technical experts, the scientists, the experts, the 
professionals, did not agree with your proposal for adding the 
citizenship question? Yes or no.
    Secretary Ross. As Dr. Abowd said----
    Mrs. Maloney. They have said uniformly that they thought it 
was a very bad idea.
    Mr. Meadows. Mr. Chairman?
    Mrs. Maloney. Disagreed with your decision.
    On August 20, which was after you decided to add the 
question, Dr. Ron Jarmin----
    Mr. Meadows. Mr. Chairman, the witness has been 
cooperating. He's been--he's been----
    Mrs. Maloney. Excuse me, Mr. Meadows, I asked for--okay.
    Mr. Meadows. Yes, sir, you do.
    Mr. Chairman, he's been interrupted over 33 times. I mean, 
if we're going to ask questions, let him answer. And with all 
due respect, you know, he's been cooperating.
    I yield back. I thank the gentleman.
    Chairman Cummings. Let me say this.
    Thank you very much.
    I try to not interfere with people's questioning, because I 
just--I try not to. But if you need--and at the end, if there's 
something that you need to answer, sir, I will allow you at the 
end to do that. But I understand. Okay?
    Mrs. Maloney. Thank you.
    Secretary Ross. Thank you very much, Mr. Chairman, for your 
courtesy.
    Chairman Cummings. I don't want to be policing everybody's 
questions, because that doesn't get us too far.
    Secretary Ross. Thank you very much, Mr. Chairman. I'm 
doing the best I can.
    Chairman Cummings. I will put one minute on your time.
    Mrs. Maloney. Okay. Thank you.
    Chairman Cummings. All right.
    Mrs. Maloney. Okay. Secretary Ross, two Federal judges 
ruled that you broke the Federal law and have ordered that the 
question, the citizenship question, be removed. Judge Furman of 
the Southern District of New York called your decision, quote, 
arbitrary and capricious and a veritable smorgasbord of clear-
cut administrative procedure act violations, end quote.
    Judge Seeborg agreed in calling for the question to be 
removed.
    So let's go over this. Six former census directors, 
bipartisan, four Democrats and two Republicans, the Census 
Bureau's chief scientist, and other professionals, the acting 
director of the Census Bureau, and two Federal judges have all 
said that the citizenship question will lead to an undercount 
and an inaccurate census.
    So do you mean to tell us that all these professionals are 
wrong and you're right? Is that really what you're telling us? 
Every professional at the Census Bureau, not political 
appointees, professionals said this will lead to an undercount, 
thereby undermining our representation and our democracy.
    And I want to say very, very clearly that this decision of 
Judge Furman everyone should read. He clearly points out with 
facts that you entered the building with a clear political 
agenda that would undermine our democracy by adding the 
citizenship question. He points out that you talked to people 
in the White House, Bannon, Sessions, and others. That you 
shopped for different agencies to ask the question. That the 
Department of Justice asked the question saying it was 
dependent on voting rights. But he says it's not, that it 
doesn't prove that. He says that a political appointee, AAA 
Gore goes--he wrote the question and then had a career at 
Justice sign it, and that it went forward.
    And I just want to close by saying that the census is one 
of the most important parts of our democracy, and that's why we 
are so concerned about it. And we know that every professional 
is saying that this will lead to an undercount. And if you 
don't count everyone, then you're not represented, and the 
distribution of over $650 billion will not be fair.
    And under the Clinton Administration, my good friend on the 
other side of the aisle was inaccurate when they said they 
asked that question. They did not. The citizenship question has 
not been asked since 1950. It is on the long form survey but 
not on the short form that we are encouraging everyone to fill 
out.
    And so, again, if you care about democracy, I would suggest 
that everyone read Judge Furman's decision where he clearly and 
factually points out that this was contrary to all of the 
advice of all the professionals, Republican and Democratic, 
census directors, who all advised against adding this question.
    Chairman Cummings. Mr. Roy.
    Mr. Roy. Thank you, Mr. Chairman.
    Secretary Ross, thanks for being here. Thanks for your 
patience being here for a long time this afternoon. Really 
appreciate it and appreciate your service to our Nation.
    I'm interested by the phrase ``if you care about 
democracy.'' In our country, I'm pretty sure that it's citizens 
who vote. Is that not right, Mr. Secretary?
    Secretary Ross. Yes, sir.
    Mr. Roy. Why are we here? We're here because my colleagues 
on the other side of the aisle simply do not want to know who 
is a citizen and who is not. It is unfathomable. This is just 
the basics. Here we are again in a long hearing, all afternoon, 
questions over and over again. Seems to be a lot of focus on 
history. I love history.
    It's been asked since 1820 through 1950, the question about 
citizenship on the census. On the ACS since 1970. There's 
rocket science here.
    But to be clear, even to the graduate of Mr. Jefferson's 
university, I don't think the question should be asked because 
the President, the former President, suggested in 1800 that it 
be added, and then in 1820, a question asking about foreigners 
not naturalized in the household was added 200 years ago.
    Even if this question had never been asked, ever, I would 
want it to be asked. Even if through all of the questions 
there's some alleged nefarious purpose today, I want the 
question to be asked. I just want to know. As a Member of 
Congress, I'd like to know how many citizens we have in the 
United States of America. And I'd like to know who's here who 
is not a citizen.
    Mrs. Maloney. Will the gentleman yield, please?
    Mr. Roy. No, ma'am. I've got to finish my questioning. 
Thank you, though.
    Now, look, I admit it. You caught me. I do, I want to know. 
Unlike my Democratic colleagues, I'd like to know, and I think 
the people of Texas would like to know. My Democratic 
colleagues, in a recent Budget Committee hearing, fell all over 
themselves trying to find more debt and more of other people's 
money to spend on another Federal program. We heard it. There 
aren't enough billions of dollars to dole out. And to dole out 
all that free money from the magic money trees, we at least 
need to know how to dole it out and to whom we're going to dole 
it.
    My colleague from West Virginia very appropriately outlined 
numerous reasons why we want to know this information. 
Medicaid, SNAP, Medicare part D, Highway funding, Pell grants. 
She detailed 132 programs and $650 billion worth of spending 
tied to information based on census data.
    Secretary Ross, this is true, right, that citizenship and 
the census data is used by Federal agencies and Congress in 
myriad ways? Is that right, Mr. Secretary?
    Secretary Ross. Yes, sir.
    Mr. Roy. In addition, states require citizenship 
information to know where to place ballot boxes. I mean, surely 
my colleagues on the other side of the aisle would not suggest 
that noncitizens should vote.
    Mr. Secretary, it is true, right, that states need to have 
good citizenship information to make good decisions about 
administering the basic right of citizenship to vote? Is that 
right, Mr. Secretary?
    Secretary Ross. Yes, sir.
    Mr. Roy. This is the basic stuff of a sovereign Nation. It 
really is. It's just basic. The American people are watching 
dumbfounded. We're sitting under a sign, e pluribus unum; out 
of many, one, right here in this room.
    Many make this about immigration. But in understanding of 
our history, we know it is about 13 colonies coming together. 
One Nation, a Nation that builds around a Nation of shared 
ideals. A Nation built around the notion of our commitment to 
life, liberty, and the pursuit of happiness; around the notion 
of our commitment to inalienable rights. Not a Nation built on 
race, color, national origin, or creed, but about being an 
American.
    I cannot understand at what universe our leaders would not 
want to know who's a citizen and who's not.
    In an article in CNN, a young man, Stephen Park, an 
immigrant with a green card, he said: That wasn't enough for 
me. He decided, I believe strongly in the Constitution of this 
country, and just having the right to work here wasn't enough. 
I wanted the right to vote. And I wanted the right to call 
myself an American. No other country gives you the right to 
pursue happiness, and that is the right that I have grabbed 
firmly with both hands. A lot of people complain about this 
country, but try living elsewhere without all the rights that 
you take for granted. In some ways, we immigrants are the lucky 
ones. We see more clearly the opportunities that this great 
Nation affords all of its people. Amen.
    In 1994, President Clinton appointed retired Representative 
Barbara Jordan as the chairman of the Commission on Immigration 
Reform. When I hop on a plane in a little bit--thank goodness 
it's not a Max 8, this afternoon, I'll just say that. I'm 
heading to Austin, Texas, and I'm going to go to the Barbara 
Jordan terminal in Austin.
    In the interim report of the U.S. immigration policy: 
restoring credibility, the goal of immigration policy was 
summarized in these words: The credibility of immigration 
policy can be measured by a simple yardstick. People who should 
get in do get in. People who should not get in are kept out. 
And people who are judged deportable are required to leave.
    She then went through and the Commission went through and 
outlined a lot of policies, all of which would be seen like a 
three-headed monster today by my colleagues on the other side 
of the aisle.
    We are here for one simple reason: The commonsense question 
of asking citizenship on the census. The American people are 
watching.
    Thank you, Mr. Secretary.
    Chairman Cummings. Let me say this, I've listened very 
carefully. I've listened. And I want us to be very careful, all 
of us. I think every single person in this House and on both 
sides want an accurate count. If you don't want an accurate 
count, raise your hands.
    Everybody wants an accurate account. So we may differ on 
how we look at things, but I don't want for one second, and I 
will defend this side and your side about an accurate count. It 
is to all of our advantage to have our folks counted because it 
affects every single one of us.
    Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman.
    Thank you Mr. Secretary, for being here and your service. I 
was a deputy assistant secretary at Commerce far lower in the 
totem pole, so I know how hard your job is.
    At its core, it seems to me the American people have hired 
you to increase our exports and reduce our imports. Last week, 
your Commerce Department said that the United States posted an 
$891 billion trade deficit for 2018, the largest in our 243-
year history.
    Now, I don't want to score political points, and I hope 
you'll answer this honestly. You had a very successful career 
in the private sector. Harvard MBA, success with Rothschild and 
Sons. I don't question your patriotism. I don't question that 
you're working really hard and trying. But if you were to use 
the same standard that you judge people in the private sector, 
would you say that your record so far has been a success?
    Secretary Ross. I believe I have done the best that I 
possibly can do. I will continue to do the best that I possibly 
can do to benefit the American people. I have never done 
anything to advantage me at the expense of the American people, 
and I don't intend to do so.
    Mr. Khanna. I don't question your sincerity or your 
patriotism, sir. I do question--you know Gary Cohn said, and I 
don't agree with all of Gary Cohn's policies, but I have 
respect for him. He was one of the loudest voices against anti-
Semitism. And he said one of the reasons things don't seem to 
be working is the process. And without divulging any 
confidential information, Gary Cohn says he respects you. But 
he says that what was happening is the steel aluminum 
executives were being taken into the Oval Office. The chief of 
staff wasn't being consulted, the legal advisors weren't being 
consulted, and tariffs were being announced.
    Do you agree with his characterization? Don't tell me any 
of the conversations, just about the process.
    Secretary Ross. Well, I'm not familiar with his remarks. 
But in any event, conversations that I had with him while he 
was in the White House, conversations I've had with the 
President, conversations with staff like that are confidential 
and I'm not authorized to disclose.
    Mr. Khanna. And I wouldn't ask you to disclose that. But do 
you think that the process could have been better, that there 
were cases of people being taken into the Oval Office for 
industry CEOs, having calls with them, without any process and 
without consultation of the appropriate people?
    Secretary Ross. I believe that any meetings that I've 
helped organize had proper consultation. I'm not familiar with 
the theory that Mr. Cohn has, so----
    Mr. Khanna. If I could just read it to you. He says--it was 
just today, actually. They were going to use a direct 
connection to the President to set up a meeting and call in 
CEOs of aluminum companies and steel companies to announce 
steel tariffs and aluminum tariffs without there being a 
process and a procedure to set up the meeting, without the 
chief of staff knowing there was a meeting, without the Office 
of Legal Counsel having a written executive order or a memo or 
anything to sign, and they created the meeting without anyone 
knowing it.
    Secretary Ross. I would suggest that if Mr. Cohn has those 
views, he has those views. I'm not familiar with them. But 
anybody who thinks he could have a secret meeting with the 
whole steel industry, the whole aluminum industry in the White 
House and nobody know about it is a little silly.
    Mr. Khanna. The only reason I bring the process, because it 
comes back to some of the census issues.
    Are you familiar with Dr. Jarmin, the acting director of 
the Census Bureau?
    Secretary Ross. I'm sorry?
    Mr. Khanna. Dr. Jarmin? He's the acting----
    Secretary Ross. Oh, yes. Ron Jarmin.
    Mr. Khanna. And apparently, he wanted to meet with people 
at the Justice Department, career officials, and that meeting 
never took place. John Gore told us the reason it didn't take 
place is the Attorney General didn't want it to place. Is that 
true?
    Secretary Ross. That's what I have been told. I have no 
direct knowledge that that is true.
    Mr. Khanna. So putting aside the issue of whether they 
should ask the question of citizenship--obviously, I think 
that's ridiculous and they shouldn't. But putting that aside 
and the deeply divisions we have on this committee, do you have 
some regrets at least that the process wasn't properly followed 
in how the decisions were made, that perhaps the career staff 
should have been allowed to consult with career staff at 
Justice? And are they--I mean, you're not admitting to any 
crime here. You just have--in an introspective moment think 
that maybe the process could have been better.
    Secretary Ross. I did not raise any objection to the career 
staff meeting with anyone. If Justice refused to do so, which I 
gather from you they did, you ought to ask Justice what was 
their reasoning, not me.
    Mr. Khanna. Thank you for your testimony.
    Chairman Cummings. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, Ranking Member Jordan.
    Mr. Chairman, before I start my comments, I'd like to 
propose a question to the ranking member or yourself. This 
morning, Congressman Higgins made a motion to adjourn because 
members of the Supreme Court have said that further testimony 
on this issue could bias pending cases. That motion failed and 
was followed by a question from a Democrat member asking if 
Republican leadership--during the Republican leadership, their 
party, your party, ever asked to adjourn to keep a witness from 
testifying, to which, of course, the answer was no.
    My question is to the ranking member. Did Republicans ever 
call a witness whom the Supreme Court had asked that testimony 
not be given because it would interfere with a pending case?
    Chairman Cummings. Go ahead.
    Mr. Jordan. No.
    Mr. Green. No. Of course not.
    Here we are spending this committee's time looking into the 
question of whether or not citizenship should be added to the 
census; something we have done many times before, something the 
United Nations suggests. Something nearly all nations do, and 
something that exists on multiple different U.S. forms and 
state forms.
    Meanwhile, real issues are left unaddressed. For example, 
last year, the United States Army and the United States Marine 
Corps saw a significant increase in the suicide rate of Active 
Duty soldiers and Marines. Let that sink in. We could be 
looking into why there's a significant increase in the suicide 
rate of Active Duty Army and Marine forces. And instead, we're 
looking into whether or not to include citizenship on the 
census form.
    This is an egregious waste of the committee's time. And 
more importantly, we will never get this oversight time back. 
They call that opportunity cost, I believe, in the business 
world. And we wait to uncover the truth about Active Duty 
soldier deaths to suicide.
    There are numerous problems throughout our government. And 
it certainly seems to me there are far more important questions 
the Oversight and Reform Committee could be asking. And it begs 
the question, if the committee is willing to focus on the 
citizenship question on a census form, Mr. Chairman, would you 
be willing to commit to holding a hearing on the alarming 
increase in the suicide rate of our Active Duty soldiers?
    Chairman Cummings. We are dealing with that in the 
subcommittee.
    Mr. Green. Wonderful. Thank you.
    Chairman Cummings. And I'm going to give you some extra 
time.
    Let me be abundantly clear. We got a lot of issues. A lot.
    Mr. Green. Yes, sir.
    Chairman Cummings. And I don't waste time. You will--let me 
finish.
    Mr. Green. Yes, sir.
    Chairman Cummings. I refuse to waste the time of you or 
this committee. All right? I spent six months laying in a 
hospital bed thinking about my death and my life. So I get it. 
We have a limited amount of time on this Earth. I got that. 
Okay? So I'm not going to waste your time. I promise you. You 
don't have to go there with me. All right?
    Mr. Green. Thank you, Mr. Chairman.
    Chairman Cummings. By the way, as far as the census is 
concerned, we will do all those other things you talked about, 
making sure that the money is right, all that other stuff. But 
right now, I'm just trying to make sure that a critical issue, 
the citizenship question is addressed. That's all. All right?
    Mr. Green. Thank you, Mr. Chairman. I too had cancer and 
have been where you were. And I appreciate you making that 
statement.
    I do want to mention too, though, that in previous 
committees, we had Michael Cohen come here before. Mr. 
Secretary, let me ask this question of you. Were you coached by 
anybody on our side before you came to the committee today? Did 
anybody coach you on how to answer anything?
    Secretary Ross. What do you mean by our side, sir?
    Mr. Green. The Republicans, sir.
    Secretary Ross. Oh, Republicans on the committee? No.
    Mr. Green. No. I wouldn't think so. But, of course, Michael 
Cohen was coached for 10 hours by Democrats to prepare for his 
Intelligence Committee hearing. But you didn't get that kind of 
preparation.
    Mr. Secretary, have you ever lied before Congress?
    Secretary Ross. No, sir.
    Mr. Green. You haven't. But apparently, Mr. Cohen has, and 
he was made a priority here with our Oversight Committee time.
    Let me ask some questions that I think are really important 
to ask you, particularly as it relates to cybersecurity and the 
census. I know we're doing some stuff online. And I'm 
intrigued--I know the American people would love to know the 
steps and measures that have been taken to ensure the 
protectedness of that online system.
    Secretary Ross. Yes, sir. First of all, the use of internet 
as a response format is voluntary. Nobody has to respond by the 
internet. We added the internet as a response mode as a 
convenience to those people who find that an attractive way to 
do it and also as a means of holding down the cost. Every 
internet response we get is a less expensive response than one 
on paper.
    As to what we're doing, census department has visited and 
consulted extensively with other parts of the government that 
are expert in cybersecurity. They have also consulted with 
private sector experts and, indeed, had a session with some 
private sector experts, I think there might even have been a 
public session, listening to their comments on what was being 
done.
    I'm not a cyber expert, but fundamentally, what they're 
doing, the data received are encrypted from the moment they 
come in, while they're in transit, and while they're at rest. 
We believe it is the most thoroughgoing cybersecurity practice 
that we have been informed about. We are trying very, very hard 
to make this very, very difficult to break into.
    We've gone to another step called differential privacy. And 
what that consists of is the following: In today's world with 
so much information on individual citizens being available 
through the social media, through the various organizations, we 
were worried that people might be able to reverse engineer the 
data, the aggregated data that we provided. So they have 
developed a system which they presented to I believe it was the 
American Statistical Association explaining how they were going 
to add what they call noise so that it would not contradict the 
accuracy of the ultimate material but would make it essentially 
impossible for people to reverse engineer and get at individual 
data.
    Those are some of the extents to which we have gone to try 
to protect the data of each individual. Every census employee 
who has access to the data has taken a lifetime oath not to 
reveal individual data. And to do so would expose a person to a 
jail sentence and a substantial fine.
    So we are doing the very best that we can. And I'm very 
proud of the extreme efforts that we have taken to try to make 
the--not just the internet responses, but the phone responses, 
the paper responses, and the nonresponse followup responses, we 
are doing the very best we can to make those as confidential as 
is humanly possible.
    Mr. Green. Mr. Chairman, could I submit--I know my time is 
up. Could I submit some written questions on the cybersecurity 
issue and have them entered into the record later?
    Chairman Cummings. Of course.
    Mr. Green. Thank you, Mr. Chairman.
    Chairman Cummings. Very well. And to Mr. Green, let me say 
this, the issue of military suicides is something that I am 
very sensitive to. Early on in my career, one of my first early 
fellows' husband killed himself. I mean, he committed suicide. 
He was in the military. She was in the military, too.
    And, Mr. Lynch, we got a request from you and Mr. Hice I 
think it is, and Mr. Lynch has assured me that this is 
something that he's very interested in. I promise you, we'll 
work with you. Because I agree with you, it is a very important 
issue. And thank you for bringing it to our attention.
    Mr. Gomez.
    Secretary Ross. Mr. Chairman, before Mr. Gomez, may I 
request a short break? We've been at this for another hour, and 
I could really use----
    Chairman Cummings. Yes, of course. And we'll take a break, 
and then we're not going to be that long. We only have about 
four more people, but go ahead. Of course.
    Secretary Ross. Thank you very much, Mr. Chairman. Thank 
you.
    [Recess.]
    Chairman Cummings. We are back.
    Ms. Tlaib.
    Ms. Tlaib. Thank you, Mr. Chairman.
    Secretary Ross, good afternoon. I wanted to ask you about 
your conversation with Mark Neuman. He is a former Department 
of Commerce employee who was a member of the Trump transition 
team. You and your staff consulted with Mr. Neuman about the 
addition of the citizenship question. Isn't that right?
    Secretary Ross. We used Mark Neuman as a consultant.
    Chairman Cummings. Keep your voice up, sir.
    Secretary Ross. We used Mark Neuman as an outside 
consultant to the Department on various matters relating to 
census, because at an earlier point in his career, he was very 
involved with census. I think at one point he actually worked 
there and at another point I believe he was a member of one of 
the advisory committees.
    Ms. Tlaib. Thank you. When was the first time you met with 
Mr. Neuman? And it sounds like you discussed the citizenship 
question. Is that correct?
    Secretary Ross. The first time I met with Mr. Neuman was 
during the murder board presentations preparatory to my 
confirmation hearing as Secretary.
    Ms. Tlaib. Where did you meet him, and was it just the two 
of you in the meeting?
    Secretary Ross. I don't remember the exact details of it, 
but, in general, at the murder board preparations there was a 
whole lot of people.
    Ms. Tlaib. So how did you connect with Mr. Neuman? Did 
someone on the transition team recommend that you talk to him 
or someone else?
    Secretary Ross. I don't know how he came to be introduced 
to me. He showed up at one of the prep sessions for the 
confirmation hearing, and that's all I knew about him. I had 
never met Mr. Neuman prior to the time of the confirmation 
preparation process.
    Ms. Tlaib. Did you discuss with Mr. Neuman the idea of 
having the Department of Justice make a request for the 
citizenship question?
    Secretary Ross. Did I ask him to ask the Department of 
Justice to ask the question?
    Ms. Tlaib. Did you discuss with him the idea of having the 
Department of Justice make a request to you for the citizenship 
question?
    Secretary Ross. I don't know that it happened in that 
context. Everybody knew that I was interested in finding out 
from Department of Justice whether or not they would send a 
letter.
    Ms. Tlaib. So last week, the committee staff interviewed 
John Gore, the Department of Justice official responsible for 
drafting the December 2017 letter requesting the citizenship 
question. Mr. Gore told us that your staff asked him to talk to 
Mr. Neuman about the citizenship question. He said he spoke to 
Mr. Neuman in early October 2017, and according to Mr. Gore, 
when they spoke, Mr. Neuman gave him, quote, a draft letter 
that would request reinstatement of the citizenship question on 
the census questionnaire. Two months later, the Department of 
Justice issued the final letter requesting the citizenship 
question. We don't know how much it was influenced by Mr. 
Neuman's draft.
    Were you aware that Mr. Neuman provided a draft letter to 
Department of Justice? If so, can you provide that draft to 
this committee?
    Secretary Ross. First of all, I didn't even know that he 
was going over to the Department of Justice, let alone that he 
might have brought a letter. I believe from what I've been 
told, that your characterization of Mr. Gore's testimony is not 
exactly correct. I believe that what Mr. Gore testified was 
that he wasn't sure who brought him a letter--a draft letter. 
He thought it might have been Mark Neuman. But I'm also told 
that--I'm sorry, I'm not finished with my answer.
    Ms. Tlaib. Well, Secretary, I just want to make sure, you 
didn't ask Mr. Neuman for the draft letter.
    Secretary Ross. But I am told that in Mark Neuman's 
deposition he denied any such event.
    Ms. Tlaib. Okay. Well, there are a lot of lawyers at 
Department of Justice, Secretary, with expertise on voting 
rights, and lots of experts within the Commerce Department with 
expertise on the census. There is no legitimate reason for this 
former Trump transition team member to be drafting letters for 
them, unless there is some kind of political scheme happening 
behind closed doors, Mr. Secretary. You have tried to make it 
look like this request came from the Department of Justice. 
Why? But the involvement of Mr. Neuman is yet one more 
indication that the Department of Justice was not in the 
driver's seat; it was political operatives behind the scenes. 
Do you agree?
    Secretary Ross. Anyone who thinks that Mark Neuman or I or 
anyone else could push Attorney General Sessions around hasn't 
been paying very good attention to his career. I'm sorry, I'm 
not quite finished.
    Ms. Tlaib. That's okay. So I'm of Middle Eastern descent. I 
am Arab American, and just really quick, I would like to submit 
to the chairman a question for you to be able to respond later 
in regards to the Middle Eastern Northern African, or MENA, 
category where it helps MENA respondents to more accurately 
report their MENA identities on the census. And according to 
various information I have received from committee staff is 
that, right now, the Bureau said it felt that more research and 
testing is needed, although multiple, multiple times, I 
believe, it has been agreed to move forward on that. But I 
would like to request it be put in record for the Secretary to 
respond on a later date.
    Chairman Cummings. Did you understand that request?
    Secretary Ross. I do understand the request. Thank you, Mr. 
Chairman.
    Chairman Cummings. Can you get us that information?
    Secretary Ross. I will consult with my staff and we will 
see what we can do about it.
    Chairman Cummings. Okay. Can you let me know by, say, 
Tuesday?
    Secretary Ross. I'll let you know as soon as we can get 
together, sir.
    Chairman Cummings. Well, that could be next year, Mr. 
Secretary.
    Secretary Ross. I will do my best, sir.
    Chairman Cummings. All right. Thank you very much.
    Mr. Gomez.
    Mr. Gomez. Mr. Secretary, I'm going to move quickly. I'm 
going to ask for yes or no answers. Stay with me.
    We know that you asked about regarding the issue of 
apportionment and population because we have an email about 
that. You asked about it. And we have an email from March 10, 
2017. Earl Comstock, a senior Commerce Department official 
wrote you an email entitled, quote, your question on the 
census. Mr. Comstock included a link to the Census Bureau 
website about apportionment where the Bureau answered the 
question, and I quote, are undocumented resident aliens in the 
50 states included in the apportionment population counts? He 
also included an article from The Wall Street Journal about the 
pitfalls of counting illegal immigrants, unquote.
    Mr. Secretary, did you ever talk with anybody at the 
Department of Commerce about how congressional apportionment is 
affected by counting all persons in the census, yes or no?
    Secretary Ross. Early on in my term as Commerce Secretary, 
I had lots of questions about a lot of aspects of the 
Department.
    Mr. Gomez. Great. That's a yes. Next question. I don't have 
that much time.
    John Gore, who served as acting attorney general of the 
Civil Rights Division at the Department of Justice, and he 
wrote the letter requesting the citizenship question, was 
deposed as part of the New York lawsuit. He testified under 
oath. He said, quote, I believe I may have discussed the topic 
about apportionment with the Attorney General at some point.
    He then refused to answer more questions because that 
discussion of apportionment was part of the discussions leading 
up to his decisions on requesting the citizenship question.
    Mr. Secretary, did you ever talk with Attorney General Jeff 
Sessions about how congressional apportionment is affected by 
counting all persons in the census, yes or no?
    Secretary Ross. I listed Jeff Sessions on my supplemental 
memo.
    Mr. Gomez. So I'll take that--I'll take that as a yes.
    Secretary Ross. I'm sorry, sir, I'd like to answer the 
question. I listed----
    Mr. Gomez. This is my time. I'm reclaiming my time. You're 
not here to ask the questions. I'm here to ask and you respond. 
It was a yes-or-no question.
    On July 14, 2017, Kris Kobach, secretary of State of 
Kansas, emailed you. He said, quote, as you may recall, as you 
may recall, we talked about the fact that the U.S. Census does 
not currently ask respondents their citizenship.
    Mr. Kobach also said that not asking a citizenship 
question, quote, leads to the problem that aliens who do not 
actually reside in the United States are still counted for 
congressional apportionment purposes.
    Mr. Secretary, did you ever talk with Mr. Kobach about how 
congressional apportionment is affected by counting all persons 
in the census, yes or no?
    Secretary Ross. My conversation with Kobach was 
fundamentally about the question that he wanted asked.
    Mr. Gomez. Correct. I reclaim my time. Reclaim my time. 
I'll take that as--I'll reclaim my time. He's not going to save 
you this time. I reclaim my time.
    The citizenship question----
    Secretary Ross. Mr. Chairman, he keeps interrupting my 
answer.
    Mr. Gomez. Mr. Secretary, did you ever talk with anybody at 
the White House about how congressional apportionment is 
affected by counting all persons in the census, yes or no?
    Secretary Ross. Mr. Chairman, he keeps interrupting my 
answer.
    Mr. Gomez. Yes or no. Were you trained--were you trained by 
your attorneys to dodge these questions?
    Secretary Ross. I'm sorry, sir? What was that question?
    Mr. Gomez. Were you trained by your attorneys on how to 
answer questions?
    Chairman Cummings. If you have an answer to the question, I 
will let you answer them. Is that all right, sir?
    Secretary Ross. Thank you, Mr. Chairman. He asked so many 
questions, I don't even remember all of them, so I need to have 
them repeated.
    Mr. Gomez. I like how the Secretary has crisp yes-no 
answers when the Republicans are asking, but when the Democrats 
are asking, that's not the kind of answers he gives.
    Hold on, that wasn't a question. Let's move on.
    Mr. Meadows. I was going to say----
    Mr. Gomez. Secretary Ross, you have portrayed your decision 
to add the citizenship question as a response to DOJ's request 
in December 2017. But the evidence shows that you and your 
staff had been trying to, for months, to find an agency, any 
agency willing to make this request.
    On September 8, 2017, a senior official at the Department 
of Commerce named Earl, again, Earl Comstock, wrote you a memo 
in his efforts to find a Federal agency to request the 
citizenship question. He wrote that he first reached out to DOJ 
in early May, but after several conversations, he was told 
Justice staff did not want to raise the question, given the 
difficulties that Justice was encountering in the press at that 
time.
    So here's the problem. Here is the problem with everything 
you said, because you're trying to say--tell us--you're trying 
to tell us that it was a DOJ request, it was DOJ that initiated 
the process, right? But then we find out that you were shopping 
around the fact that you wanted somebody to ask that question 
or at least propose it.
    You went to the Department of Homeland Security. I don't 
know what the Department of Homeland Security has to do with 
the census, but you went there. But they also said no. So you 
went back to the DOJ.
    A few days later, September 13, you get an email that also 
says Gore asked to speak about the DOJ doc issue with Teramoto. 
He later connects her with the Justice Department official 
Danielle Cutrona, who writes in an email: From what John told 
me, it sounds like we can do whatever you all need us to do, 
and the delay was due to miscommunication. The AG is eager to 
assist.
    Why is he assisting you? Is it like, why is he assisting 
you and not the other way around, right? That is why this 
whole, this whole charade, right, doesn't make sense. It 
doesn't pass the smell test. It doesn't even make sense. You 
know, if you're explaining this to a little kid, you know, you 
really start thinking about it, it doesn't make sense.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Gomez. And, no, that wasn't a question, right. So I 
don't know if you were trained, but one of the things I want to 
know--one of the things I know, that Mnuchin later testified 
today in Ways and Means, and he said he was not there to answer 
questions. So I think you're playing by the same playbook as 
Mr. Mnuchin. So I know you're not here to answer questions; 
you're just here to dodge and delay and to, you know, hide the 
truth.
    Chairman Cummings. Now, would you like to respond?
    Secretary Ross. I don't think there's any need to respond, 
sir.
    Chairman Cummings. Very well.
    Ms. Ocasio Cortez.
    Ms. Ocasio Cortez. Thank you, Chairman.
    Secretary Ross, thank you for coming in and offering your 
testimony today. Kansas Secretary of State Kris Kobach, 
mentioned by my colleague, was noted by The New York Times as 
laboring long and hard in his career, notably in the areas of 
voter suppression and nativism. He stated last year that he 
encouraged President Trump to add a question about citizenship 
to the census during the early weeks of Trump's Presidency. 
Kobach said, quote, I raised the issue with the President 
shortly after he was inaugurated and, quote, he was absolutely 
interested in this. Shortly thereafter, in April 2017, Steve 
Bannon asked you to speak to Mr. Kobach about his, quote, ideas 
about including a citizenship question on the 2020 Decennial 
Census.
    Did you speak to Mr. Kobach about his ideas on the 
citizenship question?
    Secretary Ross. As I described earlier in my testimony, 
Kris Kobach did have a conversation with me early on in my--I'm 
sorry, I'm not finished. Kris Kobach did have a conversation 
with me. He said he had a question he would like us to ask.
    Ms. Ocasio Cortez. Thank you. And I saw here--I'm sorry, I 
must reclaim my time. Mr. Kobach later sent an email to you on 
July 14 writing that the lack of the citizenship question, 
quote, leads to the problem that aliens who do not actually 
reside in the United States are still counted for congressional 
apportionment services. Of course, they do reside in the United 
States, they reside in my district, they're my constituents. 
But he then wrote, quote, it is essential that one simple 
question be added to the upcoming 2020 Census.
    It's all there in black and white. Kobach is clear about 
his reason for adding the citizenship question in his 
correspondence to you. And it has nothing to do with the DOJ. 
It has nothing to do with the Voting Rights Act. It is about 
congressional apportionment to immigrants.
    But following that email and its concerning contents, did 
you cutoff all contact with Mr. Kobach or did you speak with 
him again?
    Secretary Ross. I have no recollection of speaking with him 
again after that.
    Ms. Ocasio Cortez. Well, we do have--you know, the Southern 
District of New York has identified a July 25 call between you 
and Mr. Kobach after that email. Did you bring up Mr. Kobach or 
his ideas about the citizenship question with anyone in the 
Commerce Department after Kobach's email?
    Secretary Ross. I ultimately rejected the question that 
Kobach wanted to ask.
    Ms. Ocasio Cortez. So it does say here, Judge Furman in the 
Southern District of New York wrote that you, in fact, 
mentioned Kobach again in a September 6 meeting--in a September 
6--in a September 6, 2017, meeting on the citizenship question. 
In fact, it was so concerning to your own staff that the 
general counsel expressed, quote, concern about your contact 
with Kobach and recommended talking to others first.
    Do you recall anything about that meeting?
    Secretary Ross. No, I don't. If you have a document--if you 
have a document, I'll be glad to look at it.
    Ms. Ocasio Cortez. I'd be happy to share that. And 
additionally, do you think it would be helpful for us to speak 
with Mr. Kobach about this matter?
    Secretary Ross. I have no idea. The committee has to make 
its own decisions.
    Ms. Ocasio Cortez. All right. One other thing. It's been 
stated multiple times in this hearing that the question is a 
reinstatement of a previous question, but the last time a 
citizenship question specifically around citizenship was 
discussed on the census was in 1950. And I pulled up the old 
question here, and I know it's tough to see from far away, but 
I pulled up the old question that was originally on the census 
in 1950, and I see here that the question that is being 
proposed for 2020 is quite materially different. So it is not a 
reinstatement. It is not to placing again or a restoration of 
the original question. It is a materially different question.
    Now, the U.S. Census Act of 1974 requires that if the 
Secretary finds such a change necessary, they must send a 
report to Congress on the proposed change when the question is 
proposed, not when it is decided upon.
    Was that legally required report to Congress submitted to 
us?
    Secretary Ross. I can't respond to your question about the 
two documents you held up unless you show them to me. I don't 
have them in front of me.
    Ms. Ocasio Cortez. I did not ask a question about the 
documents. I asked if the report that is required of you was 
submitted to Congress.
    Secretary Ross. We filed the required report on March 31, 
2017. We filed another required report on March 31, 2018.
    Ms. Ocasio Cortez. One last thing. So what we don't have is 
the required report to Congress. And while there's all of this 
debate about whether a citizenship question should be included 
or not included, the question I have is why are we violating 
the law to include any question whatsoever in the 2020 Census?
    Chairman Cummings. The gentlelady's time has expired.
    Secretary Ross. I believe she's out of time, Chairman.
    Chairman Cummings. But you please do answer the question.
    Secretary Ross. I don't have any need to respond, sir.
    Chairman Cummings. You don't have a need to respond?
    Secretary Ross. I have no need to respond.
    Chairman Cummings. Okay. Well, I'm asking. Could you answer 
that question, please?
    Secretary Ross. Would you repeat the question, please?
    Ms. Ocasio Cortez. We are now in violation of the U.S. 
Census Act of 1974, which requires you to submit a specific 
report to Congress ahead of any changes that you find 
necessary. This question is not a reinstatement of the 1950 
question. It's a change, which means that change requires you 
to send a report to us while the question is proposed, not 
before it is decided or settled.
    So my question is, why are we violating the law to include 
this question in the 2020 Census?
    Mr. Meadows. Point of order. We need--at this particular 
point, the gentlewoman is talking about a statute that's been 
violated. There's been no enunciation of what that statute is. 
I don't even know what she's talking about.
    Ms. Ocasio Cortez. I'd be happy to provide it.
    Chairman Cummings. Yes. I think she laid it out pretty 
nicely. She said it twice. I'm serious. Give him----
    Mr. Meadows. But in previous testimony, Mr. Chairman, he 
said that they've submitted reports, and----
    Ms. Ocasio Cortez. And there are three reports required. 
They submitted the first one and the second one, but not the 
third one that is required to Congress. And it is in--this is 
here in U.S. Code--13 U.S. Code, section 141, population other 
census information, subsection (f)(3), and I'd be happy to 
provide that to you.
    Chairman Cummings. Now, I notice that all your--I guess 
those are attorneys back there squirming around telling you 
stuff. Maybe they can help us with this answer. Did they tell 
you what the answer is to that? You have a lot of people back 
there.
    Secretary Ross. I've been told by counsel that we have 
complied with all the regulations. I will take up with counsel 
the suggestions that have been made by the Congressperson, and 
we will get back in due course on the record.
    Chairman Cummings. As a followup on that question, can you 
give me that in writing, the fact that you complied with the 
law?
    Ms. Ocasio Cortez. And, Mr. Chair, I'd also like to note 
that, according to our committee staff, there is not compliance 
with (f)(3).
    Chairman Cummings. Well, he's going to give me--he said he 
did. So he's going to give me a statement. He's still sworn. 
He's going to give me a statement saying he did. So I'm looking 
forward to that statement, counsel.
    Ms. Ocasio Cortez. Thank you.
    Chairman Cummings. All right? All right? All right.
    Mr. Raskin. Mr. Chair?
    Chairman Cummings. Yes. Yes.
    Mr. Raskin. I've got a point of order. I've noted today 
that several members have spoken of and the witness invoked 
confidentiality, and I understand this is happening in some 
other committees as well. And of course, we understand that 
there's something called an executive privilege, like there's a 
priest penitent privilege, there's a spousal privilege that 
Congress may or may not recognize as a common-law privilege, 
but when people invoke confidentiality, there's no 
confidentiality privilege, unless some of the lawyers here 
could cite a case. I don't really understand the new trend of 
people----
    Mr. Meadows. Mr. Chairman, that's not a point of order.
    Mr. Raskin. But I want to know----
    Mr. Meadows. What's the rule that's being violated? It's 
not a point of order.
    Mr. Raskin. But the point of order is how are we to respond 
when----
    Mr. Meadows. What rule is being violated?
    Mr. Raskin. The rule that's being violated is that every 
witness owes truthful testimony to Congress. So I want to 
know----
    Mr. Jordan. You want to talk about that?
    Mr. Raskin [continuing]. when someone invokes 
confidentiality, is that a rule?
    Chairman Cummings. Let me--I can--whoa, whoa, whoa, whoa. 
Hold up. Can you get--you've said here--you said, in response 
to several questions, certain things were confidential. Is that 
right?
    Secretary Ross. Yes, and that I'm not authorized to 
disclose.
    Chairman Cummings. And you're not authorized. And if there 
is some special privilege that we don't know about, I'd 
appreciate it if your counsel would let us know what that is.
    Secretary Ross. I'm not a lawyer, sir.
    Chairman Cummings. That's why I'm saying. Are there any 
lawyers back there, of all those people behind you? You've got 
a whole baseball team back there.
    Mr. Raskin. One of them, Mr. Chair, is a very fine former 
student of mine.
    Chairman Cummings. I'm not trying to be funny. No, no, no, 
no, no, no. Wait a minute.
    Ms. Ocasio Cortez. Mr. Chair, I'm sorry, before we move on, 
could I seek unanimous consent to submit these documents?
    Chairman Cummings. Tell me what they are. Tell me what they 
are.
    Ms. Ocasio Cortez. The first is the U.S. Code that I 
referenced, and the other two documents are the two original 
questions.
    Chairman Cummings. Without objection, so ordered.
    Ms. Ocasio Cortez. Thank you very much.
    Chairman Cummings. Now, Mr. Raskin----
    Mr. Raskin. So all I'm asking for is some clarification 
from the chair or perhaps from some of the legal counsel 
present as to how they transmit a private statement of 
confidentiality from one private person or public person to 
another into a privilege against testimony before the U.S. 
Congress. Because I'm not aware of any case that stands for 
that principle, and I'm afraid we're going to go down a very 
dark road if anyone could say I would love to tell you, but I 
said it would be confidential.
    Chairman Cummings. Well, hopefully, the counsel will get 
us--it's my understanding there's not a privilege, but maybe 
you all have some new law that was just established in the last 
three minutes. And I'd like to see it, all right?
    So you got enough lawyers back there. How many of you all 
are lawyers? Anybody? None of them are lawyers?
    Secretary Ross. Thank you, sir. I will consult with my 
counsel.
    Chairman Cummings. Very well. Well, they're with you, 
though, right?
    Secretary Ross. I'm sorry?
    Chairman Cummings. All those people behind you, the ones 
that keep coming up and whispering in your ear.
    Mr. Meadows. I hope they're with him.
    Chairman Cummings. Anyway, finally but not least, the 
distinguished lady from Massachusetts, Ms. Pressley.
    Ms. Pressley. Thank you to our distinguished chairman, who 
has given us each the challenge and the charge as members of 
this committee to be efficient and effective in pursuit of the 
truth. And so bearing that in mind, I'm going to try to do that 
in my line of questioning and move quickly here.
    Picking up on the line of questioning from several of my 
colleagues earlier regarding your interaction with Attorney 
General John Gore. We have an email documenting what appears to 
be a second call that you had with the Attorney General in 
September 2017. On September 17, 2017, your chief of staff 
emailed two DOJ officials to arrange a call with the Attorney 
General. One staffer wrote back on September 18, quote, from 
what John Gore told me, it sounds like we can do whatever you 
all need us to do, and the delay was due to a miscommunication. 
The AG is eager to assist, unquote.
    The email shows you then spoke to the Attorney General that 
day on September 18. What did you discuss with the Attorney 
General in September?
    Secretary Ross. I listed the Attorney General as one of the 
parties with whom I had conversations prior to the March 26 
decision memo and prior to the December 12, 2017, letter. The 
content of those conversations is confidential. I'm not 
authorized to disclose them, and I cannot discuss it further.
    Ms. Pressley. So I'm reclaiming my time. I do not believe 
it is confidential.
    On any of your calls with the Attorney General, did you ask 
the Attorney General to send you a letter requesting the 
addition of a citizenship question, yes or no?
    Secretary Ross. As I have said before, the content of my 
conversations with the Attorney General are confidential. I'm 
not authorized to disclose them, and I have nothing further to 
say on that question.
    Ms. Pressley. All right. Well, in the pursuit of being 
efficient and effective, I will move on.
    We can all agree on both sides of the aisle that--and I'm 
sure you agree as well--that it's critical that we have an 
accurate census count. Do you agree, yes or no?
    Secretary Ross. We are trying our best to get----
    Ms. Pressley. Yes or no, reclaiming my time, do you agree 
that it's critically important that we have an accurate census 
count?
    Secretary Ross. I have to answer the question as best I 
can.
    Ms. Pressley. Okay. Reclaiming my time, moving on. In order 
for us to have an accurate census count, we need to have the 
appropriate funding and staffing levels in order to administer 
the census, yes or no?
    Secretary Ross. I have increased the budget by 3.2 or so 
billion dollars in order to make sure that we are not 
underfunded in the context of the 2020 Census. That's roughly a 
25 percent increase over the Obama Administration----
    Ms. Pressley. I'm sorry. Reclaiming my time. Was it your 
testimony earlier that Mr. Trump prepared a budget that did not 
include your input for what would be required? Was that your 
testimony earlier, that the budget was prepared without your 
input and that you had also not read it? Was that your 
statement on the record earlier?
    Secretary Ross. I'm sorry, there's a whole lot of 
questions. Which one would you like me to answer?
    Ms. Pressley. Okay. I'm going to move on. Actually, just 
going back on Attorney General Gore, it may be confidential, 
but it's not privileged. So, again, one more time, could you 
disclose what was the nature of your phone call with the 
Attorney General if at any point you asked him to include the 
immigration question in the census, the citizenship question?
    Secretary Ross. My answer is the same as what I gave you 
before.
    Ms. Pressley. Okay. All right. Let me get back to staffing 
levels. The GAO's high risk report says the Census Bureau 
office responsible for managing the IT integration contract is 
severely understaffed. The report states, quote, as of November 
2018, 21 of 44 positions in this office were vacant. That means 
practically half of these positions meant to oversee IT 
government contractors were vacant as of a few months ago.
    Does the Census Bureau have a plan to fill these vacancies?
    Secretary Ross. Does the Census Bureau have a plan to what?
    Ms. Pressley. To fill these vacancies. As you well know, 
the census is moving online, and this IT integration is 
critical to ensure that there is an accurate count. I already 
have great concerns about a digital divide since roughly 3 in 
10 adults with household incomes below $30,000 a year don't 
even own a smartphone. So how does the Census Bureau have a 
plan to fill these vacancies within the IT integration 
contract?
    Secretary Ross. Well, we just recently filled by finally 
having the Senate confirm, after a very long wait, our new 
permanent director of the Census Bureau.
    Ms. Pressley. I'm sorry, reclaiming my time. 21 of 44 
positions were still vacant. Is that still true? You just named 
one, so----
    Secretary Ross. I don't recall the exact number.
    Ms. Pressley. Okay. Reclaiming my time. What are the 
biggest risks to the census if this contract does not have 
adequate oversight?
    Secretary Ross. I believe you're out of time, ma'am.
    Ms. Pressley. Well, that's at the discretion of the chair.
    Chairman Cummings. You can answer the question.
    Ms. Pressley. Yes. Secretary Ross, what are the biggest 
risks to the census if these contracts do not have adequate 
oversight?
    Secretary Ross. I believe the contracts do have adequate 
oversight. We have instituted weekly reporting on the status of 
every single contract. I meet weekly with the deputy secretary. 
I meet monthly with a larger group of the census. And as to the 
matters you're referring to, they tell me we are on time and on 
budget.
    Chairman Cummings. Very well.
    Ms. Pressley. Thank you.
    Chairman Cummings. I want to thank you very much.
    I will now recognize Mr. Meadows for unanimous consent 
request.
    Mr. Meadows. Thank you, Mr. Chairman.
    I ask unanimous consent that the--from 2005 until the 
current time, that the American Communities Survey be entered 
into the record, where it shows that the exact citizenship 
question on the vast majority of these is precisely the same 
question that's being proposed here. I ask unanimous consent.
    Chairman Cummings. Without objection.
    Mr. Meadows. Thank you, Mr. Chairman.
    I ask unanimous consent that the application for personal 
firearms eligibility check application from California, which 
actually has a citizenship question on it be entered into the 
record as well.
    Chairman Cummings. Without objection, so ordered.
    Mr. Meadows. And last one, I ask unanimous consent that the 
newest proposal--or the newest letter from the GAO showing the 
substantial improvement of the Department of Commerce in terms 
of the high risk nature of the census be entered into the 
record.
    Chairman Cummings. Without objection, so ordered.
    Mr. Meadows. Thank you, Mr. Chairman. I yield back.
    Chairman Cummings. I now recognize the ranking member, Mr. 
Jordan, for a unanimous consent request and his closing 
statement.
    Mr. Jordan. Thank you, Mr. Chairman.
    I ask unanimous consent, a study from the Heritage 
Foundation, which finds that strict ID laws have no significant 
negative effect on registration or voter turnout.
    Chairman Cummings. Without objection, so ordered.
    Mr. Jordan. I thank you.
    Look, I'll be brief. I want to thank you, Secretary Ross. 
Six hours and 20 minutes you've come here, answered all kinds 
of questions. Appreciate your service to our country and your 
leadership at the Commerce Department. But six hours and 20 
minutes for basically one question, which is, why don't the 
Democrats want to know. Why don't they want to know how many 
people in this country are citizens of the United States? I 
mean, I find that almost astounding. But thank you for doing 
it. Thank you for your service.
    And with that, Mr. Chairman, I yield back.
    Chairman Cummings. Thank you very much.
    First of all, I want to thank all of our members for 
sticking around, the ones that have. I really appreciate it. 
It's so very important to our democracy that we do this.
    To you, Secretary Ross, I want to thank you. I know we had 
to postpone this, and we worked with you as best we could, but 
you got here and you've answered our questions.
    I wrote you a letter last week, and I was very reasonable. 
I accommodated your request to limit the scope of today's 
hearing. But in return, I made it clear that we expected you to 
answer all our questions.
    I explicitly wrote in my letter that the Supreme Court does 
not recognize or claim that you can withhold documents from 
Congress based on the argument that there is separate ongoing 
litigation. You wrote a letter back to me, and you agreed to 
coming here and answer our questions.
    But today when I heard your testimony, I felt like you were 
trying to pull a fast one on me. I've got to be honest with 
you, man. You went back to the old argument about ongoing 
litigation. I was a little disappointed.
    You refused to answer questions about conversations with 
Attorney General Sessions and others about the citizenship 
question. And I must tell you that I was not convinced. The 
Jeff Sessions that I know, I don't recall him being that 
concerned about voting rights. I'll be honest with you. And I'd 
be lying to you if I said anything different.
    And let me make this clear so that there would be 
absolutely no doubt, Mr. Secretary. This committee does not 
accept the argument that you can withhold documents or 
testimony from us because you have other separate litigation. 
That is not a valid basis to withhold information from the 
Congress of the United States of America.
    Representative Raskin provided you with the legal citations 
today. He is a distinguished law professor and particularly in 
the area of constitutional law. He also provided extensive 
precedence from both Republican and Democratic chairmen of this 
committee who conducted numerous investigations for decades 
during ongoing outside litigation.
    So here's what I'm going to do. I'm going to give you till 
Tuesday, and that should give you enough time to consult with 
your lawyers. Then I would like for you to produce all of the 
priority documents this committee has requested.
    You keep telling me you're going to meet with your staff, 
and then I asked you when it's going to be, and basically you 
are saying that could be forever. Well, guess what? I don't 
have forever, nor do you, nor do the American people. So we 
will not accept any argument that you are withholding documents 
due to ongoing litigation.
    Now, if you don't agree with this, you will basically be 
forcing us to consider a subpoena. I don't want to do that. 
I've been very careful with subpoenas. And I do not want to get 
into that. I just want the committee to have the documents so 
that we can do our job pursuant to the Constitution of the 
United States.
    But if you refuse, you will leave me with no choice. We may 
have to start conducting transcribed interviews with staff from 
the Department of Commerce and the Department of Justice who 
are involved in adding the citizenship question.
    And it does alarm me--and I've got to tell you, I've 
listened to you very carefully. And for the life of me, you 
know, I've been thinking about how are you going to get around 
some of the issues that have been raised with regard to whether 
your testimony was consistent and whether this came from DOJ or 
this came--originated with you.
    I've listened to you, Mr. Secretary, and I tell you, I'm 
not totally convinced that this did not come directly from Mr. 
Bannon, and it did not come from the very beginning--I mean, 
you may have had it in mind from the very beginning. But you've 
testified under oath. I accept that. And if we do not--by the 
way, if we don't get the documents and the answers to our 
questions, we may need to bring you back.
    Now, a number of members have said a lot of things about 
wanting to make sure that the census is done properly, wanting 
to make sure that the funding's there, make sure the personnel 
is there, IT, all that. We will continue to bring you back.
    I will never forget, when I first became chairman, the 
first thing that The New York Times asked me was, what is your 
No. 1 priority. I told them the census, because it affects so 
much. And so, again, I hope that we don't have to bring you 
back, but we will.
    Mr. Jordan. Mr. Chairman, could I ask a question?
    Chairman Cummings. Yes.
    Mr. Jordan. Yes. Just a question. You gave the Commerce 
Secretary five days for certain documents that have been 
brought up in the course of this hearing, and two weeks ago, we 
had a witness who indicated he had all kinds of audio 
recordings of his clients and folks that he had conversations 
with. And you said, sitting right there, you want those 
audiotapes. You said, we definitely want those audiotapes. So--
but you didn't give any timeframe. I want to know, do you have 
those, and if not, are you going to set a deadline for Mr. 
Cohen to turn over what you said you wanted two weeks ago in 
that hearing?
    Chairman Cummings. Let me be abundantly clear, I run this 
committee.
    Mr. Jordan. I know, and that's why I'm asking. That's why 
I'm asking.
    Chairman Cummings. Sir, I have the floor.
    Mr. Jordan. I understand you do, and I asked a question. 
You just gave the Commerce Secretary five days to comply.
    Chairman Cummings. I have the floor.
    Mr. Jordan. Okay. Will you answer the question?
    Chairman Cummings. I will decide. I've, again--I want to 
thank you very much for being here.
    With regard to any tapes and things of that nature, believe 
me, I'm on top of it. I am a man of my word. And you get----
    Mr. Jordan. I'm just asking when----
    Chairman Cummings. No. No, no, no, no. I will let you know.
    Mr. Jordan. Well, I look forward to that.
    Chairman Cummings. Yes, I will. I'm a man of my word, and I 
will continue to be that.
    Again, I want to thank members of this committee and this--
and again, Mr. Secretary, thank you so much. Thank you for 
working with us. I really appreciate it.
    Secretary Ross. Thank you for your courtesy, Mr. Chairman.
    Chairman Cummings. All right. The hearing is adjourned.
    [Whereupon, at 4:32 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
